<html>
<title> - GOVERNMENT AND TELEVISION: IMPROVING PROGRAMMING WITHOUT CENSORSHIP</title>
<body><pre>[Senate Hearing 105-218]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-218


 
  GOVERNMENT AND TELEVISION: IMPROVING PROGRAMMING WITHOUT CENSORSHIP

=======================================================================

                                HEARINGS

                               before the

 SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND
                        THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                        APRIL 16 AND MAY 8, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs



                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 40-047 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                        Ron Utt, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................ 1, 39
    Senator Lieberman............................................ 2, 41
    Senator Cleland..............................................     7

                               WITNESSES
                       Wednesday, April 16, 1997

Hon. Mike DeWine, a U.S. Senator from the State of Ohio..........     4
Dale Kunkel, Ph.D., Associate Professor, Department of 
  Communication, University of California-Santa Barbara..........     8
Jeffrey I. Cole, Director, UCLA Center for Communication Policy..    10
Helen K. Liebowitz, Member, National PTA Board of Directors......    23
Whitney G. Vanderwerff, Ph.D., Executive Director, National 
  Alliance for Non-Violent Programming...........................    26
Michael Brody, M.D., American Academy of Child and Adolescent 
  Psychiatry Media Committee.....................................    29
David Walsh, Ph.D., Executive Director, National Institute on 
  Media and the Family...........................................    31

                         Thursday, May 8, 1997

L. Brent Bozell, III, Chairman, Media Research Center............    44
David Murray, Director of Research, Statistical Assessment 
  Service........................................................    45
Jane Brown, Professor, University of North Carolina-Chapel Hill 
  School of Journalism and Mass Communication....................    55
Laurie Lee Humphries, M.D., Professor, Child and Adolescent 
  Psychiatry Department, University of Kentucky College of 
  Medicine.......................................................    57
Mary Anne Layden, Director of Education, University of 
  Pennsylvania, Center for Cognitive Therapy.....................    59
Sarah S. Brown, Director, National Campaign to Prevent Teen 
  Pregnancy......................................................    72
Elayne Bennett, President and Founder, Best Friends Foundation, 
  accompanied by Sue Lei, from the School Without Walls, Whitney 
  Brown, and Nefertina Francis, from Amidon......................    75

                     Alphabetical List of Witnesses

Bennett, Elayne:
    Testimony....................................................    75
    Prepared statement...........................................   219
Bozell, L. Brent III:
    Testimony....................................................    44
    Prepared statement...........................................   144
Brody, Michael, M.D.:
    Testimony....................................................    29
    Prepared statement...........................................   138
Brown, Jane:
    Testimony....................................................    55
    Prepared statement...........................................   156
Brown, Sarah S.:
    Testimony....................................................    72
    Prepared statement...........................................   209
Cole, Jeffrey I.:
    Testimony....................................................    10
    Prepared statement...........................................   100
DeWine, Hon. Mike:
    Testimony....................................................     4
Humphries, Laurie Lee, M.D.:
    Testimony....................................................    57
    Prepared statement...........................................   203
Kunkel, Dale, Ph.D.:
    Testimony....................................................     8
    Prepared statement...........................................    87
Layden, Mary Anne:
    Testimony....................................................    59
    Prepared statement...........................................   206
Liebowitz, Helen K.:
    Testimony....................................................    23
    Prepared statement...........................................   122
Murray, David:
    Testimony....................................................    45
    Prepared statement...........................................   147
Vanderwerff, Whitney G., Ph.D.:
    Testimony....................................................    26
    Prepared statement...........................................   134
Walsh, David, Ph.D.:
    Testimony....................................................    31
    Prepared statement...........................................   141

                ADDITIONAL COPY SUBMITTED FOR THE RECORD

``Sex, Kids and the Family Hour, A Three-Part Study of Sexual 
  Content on Television,'' a special report from Children Now and 
  the Kaiser Family Foundation, submitted by Jane D. Brown, Ph.D.   159
``Sex and the Mass Media,'' by Jane D. Brown, Ph.D. and Jeanne R. 
  Steele, M.S., The University of North Carolina at Chapel Hill, 
  School of Journalism and Mass Communication....................   171


  GOVERNMENT AND TELEVISION: IMPROVING PROGRAMMING WITHOUT CENSORSHIP

                              ----------                              


                       WEDNESDAY, APRIL 16, 1997

                                       U.S. Senate,
Oversight of Government Management, Restructuring, and the 
                         District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:07 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senators Brownback, Cleland, and Lieberman.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. I think we will go ahead and call the 
hearing to order, if we could, and we will do the unusual thing 
of starting somewhat close to on time for this hearing.
    We have a number of good witnesses to testify today about a 
very important issue. The issue in front of the Subcommittee 
today is television violence and the role that the Federal 
Government can and should play in alleviating the negative 
impact that such violence and sexual innuendo and comment has 
on children.
    I am pleased that we have three extremely distinguished 
panels, including Senator Mike DeWine of Ohio, researchers, 
medical experts, child advocates, and representatives of parent 
groups.
    The issue of the impact of television on children 
represents one of the most vexing problems the country faces 
today. Parents across the country feel as though they are 
having to fight their culture to raise their children and it 
certainly should not be that way. It certainly has not always 
been that way. In the past, parents have felt that they have 
been supported by their culture in raising their children 
rather than having to fight it.
    Television is the center of gravity of American culture, 
and arguably, even of world culture, and as such, it is 
critical that television have a positive influence on our 
culture, which is, sadly, not always current the case and many 
times is not the case at all today.
    What can and should the Federal Government do about the 
decline of our culture and the negative impact that violence in 
television content has on our children? Well, certainly what 
government should not do is engage in censorship and government 
should not impose its standards on the broadcast industry.
    As a result, we need to look at other ways that the Federal 
Government can have a positive influence on the television 
debate, and one such way would be for the Federal Government to 
remove the perceived barriers, either real or artificial, to 
the creation of voluntary programming guidelines by the 
industry. This would essentially be a code of conduct for the 
21st Century, setting an industry standard by the industry, a 
standard below which the industry would not go, taking into 
account the incredible amount of change that has occurred in 
the broadcast industry.
    Some argue that there is no government impediment to the 
creation of such a voluntary guideline while some believe that 
there is an impediment, and we certainly want to make it 
abundantly clear that there is no impediment and we intend to 
remove any sort of perceived antitrust law impediment that 
might exist.
    That is certainly why I have joined forces with Senator 
Lieberman, Senator DeWine, and Senator Kohl to introduce the 
Television Improvement Act of 1997. Our bill picks up on 
Senator Simon's bill that created an antitrust exemption for 
the industry from 1990 to 1993. However, we seek to provide the 
industry with a permanent exemption from U.S. antitrust laws to 
create a code of conduct for the television industry for the 
21st Century.
    The television industry must do something to alleviate the 
negative impact that violence and sexual innuendo in the 
television content currently has on our children. Government's 
role should be to be limited to removing any barriers that 
prevent the industry from engaging in this activity.
    This is a most serious activity taking place, particularly 
when you can look around all across our Nation or you can look 
right in this very town of what things are taking place, what 
our children are doing, what is being reported in the newspaper 
that is happening even in the schools in Washington, D.C., and 
how much of an influence is television having on those sorts of 
activities that are taking place.
    I hope our witnesses today can help illuminate some 
information to us of the impact of television on child activity 
and what we can do to help alleviate that and help renew the 
American culture in the process.
    I am delighted that joining me today is Senator Lieberman. 
There will probably be some other members, as well, joining us 
in a little bit. Senator Lieberman, I would turn the microphone 
to you for an opening statement.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Mr. Chairman. Thanks very 
much for your leadership. I appreciate the opportunity to work 
with you on these areas of common and broad concern.
    Mr. Chairman, as you know, I was one of the original 
cosponsors of the so-called V-chip legislation and there has 
been quite a hullabaloo, which I have been part of, about the 
accuracy and the comprehensiveness of the ratings system that 
has been adopted by the television networks in response to the 
V-chip.
    But the reality is that all that hullabaloo should not 
distract us from the main event here, which is that what really 
matters is what the folks in television put on the tube, not 
how they rate it, and that is what our focus, I am pleased to 
say, is here today.
    You and I share a strong feeling, along with others, such 
as our colleague, Senator DeWine, that we need to recenter this 
debate and to bring the television industry back, force them 
back to a focus on the content of what they are putting on the 
air and on the impact it has on our children, on our culture, 
and on our country.
    The right kinds of ratings coupled with the V-chip will 
certainly help parents to do their job better, but the bottom 
line that I hear in Connecticut and that I know you hear in 
Kansas is that the public is crying out for something more than 
good labels on bad programming. They want television that, more 
often than not, reflects rather than rejects the common values 
that we share as Americans, as a people.
    They want television to draw some lines and to say that 
there are some things that are just too vicious or degrading or 
prurient or vulgar to put on television screens and send into 
the homes of millions of Americans where kids are watching. In 
short, I think what we are all asking for here is higher 
standards.
    With that in mind, I have been pleased and privileged to 
join with Senator Brownback and Senator DeWine and others in 
introducing this legislation that, we believe, can go a long 
way to enabling the television industry to address some of the 
public's concerns. The Television Program Improvement Act of 
1997, which is numbered S. 539, would allow and encourage the 
broadcast and cable industries to come together to develop a 
set of voluntary guidelines that are aimed at reducing the 
negative impact television is having and producing more 
responsible programming.
    There is a kind of ``everybody else is doing it, so how can 
I not do it'' attitude in the television industry and we are 
trying to say here, get together, and if you are worried about 
antitrust violations, we are going to exempt you from that so 
you can set some standards, new standards within which you can 
compete, drawing some lines which you, Mr. and Mrs. Television 
Executive, are saying you will not cross those lines, even 
though you could make money doing it, because it is bad for our 
country.
    What we are really hoping for is an industry-wide code of 
conduct similar to the old National Association of Broadcasters 
television code which was totally self-drawn, no government 
involvement, and that is what we hope will happen here again.
    We are building this, as the Chairman indicated, on work 
that Senator Paul Simon did with the original Television 
Program Improvement Act, upon which our bill is modeled and in 
which Senator Simon and the Congress challenged the Nation's 
television programmers to become more responsible in their 
portrayals of violence.
    Much has happened in the intervening period since that 
legislation. Perhaps most notably, two major monitoring studies 
have been performed, giving us a comprehensive view of the 
violence flickering across our screens on a daily basis.
    So today, we are going to be able to ask, what do these 
studies show? How well has the industry responded to the 
challenge Senator Simon gave them? What do parents think of the 
steps industry has taken to alleviate the harm done by on-air 
violence? And, I suppose most pertinent to our legislation, are 
there additional steps the industry could take, as we believe, 
to reduce the amount of gratuitous violence that is so easily 
accessible to our children and gives them so many ideas about 
what is acceptable behavior and what is an acceptable way to 
resolve conflicts.
    Mr. Chairman, I do want to note just finally that this is a 
very distinguished and comprehensive group of witnesses and I 
look forward to the testimony. I do note with regret the 
absence of representatives of the television industry itself, 
though I know that they were invited, and I find their failure 
to appear disappointing, at least.
    I gather that they may come to our third hearing, which 
will focus on the constitutionality of our legislation and 
other such proposals, but I wish they would enter into the 
debate about how much violence, how much sexual content, how 
much vulgarity is on television and to talk about what we can 
do together to improve this.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Senator Brownback. Thank you, Senator Lieberman. I 
appreciate that very much and your leadership that you have 
shown on this topic for some period of time.
    I am going to call our first panel up. It will be the Hon. 
Mike DeWine, a U.S. Senator from Ohio who has been a leader on 
this topic, as well, who has certainly interest from a 
subcommittee that he chairs on this issue, as well. We are 
delighted to have him.
    We are also delighted to have Senator Max Cleland, who came 
in with me in this latest class. Max, we are pleased to have 
you here.
    Senator DeWine, the floor is yours.

TESTIMONY OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Mr. Chairman, thank you very much, Senator 
Lieberman, Senator Cleland. I appreciate the opportunity to 
testify here today.
    First, let me congratulate you for the introduction of this 
bill. You are tackling certainly an important problem that 
vitally affects the culture of our society and I believe you 
have done so with foresight, diligence, and genuine concern. I 
might also add, I think you have done it with restraint. I 
think you have taken the right approach.
    As Chairman of the Judiciary Committee's Antitrust 
Subcommittee, I ought to mention that my subcommittee will be 
holding a hearing on the antitrust implications of this bill, 
and that is, of course, the third hearing that you mentioned. 
Antitrust, though, is not my primary concern about this 
legislation. It certainly is important, but when I look at this 
legislation and what I perceive to be the need for this 
legislation, I am not focusing on antitrust.
    I am not focusing on it really as the Senator from the 
State of Ohio. I think I look at this more as a parent. I do 
not pretend to be an expert on television. I do not pretend to 
in any way match the expertise that you are going to hear later 
today and that we will hear in the other hearings about what 
goes on TV and the content of TV, but I do think I know 
something about kids. I do think I know something about 
children.
    My wife and I have had eight children. They range in age 
now from Anna, who is turning five this week, to Patrick, who 
is 29. So we have had, my wife jokingly says--and it is not a 
joke, it is true--we have had children in the 1960s, 1970s, 
1980s, and 1990s. So we have seen quite a change.
    Senator Lieberman. We are close to another decade now, I 
just wanted you to know.
    Senator DeWine. Consult Fran about that. [Laughter.]
    There has been quite a change in this period of time and we 
have seen it as parents, as consumers, but you look at TV 
differently when you have kids. We have looked at TV now for a 
quarter of a century as parents and there has been a tremendous 
change in TV, in network TV, and I think, by and large, it has 
not been for the good. I think it has gone, really, in the 
wrong direction.
    The term ``the coarsening of America'' is used. That is 
certainly not original with me, but I will repeat it because I 
think it is a good way of describing what we see in this 
country. It is a good way of describing what we see portrayed 
on TV.
    There is legitimate concern that I share with you about the 
amount of sex on TV, the amount of violence on TV, but I will 
tell you that the thing that, I guess, really bothers me as a 
parent is not just the violence and the sex, but what really 
bothers me is that TV holds up certain things as the norm in 
society.
    TV, for many people today, becomes a reality. We live in a 
changing society. We live in a society where many times we do 
not know our neighbors, unlike our grandparents' generation or 
great-grandparents' generation. Many times, the social 
interaction between people has been--we have seen TV really 
substitute for that, and children looking at TV and looking at 
the situations portrayed on TV at 8 o'clock or at 8:30 or 
sometimes at 7 o'clock at night now, I think, see a reality or 
a norm that is not the America that I know.
    So I think TV, instead of portraying America, I think TV 
portrays a different America, a different America than I 
accept, a different America than I see, a different America 
than I know, traveling the State of Ohio and meeting with 
thousands and thousands of people every day. To me, that is the 
real danger of what we see on TV today, that for many people, 
it becomes a reality and the reality that is portrayed on TV, I 
do not think is correct, nor do I think it is the right norm. I 
do not think it accurately reflects, certainly, the values of 
this country.
    As parents, we certainly always try to control what our 
children see on TV, but we are never totally successful. 
Sometimes, we are not very successful at all as parents. It is 
a tough thing, and my wife and I have struggled with this, as I 
said, for many, many years.
    But even assuming if parents had the magical wand and could 
exercise total control of what their kids see in their own home 
and what they see when they go visit friends and what they see 
sometimes when no one is there, even if you could totally 
control that, I think we have an interest as a society in what 
is broadcast on TV because it affects the entire society and it 
affects the world we all live in. It affects the world our 
children are going to live in, whether they watch it or do not 
watch it.
    So this is a problem, frankly, that parents cannot solve 
themselves. It is a problem that has to be solved by society as 
a whole, by the broader civil society, and the entertainment 
industry simply cannot take a walk on this. They have to be 
involved in this.
    I have been seeing a steady decline in the quality of TV, 
really, over the last 25 years. It used to be possible to find 
family-oriented programming on network TV. Today, I think that 
situation has changed. Today, we basically are finding family-
oriented shows relegated to cable.
    You could make the argument that if you have cable and if 
you have unlimited money and if you can buy the Disney Channel 
and if you can select other channels, the history channel and 
make selections on A&E and other things, there is more 
diversity today in some respects than there ever has been 
before. That is true only if you include the entire cable 
spectrum.
    So what we have is a situation where, yes, there is more 
diversity, and yes, there are a lot of choices even for family 
shows if you have the money, if you can afford the cable, if 
you can afford some of the premium stations, and if you can buy 
it. But for people who cannot get cable or for people who 
cannot afford cable, I think the options are much, much fewer 
today than ever before in the history of TV.
    The shows that you see even on cable today, the Family 
Station, for example, are many times reruns of what our older 
children watched 15, 20, or 25 years ago. That is what they 
are. That tells us something about what programming is actually 
available out there.
    I think it is simply wrong, Mr. Chairman, for the network 
TV to remain stuck in this downward cycle, where the bad is 
literally driving out the good. I believe that we, as citizens, 
need to look for creative ways to try to turn this around. I 
believe this bill is creative. I think the bill we are talking 
about today is an important step in the right direction.
    Now, I recognize that programming is driven by competitive 
pressures, as Senator Lieberman has pointed out, and it is 
competitive pressures from different programming sources. But 
this bill basically calls for a cease fire among cable and 
networks and it calls for that cease fire in the name of 
American families, so that the networks and cable can try to 
work out industry-wide response to the demand that I hear from 
millions of American parents for more family-oriented shows.
    I believe, in conclusion, Mr. Chairman, that this is a 
restrained approach. It is sort of a light approach. It is the 
proper approach. It says simply that if anybody thinks that 
there is any impediment to the networks talking among 
themselves, as Senator Lieberman said, talking among themselves 
to come up with a decent code, a code of standards, if anybody 
even remotely thinks that is true, this bill says it is not 
true.
    And it also says to the networks, quite frankly, do not 
come to the American people anymore and use that as an excuse. 
Do not come and say, we cannot do it because there is some 
legal prohibition. The bill that you have written simply says 
that excuse is gone.
    And it is, I think, the right approach. I would hope we can 
pass this legislation. I would hope we would see responsible 
action by the networks, frankly, not just to keep off some of 
the things that we see on TV or to lessen the violence or 
lessen the sex but really to improve the quality of TV, 
particularly in shows that are aimed at families and shows that 
a parent can watch along with a 10-year-old child or a 13-year-
old or 14-year-old child. I think this is very, very 
significant.
    I look forward, Mr. Chairman and Senator Lieberman, to 
working with you and other Members of the Subcommittee on this 
legislation. I very much appreciate the opportunity to testify 
this afternoon.
    Senator Brownback. Thank you, Senator DeWine. I appreciate 
that statement and your support for this.
    I think we all share the opinion that what we are after 
here is better programming and it is not for us to try to 
censor or to make something happen but to encourage an industry 
to allow something to happen that they can clearly do and they 
have done in the past, as well.
    I am going to be cognizant of your time. I know you have 
another hearing to go to, so rather than asking questions 
myself, I will pass it on to Senator Lieberman, if he might 
have any questions or comments.
    Senator Lieberman. I do not, Mr. Chairman, just to thank 
our colleague for an excellent statement. It is great to be 
working with you on this children. I think the eight children 
makes you a certified in this area.
    Senator Brownback. I like the idea of there is another 
decade coming.
    Senator DeWine. I will convey that to my wife.
    Senator Lieberman. Just do not tell my wife I said that.
    Senator Brownback. Senator Cleland, would you have any 
questions?

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. We are just delighted to have you appear 
before us and thank you for putting your shoulder to the wheel 
on something that is of growing importance to the country and 
to all of us. It is quite clear that television has a massive 
impact on the lives of young people and I am one of those young 
people. It had a massive impact on my life in a positive way. 
Of course, I grew up in the 1950s. But, Lord knows if I was 
growing up today what kind of impact it would have. So we are 
delighted that you are here and we look forward to further 
testimony.
    Thank you, Mr. Chairman.
    Senator DeWine. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator DeWine.
    I would like the second panel to come forward, Dale Kunkel, 
Associate Professor, Department of Communication, University of 
California-Santa Barbara, and Jeffrey Cole, Director of UCLA 
Center for Communication Policy.
    Both of these gentlemen have conducted broad-based studies 
looking at the impact of violence and of television and what is 
taking place today, how the industry has improved or digressed. 
I think most people may have seen some of their reports from 
their studies that have come forward and we wanted to have them 
here today to testify about those studies and what their 
findings are of improvements in the industry.
    I might say, before we go to the two next panel members, 
Senator Cleland, we would like to provide the microphone to you 
for an opening statement, since we did not do that before 
Senator DeWine, as he needed to get on to another appointment. 
But if you would like to make an opening statement, we will 
provide you the time.
    Senator Cleland. We will just press right on, Mr. Chairman. 
We look forward to your testimony.
    Senator Brownback. Thank you very much.
    Dr. Kunkel, would you care to give your testimony to us 
first? You can either submit your written statement, if you 
would like to, for the record, and summarize, or you can put 
forward your written statement, however you would like. We look 
forward to a lively discussion because the two of you have the 
best objective data of what is going on in television today and 
I think we have a number of questions for you to go off of. 
Please, Dr. Kunkel.

   TESTIMONY OF DALE KUNKEL,\1\ PH.D., ASSOCIATE PROFESSOR, 
  DEPARTMENT OF COMMUNICATION, UNIVERSITY OF CALIFORNIA-SANTA 
                            BARBARA

    Mr. Kunkel. Thank you, Mr. Chairman, for the opportunity to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kunkel appears in the Appendix on 
page 87.
---------------------------------------------------------------------------
    I am one of several researchers who head the National 
Television Violence Study. The NTVS project was commissioned by 
the National Cable Television Association to deliver a series 
of three annual reports assessing the state of violence on 
television. It involves researchers at four universities and 
the project is headquartered at Santa Barbara, where we perform 
the content analysis, looking at the entire landscape of 
television programming. We study 23 channels, cutting across 
both the broadcast and cable networks. They encompass the vast 
majority of the most frequently viewed channels by the American 
public.
    Although the NTVS project is industry funded, the study is 
scrupulously independent and free of any influence from 
industry sources. An advisory council oversees the research 
project and ensures its scientific integrity. That council 
includes representatives from such organizations as the 
American Bar Association, American Medial Association, American 
Psychological Education, National Education Association, and 
the National PTA, among others.
    Each year, we examine over 100 hours per channel on each of 
the channels that we study, which means that, collectively, 
each year a total of more than 2,500 hours of programming is 
monitored.
    The content study carefully categorizes each violent 
portrayal on the key contextual features which have been 
demonstrated by scientific research to either enhance or 
diminish the risk of a harmful effect on the audience, and in 
particular, on child viewers.
    Scientific research has established unequivocally that 
children's exposure to TV violence can pose a risk of three 
types of harmful effects: The learning of aggressive attitudes 
and behaviors, desensitization to violence, and increased fear. 
There are many difference ways in which violence can be 
presented on television. Some of these approaches increase the 
risk of these harmful effects while others diminish it.
    For example, violence that is committed by an attractive 
role model, that is rewarded or goes unpunished, or that 
includes no visible pain or harm cues to the victims, all have 
a much greater risk for encouraging aggressive behavior in 
child viewers than would a portrayal that omitted these 
contextual factors.
    I think one of the most important contributions of the NTVS 
project is our development of a list of key contextual features 
that are associated with violent depictions, identifying for 
each one the risk it contributes to the three effects I just 
mentioned. My formal written testimony provides more detail on 
this point.
    Across the 2 years of research we have conducted to date, 
the most important finding from the NTVS content study is that 
most programs on television contain violence and that most of 
the violence on television poses some risk of harm to the 
audience. Violence on television follows a pattern that is 
highly formulaic and emphasizes both sanitized and glamorized 
depictions.
    By sanitized, I mean that the violence is devoid of 
realistic harm to victims. Pain and suffering by victims of 
violence is shown in less than half of all the violent scenes 
that we observed. More than a third of violent interactions 
depict harm to victims in unrealistically mild terms, 
understating the severity of the injury that would occur in the 
real world.
    By glamorized, we mean that violence is performed by 
attractive role models who are often acting in a justified 
fashion and who suffer no remorse, criticism, or penalty for 
their violent behavior.
    Finally, our most significant finding from the second year 
report that has just been released a few weeks ago, is that 
there has been no meaningful change in the overall presentation 
of violence on television during the past year. Across more 
than 18,000 violent interactions that we have classified in 
each of the first 2 years of the study, the degree of 
consistency in the context measures surrounding these 
portrayals is striking.
    That consistency clearly implies that the portrayal of 
violence is highly stable and formulaic, and unfortunately, 
that the formula for presenting violence as sanitized and 
glamorized is one that enhances the risk of harmful effects for 
the child audience.
    Much of the focus in the policy debate about TV violence in 
the past year has shifted to the controversy about how to 
properly rate programs for the coming V-chip technology. That 
issue is an important one, but last Friday at a conference that 
was held at University of California-Santa Barbara, former 
Senator Paul Simon explained the need to refocus the violence 
debate.
    From Senator Simon's perspective, it is far more important 
to reduce the level of harmful violence on television than it 
is to argue about V-chip ratings because many families will 
simply never use the V-chip technology. The V-chip is a tool 
for active parents who want more information to guide their 
children's viewing, but it is not a panacea for all of the 
problems associated with TV violence.
    That is why the NTVS study that has just been released 
issued recommendations that call upon the television industry 
to be more responsible in the ways in which violence is 
presented. Our recommendations include specific comments--I 
will not have time to go into detail now, but they are in my 
formal testimony--specific comments about approaches to 
portrayals of violence that can be practiced by the industry 
that would diminish the risk of harmful effects without 
necessarily taking violence out of the programming. More 
specifics are included in our full report, as well.
    These recommendations are important because our data show 
that the risk of harmful violence on television does not appear 
to be diminishing. The industry's previous self-regulatory code 
did, in fact, address specific aspects of the presentation of 
violence, limiting certain approaches that were thought at the 
time to be particularly harmful. Today, with a much larger 
accumulation of scientific knowledge, we have a better 
understanding about what types of context factors add to the 
risk of harmful effects and what types of approaches to 
presenting violence can actually minimize the problems that 
occur.
    If the industry was willing, that type of knowledge could 
certainly be integrated into a set of guidelines to encourage 
programmers to shape any violent portrayals in more responsible 
fashion.
    A leading television producer, Arthur Seidelman, also 
reported at the UCSB conference last week that his programs are 
now reviewed more stringently than ever before for their 
violent content. That may be true. I do not doubt his word. But 
the fact is that the action that appears on the screen, and 
that is all that we code in our study, does not yet appear to 
reflect any meaningful levels of reduction in the violence that 
is consistent with this rhetoric of greater responsibility.
    For any reduction to be palpable, it must be practiced at a 
widespread level throughout the industry. It must affect the 
choices of what programming is rebroadcast as well as what 
material is newly created. It does not matter at all to a child 
viewer who is watching violence on the screen whether that 
violence comes from a first run prime time program broadcast on 
one of the networks or in an ancient rerun that is presented on 
another channel.
    The Television Improvement Act would provide an opportunity 
for the industry to take strong and meaningful action to 
address the problem of TV violence in a collective fashion. It 
deserves serious consideration as a tool to both encourage and 
assist the industry in focusing its efforts to present violence 
on television in more responsible fashion.
    Senator Brownback. Thank you very much, Dr. Kunkel, and I 
appreciate the study and the work that you have done and the 
statement you made. I think there will be a lot of questions.
    Mr. Cole, we would like to turn the podium over to you now 
to testify, Director of the UCLA Center for Communication 
Policy, who has also done study in this field. Please enlighten 
us with your findings.

  TESTIMONY OF JEFFREY I. COLE,\1\ DIRECTOR, UCLA CENTER FOR 
                      COMMUNICATION POLICY

    Mr. Cole. Chairman Brownback, Senator Cleland, and Senator 
Lieberman, thank you for the opportunity to talk about our work 
on television violence and the larger issue of television 
programming and content issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cole appears in the Appendix on 
page 100.
---------------------------------------------------------------------------
    There is probably no issue in social science that has been 
studied more over the past 30 years than television violence. 
We did not get into this issue merely to produce another study 
that would end up in some obscure academic journal. We believed 
a unique opportunity existed to do something unusual, 
constructive, and highly effective. Events over the past 3 
years have shown that such an opportunity really did exist, and 
I feel we have taken full advantage of that opportunity.
    What attracted us to this work was the fact that the 
broadcast networks who we worked with were tied to the 
monitoring process. Through an annual public report and 
discussions throughout the year, we believed we could address 
this important issue in a new and potentially effective manner.
    At our first meeting with the four broadcast networks, 
after securing an ironclad guarantee in the contract for our 
independence--as you will note, all academics always insist on 
independence--we further insisted upon regular meetings with 
each of the networks to discuss our findings. Free and open 
communication between the broadcast networks and UCLA was 
essential if our work was to have any real effect on the 
content of television programming.
    If we found problems with a particular program in September 
of 1996, we did not want that problem to compound itself until 
the next report was released a year later. Instead, regular 
meetings ensured that the problem would be raised soon after it 
aired and that broadcasters would have an opportunity to deal 
with it almost immediately.
    We also believed that the television industry was finally 
serious about dealing with the violence issue. While there were 
many polls demonstrating what parents felt about television 
violence and how to deal with it, there had never been a 
thorough survey of those who make decisions in the film and 
television industry to see if their views were parallel to 
those of the public.
    In early 1994, we conducted such a poll with U.S. News and 
World Report of decision makers in the film and television 
business. What we found, published in the May 9, 1994, issue of 
U.S. News, convinced us the time was right for the study we 
were about to begin.
    While a majority of those surveyed felt the industry rather 
than the government should deal with the violence issue, 
leaders of the industry acknowledged there was a problem, that 
some media needed to clean up their programming, and that they 
felt their industry should take the lead in this effort. They 
felt this way not only because they did not want to see the 
government intrude into their industry but also because they 
felt they were the ones who understood television best and 
would know how to deal with the problem. The poll clearly 
demonstrated that the industry was concerned about violence and 
wanted to do something about it.
    We believe that the broadcasters, as well, have come to 
recognize the value of an outside monitor. Though they did not 
fully agree with all of our findings, they were willing to 
discuss any aspect of television programming. In some areas, 
such as on-air promotions, which we were particularly critical 
of in our first year, they fully reviewed their policies and 
created internal changes, such as new policies, reporting 
relationships, or additional personnel. This year's report 
demonstrates that these changes effectively dealt with the on-
air promotions issue. Other programming areas will be slower to 
change and are discussed in detail in our most recent report.
    Never once, however, did we find any of the four networks 
unwilling to examine any part of their programming or to make 
any member of their staff available to answer our questions. 
For example, in this on-air promotion area, I spent a day at 
each of the networks' offices in Southern California looking at 
how they dealt with on-air promotions, advertisements for the 
shows they run, and met with their staff. They made everyone 
available.
    At some of the meetings with the broadcasters throughout 
the year, as many as 18 network executives, from the president 
of the company or the network to the heads of all the 
departments, attended the discussion.
    Throughout the year, we also received calls from at least a 
dozen producers of television programs that were identified in 
the report as raising concerns. In only one instance did those 
producers call to complain about the way their show was 
evaluated. In all other instances, the producers felt that 
because we named specific shows and dates and issues, they 
could understand the basis of our criticism and agreed with it. 
Several mentioned that our analysis of their show mirrored 
internal production discussions and several producers felt the 
criteria of the report were clear enough to begin to 
incorporate them into their own production process.
    I am pleased to see that this hearing is entitled 
``Government and Television: Improving Programming Without 
Censorship'' because that describes our goal and philosophy 
from the first day we got into this issue.
    Important changes are occurring in the world of television. 
The audience of free broadcast television continues to erode as 
that of cable increases. Earlier this month, the FCC began the 
era of digital television, that while improving the quality and 
number of television signals is sure to cause much confusion 
among viewers as their television sets will become obsolete and 
they migrate to digital signals and sets.
    V-chips and television labeling systems, which I talk about 
at greater length in my comments which I have submitted, V-
chips and television labeling systems, whether simple or 
complex, will further complicate the television environment. 
The government can play an important role and contribute an 
important voice in the middle of all of this confusion by 
injecting much-needed light into a heated debate. Thank you 
very much.
    Senator Brownback. Thank you, Mr. Cole. I appreciate your 
testimony.
    I will just start off with the striking different tone and 
content of your statements, if I could. I think I understand 
why the difference. Dr. Kunkel, you have looked at basically 
all television, cable and the networks, in your examination. 
You come to the conclusion there has been no improvement on 
violent presentations on television, is that correct, over the 
past year?
    Mr. Kunkel. Yes, it is, and could I elaborate?
    Senator Brownback. Please.
    Mr. Kunkel. I think one important distinction between the 
two studies is that our study takes the view that the biggest 
threat from television violence does not come from a particular 
show, nor does it come from a child imitating a single act that 
they see on television. That does occasionally happen, and, of 
course, it gets headlines, and we do need to be concerned about 
that.
    But the more pervasive worry about the effect of television 
is the accumulation over long periods of time of exposure to 
violence.
    Senator Brownback. This is normal behavior, because they 
are seeing it constantly, then.
    Mr. Kunkel. There is a real analogy here between the 
influence of TV violence on the viewer and the influence of 
cigarette smoking on the smoker. You cannot figure out what is 
the risk that comes from smoking one cigarette. In fact, I am 
not sure it would be useful to look at the difference between 
one brand of cigarettes and another brand of cigarettes. One 
might have a little more tar and nicotine. Another might have a 
little less.
    But the problem is, if you are smoking all the time or if 
you are exposed to violence over a long period of time, and you 
are watching all the channels on television, not one channel or 
one program, then you are going to have that risk accumulate.
    Our concern with violence is a cumulative effects issue, 
and I think from that perspective, when we designed our study 
at the outset, we said that we can have the greatest impact and 
provide the most useful data by looking at all of the 
programming on all of the channels that are most frequently 
viewed.
    Senator Brownback. Mr. Cole, please?
    Mr. Cole. May I just contrast that? I agree with almost 
everything Dale said. We agree with cumulative effects. The 
difference was, we wanted to fix television right now, right 
here. That is what the broadcasters asked us to help them do 
and the only way we really felt we could do that was to say, 
here are the problems. These are the shows. Here are the 
examples why these things are a problem and let us talk about 
how to fix them.
    We issued recommendations. We had discussions. I agree, 
there are long-range effects of all these things, but the way 
to fix this thing we thought was to sit down right at the 
moment and try to deal with them.
    The only thing I would add to that is while we focus on 
broadcast television, because that is whose ear we have the 
most, we do look at cable television. We looked at eight 
different cable networks. We looked at syndication, local 
television, public television. We also looked at home video and 
video games.
    Within broadcast television, we did almost no sampling, 
however. We looked at, literally, every television movie that 
appeared the last 2 years, over 200 of them. We did not want to 
generalize. We did not want to have a composite or sample week. 
We looked at every theatrical film, film made for Hollywood 
shown on television. We looked at every series. We looked at 
every television special. So there is very, very little 
sampling in the broadcast world. We did sample. We looked at 2-
week samples of all those other areas that were not in our 
primary scope.
    Senator Brownback. Mr. Cole, Dr. Kunkel stated that this 
would be a useful tool to the industry to deal with the issue 
of violence on television and that, in his opinion, there is no 
dispute that the cumulative violence on television hurts the 
attitudes of our children towards violence. I understand you to 
agree to that.
    Mr. Cole. I would agree only to the cumulative certain 
portrayals of violence. I think some violence can be essential 
to story telling. The Bible is filled with violence. Disney 
animated classics are. But certainly, if we are talking about 
what our report tried to find, and I think Dale's did, too, the 
glamorized, inappropriate portrayals, clearly, we are in 
agreement.
    Senator Brownback. That that is harmful on children and on 
child rearing?
    Mr. Cole. Yes.
    Senator Brownback. Do you view this as a useful tool to 
allow the industry to enter into agreement on setting a base 
standard amongst themselves below which they would not go?
    Mr. Cole. I am not an antitrust lawyer, so I am not going 
to deal with those issues at all. It is difficult to be against 
codes. Codes are good things. They are like the flag. They 
represent everything that can be good and right.
    It is an unusual situation where the government is offering 
antitrust exemption to an industry that is not asking for it. I 
am not sure there is a precedent there, and it is sort of an 
unusual----
    Senator Brownback. It struck me as odd, too.
    Mr. Cole [continuing]. Sort of a very unusual situation. I 
am not overly optimistic that a code will do what you think it 
will do. I certainly would not oppose it. The NAB code was so 
generic, and in the areas of violence, I think anybody would 
immediately agree there should be no gratuitous violence on 
television. The broadcasters' 1993 standards in December agreed 
to that.
    I think the question is not, could you agree there should 
be no gratuitous violence on television, but how would you 
enforce it? What would the penalties be? I would be very 
nervous about First Amendment violations there. And I would 
also be concerned that who is going to interpret this?
    Clearly, we saw just a month or so ago that at least one 
member of Congress was outraged at the airing of ``Schindler's 
List'' on television. I think we would be completely in 
agreement that ``Schindler's List'' is the kind of programming, 
with proper advisories, that belongs on television. I would 
hate to see someone claiming that is a violation of a code.
    While I do not think anyone criticizes specific programming 
at times more explicitly or directly than we do, we also find 
some violence on television, an ``NYPD Blue'', a ``Law and 
Order'', to be commendable in how they deal with all of these 
contextual factors we both look at.
    So there is some nervousness in all of this, but clearly, 
the concept of trying to create standards is not a bad one.
    Senator Brownback. And that is why we are talking about the 
industry creating standards and not the body of Congress 
setting what those standards might be.
    Are either of you familiar with any studies in the past 
when the code of conduct existed and the impact of television 
on children's violent attitudes then? Are either of you 
familiar with----
    Mr. Cole. Surely many studies were conducted during the 
life of the NAB code. I do not think they pointed specifically 
to the code, since it was so general.
    Mr. Kunkel. I think it is difficult to measure the impact 
of the code because what you are dealing with in a content 
analysis is an end product, a program that airs and the impact 
that it likely exerts for a child viewer. You cannot know what 
was considered and amended along the way in the production 
process. So I think it would be rather difficult to find a 
study that would pin that down.
    Senator Brownback. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thank you both for very interesting testimony. Obviously, 
as the Chairman indicated, there seems to be a significant 
difference between the two of you, at least in the headline 
descriptions of the reports that you did.
    But let me ask you this question to see if I can frame 
this. As Senator Simon's initial efforts began in 1990, bottom 
line, do you think that those efforts have had a positive 
effect in reducing the threat posed by violence on television? 
Or perhaps more than cause and effect, maybe I should ask you, 
is there less violence on TV today than there was in 1990?
    Dr. Kunkel.
    Mr. Kunkel. I cannot answer that question directly on the 
basis of the data that we have in the study because our study 
began in 1994.
    Senator Lieberman. Right.
    Mr. Kunkel. There were many studies that preceded these two 
projects that did track violence over time and I think the 
biggest shortcoming is that many of those studies considered 
all violent acts as equivalent to one another. Both of these 
studies try to step away from that model and to take the 
position that context matters and that some violence poses a 
much greater risk than others.
    So I am not sure. There are two ways you could address the 
question. One, is there more or less violence today than a few 
years back? The other is, is there more or less violence that 
ought to cause us grave concern today than in the past?
    Senator Lieberman. How about the last question?
    Mr. Kunkel. In the latter area, I have no reason to believe 
that programming changed from 1990 to 1994, when we started our 
study.
    Senator Lieberman. Right.
    Mr. Kunkel. That is based on my own subjective 
observations, not any quantitative analysis. My data tell me 
clearly that since 1994 up through the past TV season, that 
there is no change at all in the risk that is posed by the 
overall presentation of violence on television.
    Senator Lieberman. In fact, am I reading it right to say it 
might have gotten slightly worse?
    Mr. Kunkel. I would underscore the term slightly.
    Senator Lieberman. Yes.
    Mr. Kunkel. We are going across such a large number of 
observations that, statistically, the shift is not meaningful.
    Senator Lieberman. Mr. Cole, how would you respond to that? 
Do you think there is less consequential violence on television 
than there was in 1990?
    Mr. Cole. Well, first, we think the fact there are two 
studies is good, and somewhere in the middle is probably the 
truth----
    Senator Lieberman. So do I.
    Mr. Cole. Anyway, your first question asked, is the amount 
of violence, and as Dale pointed out, we are not really very 
concerned with the amount of violence because that forces one 
to get into questions whether----
    Senator Lieberman. Yes. I understand.
    Mr. Cole [continuing]. Weighing the consequential 
violence----
    Senator Lieberman. Yes.
    Mr. Cole [continuing]. What we call violence which raises 
concerns, the violence that we think in its context is 
inappropriate, is much more graphic than it needs to be, does 
not show consequences, is not punished, is glamorized, is 
longer than it needs to be. I feel very comfortable answering 
that question in the area we focused on directly, the four 
broadcast networks, and yes, we found there was some modest or 
small improvement in a couple of areas and there was some 
larger improvement in a couple of other areas.
    Senator Lieberman. Why don't you describe that briefly, if 
you can.
    Mr. Cole. The five areas we looked at in the first and 
second report were television series, made-for-television 
movies, theatrical films, once again, the films made for the 
movie theaters shown on television, on-air promotion, and 
children's television. In the second report, we added a sixth 
category which was insignificant in the first year and caused 
serious problems for us in the second, television specials. It 
happened to be these reality specials about animals attacking 
and, in some cases----
    Senator Lieberman. So which got better?
    Mr. Cole. We felt series improved modestly. We felt 
television movies improved modestly, and we list all of these 
and go through them. We felt that theatrical films showed 
slightly better than modest improvement. We found that in the 
first year, there were about 43 percent that contained these 
inappropriate portrayals. I remind you, we looked at, 
literally, every single one, no sample. In the second year, we 
found it had come down to about 30 percent. On-air promotions, 
we found a considerable improvement----
    Senator Lieberman. By that, you mean an advertisement for 
another show that comes on?
    Mr. Cole. An on-air promotion is everything from an 
advertisement within a show for another show, previews at the 
beginning of a show, what is going to be in that show, previews 
at the end of the show for the following week, all the in-house 
produced stuff. In kids' television, we found very modest 
improvement, very minor improvement.
    Senator Lieberman. So the smallest area of improvement was 
in kids' television?
    Mr. Cole. Probably the very smallest was television movies, 
followed by children.
    Senator Lieberman. I guess your study asked different 
questions, but I cannot resist asking you how you respond to 
this report, because in broad terms, you have said things are 
about as bad as they were before. Mr. Cole does not say there 
is a tremendous improvement, but says in these areas that he 
has enumerated there is some improvement.
    Mr. Kunkel. I think one of the differences between the two 
approaches is that you might consider our analysis based on a 
public health model, whereas you might consider Professor 
Cole's analysis based more on incorporating some artistic 
judgments.
    For example, in his study, there is a determination made 
about whether violence is problematic or objectionable based on 
whether or not the violence was integral or relevant to the 
story. We would never make such judgments. We are interested in 
looking at what is on the screen and the risk that poses for a 
child viewer regardless of whether or not it has artistic merit 
and so forth.
    So we are identifying violence that, when seen by a child 
viewer, causes concern, or should cause concern for parents as 
well as for policy makers.
    Senator Lieberman. Have either of you, or do you know 
whether your sponsoring organizations have shared the results 
of your surveys with sponsors of television shows?
    Mr. Cole. In my case, absolutely. They have invited sales 
people to the briefings we do on a regular basis. I, last week, 
spoke at the Advertising Research Council. The broadcasters 
have encouraged us to spread our message about both the 
problems we had discussed and what we see as some improvement 
as widely as possible, not that either one of us needed those 
kinds of proddings or invitations.
    Senator Lieberman. Right. How about you?
    Mr. Kunkel. It is interesting that you suggest that, 
because just this last week in a telephone conversation, 
someone else indicated that they felt that I should call the 
Business Roundtable and try to present this information to some 
of the Nation's top corporations.
    Senator Lieberman. I think it would be extremely helpful, 
because I have found in some of the work we have done here, 
when the television industry has not responded--this is on the 
trash talk TV shows--that the sponsors, once identified 
publicly, really did respond because they do not want to be 
identified with the worst of this stuff.
    Thanks very much. Thanks, Mr. Chairman.
    Senator Brownback. Thank you.
    Senator Cleland.
    Senator Cleland. Your discussion here about the power and 
impact of television takes me back to the early 1950s when the 
first television show I ever saw, actually, the first 
television I ever saw, television program, was ``The Lone 
Ranger''. I stuck with ``The Lone Ranger'' for a long time. I 
thought I was the Lone Ranger for a while. [Laughter.]
    Senator Lieberman. Hi, ho, Silver.
    Senator Brownback. Kimosabbe.
    Senator Cleland. And to this day, Clayton Moore is a 
personal friend and a personal hero, along with Roy Rogers and 
Gene Autry and all the rest.
    I came of age when television first came about and they, in 
effect, showed the old westerns of the 1930s and 1940s where 
the guy gets to kiss the horse and get the girl. I am not 
suggesting that we return to the days of the 1950s, but I look 
back now at those, in effect, those old ``Lone Ranger'' videos. 
Every one was a morality play that, in effect, I internalized 
as a youngster, where, in effect, there were good guys and bad 
guys and the good guys were supposed to win and the good guy 
had certain restraint, especially in terms of weapons and the 
use of weapons. I internalized all that.
    Lord knows, nowadays, I feel sorry for youngsters growing 
up with their heroes as the Mutant Ninja Turtles. So the world 
has come far apace.
    There is no doubt in my mind that television violence also 
begets violence. Mr. Kunkel, I do not guess you would be 
surprised that teachers tell me that in terms of their 
students, the more the kids watch, in effect, television, the 
more propensity that they have, really, for violence, and it 
does not matter what the socio-economic background or race or 
whatever. But the better students limit their TV watching and 
spend time studying. Does that surprise you, that the teachers 
seem to feel there is a link out there?
    Mr. Kunkel. No, it does not surprise me at all. What it 
reflects is a consistent perspective that matches what we know 
from the research evidence. They are the people who are on the 
front lines dealing with the children.
    I do have one comment related to your review of old 
television programming. We have a measure in our study that 
assesses whether or not a program contains an overall anti-
violence theme. We do a lot of microscopic analysis of these 
violence issues and we look at who is striking who and we call 
that an interaction. Then we have some contextual measures we 
apply at the scene. But to try to balance the microscopic 
measures, we also have a couple of measures at the overall 
program level. One of them asks if the program has, as a whole, 
an anti-violence theme. We have four specific criteria that 
would fit that and they include providing strong emphasis on 
alternatives to violence, having strong remorse or resistance 
to committing violence on the part of people who might 
ultimately behave violently.
    One of the programs that we use to train our coders on that 
measure is actually a very old episode of ``The Rifleman''. I 
do not know if that is quite the vintage of Zorro, but Chuck 
Connors, who is the star of that program, is teaching his son 
about violence. This entire episode is devoted to teaching his 
son how, while occasionally one must act violently, there is a 
strong theme throughout that violence is inappropriate, has 
tremendous social costs, and so forth.
    That message, in the judgment of the coders, then, 
overwhelms the other message. That is a case where taking into 
account context is very meaningful and very helpful and we do 
not get carried away with just looking at microscopic 
depictions.
    Senator Cleland. I do not know. I think we lost something 
when the National Association of Broadcasters dropped that 
informal agreement in 1983. How do we get either something like 
that, or what should be its new form. Obviously, we are not 
trying to impose some artistic or other standard here, but we 
are trying to show concern. How do you recommend that we go 
about this difficult task of allowing broadcasters certainly 
their right and yet the fact that they have public airways as a 
certain public or social responsibility, shall we say. How do 
we encourage them, shall we say, to ``do the right thing''?
    Mr. Kunkel. Well, we all see the world through our own eyes 
and the way I see the world is that the contribution from my 
work and this project is to try to convey some sense of 
accountability, to hold the industry accountable for what they 
are doing. I believe these data do that, that they indicate the 
risk that is posed.
    I think that the role of the Congress is to give a voice to 
studies like these so that the public can be informed, and I 
think, ultimately, that the industry has to make a judgment on 
its own grounds, but I think that the industry will be 
influenced by the concerns of the Congress, by the concerns of 
researchers, and by the concerns of an informed public. I think 
what you are doing today is contributing to that process to 
allow the public to understand the issue better and to convey 
their concerns.
    Senator Cleland. Thank you very much for your testimony. It 
is fascinating. Please keep us posted as you continue further 
studies.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Cleland.
    Would both of you agree with the statement that there is 
too much consequential violence on television?
    Mr. Kunkel. By consequential, you mean----
    Senator Brownback. I am talking about the type of violence 
that is harmful to a child's behavior, that would encourage 
violent behavior in that child.
    Mr. Kunkel. I would absolutely agree.
    Senator Brownback. Mr. Cole.
    Mr. Cole. We said in our conclusion we thought we had seen 
some improvement. Much work needs to be done. Clearly, much 
work needs to be done. Yes, we would agree.
    Senator Brownback. So you would agree with that conclusion, 
while this is harmful, the level of violence, and I continue to 
use the word consequential violence, being cognizant of what 
you are saying that context does matter, but that we have got 
to work to reduce that or encourage an industry to continue to 
reduce that consequential violence.
    Mr. Cole. I think both of our projects are committed to 
working with their respective industries to reduce the 
inappropriate portrayals of violence.
    Senator Brownback. Just one final question. Do both of you 
have children? Mr. Cole, do you have children?
    Mr. Cole. No, I do not.
    Senator Brownback. Dr. Kunkel.
    Mr. Kunkel. I have two godchildren who I am very fond of, 
but I do not have natural children.
    Senator Brownback. The only reason I was asking, I was 
going to see if you could enlighten us as to how you treat your 
children and the TV, probably being a couple of the foremost 
experts in the country on what is on the tube. What would you 
do?
    Mr. Kunkel. It is easier said than done, I know quite well.
    Senator Brownback. I have three children, so I know about 
the doing versus saying. But what would you try to do?
    Mr. Kunkel. You try to teach them to make television 
viewing an active choice, not an experience where you go to the 
television set and merely watch whatever someone decides to put 
in front of you as you flip the dials randomly. You make 
informed decisions. You look at the TV Guide. You think through 
what is available and what value it has to you and what are the 
tradeoffs involved in terms of other ways of spending your 
time.
    Mr. Cole. I agree with all of that, and even as a busy U.S. 
Senator, you occasionally get up on a Saturday morning at 6 
o'clock and you watch your children watch television. You 
obviously do not have time to do this all the time. You do not 
need to do this all the time. You need to see how they are 
processing the messages. If they are watching violence, even if 
you are not able to control it, you see whether they are 
excited by it or whether they are not excited by it.
    You try to produce a countervailing message. You try to 
introduce your own values so that you can reinforce in them the 
values you want to see them develop. And whatever they see, 
whether it is violence on a schoolyard or somewhere else where 
you cannot control it, it tends to reinforce values you have 
instilled. You spend time with your kids watching television, 
not a lot of time, but some time.
    Senator Brownback. I was just curious. We have taken to 
watching ``Touched By An Angel'' as a family and in talking 
through some of these items, but I am sad to say, there just 
are not a whole lot of shows that I feel comfortable sitting 
there and, by my sitting there, tacitly approving of what is 
going on on the TV by virtue of us watching that as a family. 
Maybe there are a couple of others, but that is the only one I 
have really found that I feel comfortable about.
    Mr. Cole. One thing about that, Senator, you probably know 
enough about the television business to know that every year, 
there is generally one show that is so successful or comes into 
its own that it influences so many others. Last season, that 
show was ``Friends'', which produced so many clones of 
``Friends''. This year, that show was ``X-Files''. Next season, 
that show will be ``Touched By An Angel''.
    Senator Brownback. That is good.
    Mr. Cole. ``Touched By An Angel'' has done well and the 
message has gotten across. Audiences are interested in this 
kind of programming and you are going to see, at last count, 
eight or nine different variations. Whether they will be as 
good remains to be seen, but that is the show of the moment 
that is inspiring new programming.
    Senator Brownback. Good. Senator Lieberman.
    Senator Lieberman. Thank you. That is good news.
    I just want to make one statement and then ask one 
question. Sometimes when we are in these debates about the 
impact about television, the folks in the industry, 
particularly on sexual content and language, ask, how do you 
know it really has an effect on behavior? Well, there are fewer 
studies, I gather, on those questions than there are on the 
impact of violence, but the conclusions are clear about the 
impact of violent television on behavior, as you testified 
today.
    I hope the social science develops in these other areas. It 
is hard to imagine that there is not an effect. Common sense 
says that if watching violent television has a tendency to 
cause problems, make you more violent, that you get the same 
kinds of messages about sexual content and vulgarity if you are 
watching.
    The argument I always fall back on when all else fails is 
that the last number I saw was something like $46 billion was 
spent on advertising in various media and they do it because 
they assume that what we see affects what we do, in this case 
to consume.
    You have a very powerful line here, Dr. Kunkel, which is 
the most important finding from your study is that most 
programs on television contain violence, 58 percent in 1994 and 
1995 and 61 percent in 1995 and 1996, and that most of the 
violence on television poses risks of harm to the audience. 
That really ought to resonate in our ears as we go forward.
    Did you want to say something?
    Mr. Kunkel. Well, the fact that some people are surprised 
by that, to me, I think, reflects how desensitized we have 
become to violence on the screen.
    Senator Lieberman. Right.
    Mr. Kunkel. I know it is there. I have worked with the 
coders very carefully, and as I have started over the last 
several years to watch television a lot more critically, 
focusing on violence, you find it in genres where you do not 
always expect it, everything from children's cartoons, which 
can actually pose very serious issues of violence, through even 
sitcoms and certainly dramas and so on.
    Senator Lieberman. So if we have a society that is still a 
lot more violent than we want it to be, we have to look to this 
as one of the causes.
    Here is my question. You started to answer it a little bit 
before, which is if the TV industry or the cable industry came 
to you and said, OK, the Senate has passed this bill and we no 
longer can say that we are worried about an antitrust suit if 
we get together and adopt a code of standards. So, Doctor, what 
should our code contain? What would you say?
    Mr. Kunkel. It would be based, I believe, on the 
recommendations that are included in my testimony and in the 
report, specifically, that whenever violence is presented, that 
steps should be taken to try to maximize the punishments or 
negative consequences that befall perpetrators of violence that 
is likely to be seen by children, and to put those consequences 
or punishments in close time proximity to the act itself so 
that for younger children who cannot link cause and effect 
within an hour show, they do not lose the linkage between the 
violent act and the punishment.
    That we need to show more realistic depictions of harm. 
When you have a super hero movie and someone who is like an 
Arnold Schwarzenegger type throws someone off of a third floor 
building, out a window, and they land on the ground, that 
person should not just get up, dust himself off, and go back in 
and rejoin the fray, that sends an inaccurate message about the 
consequences of violence, that we need to be much more 
realistic in our depictions of violence.
    There are a number of other elements, but those are 
examples where the portrayal can be presented in a more 
responsible way.
    Senator Lieberman. I presume the logical extension of that 
is that they should cut down on the amount of violence that is 
on TV----
    Mr. Kunkel. Yes. That is there, as well.
    Senator Lieberman [continuing]. That does not have those 
kinds of consequences shown.
    Dr. Cole, do you want to offer----
    Mr. Cole. The one area where our studies overlap the most 
are in the detailing of the contextual criteria, as Dale just 
mentioned them. I think we are almost identical in how we lay 
out those contextual criteria and what distinguishes 
appropriate from inappropriate violence.
    I do think those standards are in the standards that were 
accepted in December of 1993, so allegedly, there is a code on 
the books at the moment designating that there shall be no 
gratuitous violence, no effort to shock or stimulate the 
audience. So I am not sure how useful it will be at a practical 
level, but I think those would be the exact standards we both 
agree on and which anyone should seek to implement.
    Senator Lieberman. Because, clearly, the reality is not 
reflecting those standards.
    Mr. Cole. I am not sure that the code would do any more to 
cause programming to reflect those standards.
    Senator Lieberman. Thank you.
    Thanks, Mr. Chairman.
    Senator Brownback. Thank you very much.
    I was struck, too, by the numbers in your study, Dr. 
Kunkel, 18,000 violent incidents in a sample of more than 2,000 
hours drawn from 23 channels. That is nine per hour in your 
study of violent instances. Just the quantity made me think of 
what Colin Powell says, that we see so much of it anymore that 
we have lost our ability to blush. It hardly strikes you 
anymore. You have got to really do something in this society 
anymore to strike somebody enough to make them blush in a 
very----
    Mr. Cole. Senator Brownback, may I add one more comment?
    Senator Brownback. Yes.
    Mr. Cole. If you are developing some leadership on this 
issue, and your Subcommittee clearly is, I think our studies 
are scientifically valid, but I would strongly urge you to do 
more than rely on us, to make sure that you and your staffs 
watch as much television as possible. I know that is not 
possible all the time with your schedules, but get a sense of 
what is on air for better or worse so that you understand the 
full implications of what it is that we are studying.
    Senator Lieberman. Don't we meet every afternoon around 2 
o'clock? [Laughter.]
    Senator Brownback. Thank you very much. You have been very 
illuminating.
    I would like to bring in the third panel. Helen Liebowitz 
is a member of the National PTA Board of Directors. Whitney 
Vanderwerff is with the National Alliance for Non-Violent 
Programming. Dr. Michael Brody is with the American Academy of 
Child and Adolescent Psychiatry. And David Walsh is the 
Executive Director of the National Institute on Media and the 
Family.
    This is an excellent panel of people who are knowledgeable 
and deeply concerned in this field about what takes place on 
the TV and its impacts on our overall society and culture. Each 
of you bring a set of qualifications that are very impressive 
that have been included in the overall packet for this hearing.
    I think we will go in the order of the panel in which I 
called you forward, if we could. Ms. Liebowitz, that would mean 
you are leading off, if you would not mind, unless the panel 
has agreed on a different----
    Ms. Liebowitz. No.
    Senator Brownback. You have not agreed differently. Please 
feel free to, if you would like to, to summarize your 
statement. If you want it in the record, that would be fine. We 
will look forward to a lot of good engaging questions and 
discussion.
    Ms. Liebowitz.

TESTIMONY OF HELEN K. LIEBOWITZ,\1\ MEMBER, NATIONAL PTA BOARD 
                          OF DIRECTORS

    Ms. Liebowitz. Thank you. Senator Brownback and Senator 
Lieberman, thank you very much for inviting the National PTA to 
present this testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Liebowitz appears in the Appendix 
on page 122.
---------------------------------------------------------------------------
    The National PTA is comprised of over 6.5 million parents, 
teachers, and other child advocates concerned about improving 
the quality of television programming for children. We thank 
you again for the opportunity to present the views of parents 
nationwide who have been frequently frustrated in their 
attempts to influence children's television programming while 
not wishing to cross the fine lines of First Amendment 
freedoms.
    For the many years that National PTA has testified before 
Congress related to improving children's television, we have 
always noted that the danger in industry resistance to 
providing better programming could be a national inclination 
toward outright program censorship. First Amendment rights can 
only be protected through responsibility.
    At the same time, we believe that government can play a 
major role in concert with voluntary efforts by the industry to 
improve the quality of television. Obviously, the more the 
industry is willing to provide for children's programming on a 
voluntary basis, the less government intervention will be 
required.
    The National PTA has played a major role in the following 
telecommunications areas: Support of limiting advertisements 
during the times that most children watch television; support 
of rules that regulated unfair and deceptive advertisements 
targeted at children, such as sugar cereals, tobacco, and 
alcohol products; opposition to the FCC deregulation of 
children's programming in the 1980s, which served to increase 
TV violence; ads targeted at children and program-length 
commercials using popular TV characters and stories to sell 
products; support of the Children's Television Act of 1990; 
support the provisions in the Children's Television Act that 
requires the industry to broadcast at least 3 hours of 
children's programming per week; and support of the V-chip 
provisions in the Telecommunications Act of 1996.
    Frequently, the industry has fought against any Federal 
regulation which would require them to meet their obligation to 
children's interests, and at the same time, resisted the option 
for voluntary self-regulation at improving television 
programming for children throughout the TV Violence Act. Cries 
of censorship, denial of freedom of the press, severe economic 
burden, and unconscionable meddling ``by those national 
organizations who do not represent real parents'' have all been 
justifications by the industry to maintain the status quo.
    In fact, real parents flooded the FCC with comments during 
the recent comment period related to the V-chip. Permit me to 
read several of those comments for the record.
    ``I am not pleased with the language and situations which 
dominate many of the television shows which are on the air 
today. My first preference would be to eliminate the material, 
but as that does not seem likely in the near future, I feel the 
very least that can be done for families is to allow 
intelligent decisions.'' That is from a mother in Kingman, 
Texas.
    ``My husband and I both feel there is too much sex, 
violence, and trash on the TV and find it difficult to find 
programs that are suitable for the whole family to watch 
together.'' That is from a mother and father in Montgomery 
County in Maryland.
    And the last one, ``I am not an advocate of censorship but 
I do believe that one of the most crucial duties of our society 
is to make sure that the best values of our culture are given 
to our children, not the worst. We cannot be in the room at all 
times when our children watch TV. Often, I come back into the 
room to find that channel surfing has ended up in an 
inappropriate place.'' That is from a father in Gorham, Maine.
    From our members, we have learned that there are few single 
issues that preoccupy parents more than the poor quality of 
children's television. Particularly disturbing to our members 
are findings of research studies which show three possible 
effects of viewing television violence on young people.
    According to Rand researchers, television violence can 
create the following effects. Children may become less 
sensitive to the pain and suffering of others. They may be more 
fearful of the world around them. And, they may be more likely 
to behave in an aggressive or harmful way toward others.
    According to several recent studies, television violence 
has not diminished despite the passage of the 1990 Television 
Violence Act, the Children's Television Act, and the V-chip 
provision in the Telecommunications Act. Other people on the 
panel this afternoon will address and have addressed most 
recent studies related to violence on television. Needless to 
say, despite all of the demand for reduced violence on TV, 
these studies suggest little change has taken place.
    More parents and grandparents are now complaining not only 
about violent program content but also about violence in 
promotions and advertisements, as well. A UCLA report found 
that promotions raise serious concerns, particularly because 
they feature violence out of context. The study concludes that 
violence is used in many ways in promotions as a hook to draw 
viewers into the programs.
    While the National PTA is concerned about issues of 
censorship, let us be clear that we do not equate government 
action in the telecommunications area with censorship. The 
combination of purposeful Congressional policies and voluntary 
industry efforts are essential as we discuss a 
telecommunications framework that will work for children and 
creative artists, alike.
    There is no panacea that will eliminate TV violence 
overnight, but the greater industry resistance is to change, 
the greater Congressional action must be to pressure them to do 
so. For instance, the National Cable Television Association 
with Cable in the Classroom and the National PTA has designed 
the Family and Community Critical Viewing Skills Project to 
provide parents and teachers with information and skills to 
help families make better choices in the television programs 
they watch and to improve the way they watch those programs.
    To compliment this project with a reduction in TV violence, 
a meaningful implementation of the Children's Television Act, 
and descriptive content-based ratings and industry voluntary 
self-regulation would be ideal.
    In testimony before the Senate Commerce Committee on 
February 27, 1997, National PTA President Joan Dykstra told the 
Senate Commerce Committee, which was holding a hearing on the 
progress of the V-chip rating system proposed by the industry, 
the following. ``The decisions that will be made by the FCC and 
the television industry during the next several months will 
determine whether parents and the industry can coexist and 
strike a balance without further government activity or whether 
parents and the Congress will resort to legislative action that 
will go far beyond the V-chip, venturing into the 
constitutional quagmire of safe harbor resolutions.''
    ``What lies in the balance is nothing more than the First 
Amendment. Our parents want the First Amendment to work for 
them, as well as for the industry, which often hides behind 
free speech protections and threats of protracted lawsuits as 
delaying tactics in responding to any means that would decrease 
violence on television.''
    Senators Brownback and Lieberman, you now ask whether the 
National PTA would support S. 471, the Television Improvement 
Act of 1997, to allow broadcasters, free from antitrust 
restrictions, to once again come together to develop a National 
Broadcasters Code of Conduct, similar to a code that was 
enforced prior to the decisions in the United States v. 
National Association of Broadcasters. This proposed law is 
similar to the Television Violence Act of 1990 that the 
industry basically squandered away in blatant disregard for 
Congress and parents.
    We testified in support of the Television Violence Act and 
will support this similar measure. In the absence of antitrust 
laws, the broadcasters could come together without legal 
impunity. S. 471 removes the legal consequences that might 
otherwise be barriers as the broadcasters take action to 
address TV violence. The problem is that the bill does not 
compel the broadcasters to agree or to implement anything. We 
will not support this bill by reducing support for the 
Children's Television Act and the V-chip provisions, but can 
support this legislation as an example of Congressional 
permissiveness, not Congressional coercion. Ultimately, 
decisions to reduce or address TV violence would not be a 
result of government mandate but through the private 
arrangements of the broadcasters.
    However, the National PTA has vivid recollections of how 
the industry failed to take advantage of the last antitrust 
exemption they received as a result of the Children's Violence 
Act of 1990. While that bill had a 3-year sunset, it did 
provide adequate time for the broadcasters to meet and agree on 
a national code, but they never did.
    As each of these efforts fail, I can tell this Subcommittee 
that this Nation comes ever closer to the day when the American 
people will demand that Congress take arbitrary action to 
curtail TV violence if voluntary action once again fails.
    We have a number of suggestions that the broadcasters might 
want to take a look at that could create a code, and if you 
would like to hear about those either now or later, I would be 
happy to discuss them with you. However, waiting in the 
Congressional wings is safe harbor legislation which the 
National PTA will support as a last resort in the event the 
industry is incapable of reducing violent programming.
    Parents want safe schools and safe communities and they 
want safe home environments. Safety is not a Republican or a 
Democratic issue. It is not an issue of gender. Ultimately, the 
airwaves belong to the public, and given the public's intense 
opposition to violence on television and an industry that 
deliberately chooses not to hear public outcry, there just may 
be a time when the public will wish to take the airwaves back.
    I thank the Subcommittee for this opportunity to present 
the views of the National PTA.
    Senator Brownback. Thank you very much. I appreciate that 
testimony and I look forward to some interaction and questions.
    Ms. Whitney Vanderwerff of the National Alliance for Non-
Violent Programming. I look forward to your statement. You can 
either summarize or read it, whatever you would choose to do.

   TESTIMONY OF WHITNEY G. VANDERWERFF,\1\ PH.D., EXECUTIVE 
    DIRECTOR, NATIONAL ALLIANCE FOR NON-VIOLENT PROGRAMMING

    Ms. Vanderwerff. I will be brief. Thank you, Chairman 
Brownback and Senator Lieberman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Vanderwerff appears in the 
Appendix on page 134.
---------------------------------------------------------------------------
    The National Alliance for Non-Violent Programming is a 
network of 10 national not-for-profit organizations. It was 
created solely to address the issue of media violence in 
communities in the country. The fact that we exist and the fact 
that we persist is very pertinent to our being here today.
    We are the vision of the late Marjorie Powell Allen of 
Kansas, who convened this network to work at the grassroots. 
She felt that it was urgent to address the issue of violence 
that is glamorized and presented as entertainment.
    The National Alliance for Non-Violent Programming now 
represents more than 2 million people in 3,000 chapters 
locally. We are working at the grassroots in broad-based 
community initiatives. We are honored to be the delivery system 
for excellent materials that the PTA has developed, that David 
Walsh has developed. We are finding all over the country that 
addressing the impact of television galvanizes people.
    The gap between five decades of research that you asked 
about, Senator Brownback, the research on the effects of 
televised violence and public knowledge, that gap has finally 
narrowed. People everywhere are confirming that television is a 
powerful, pervasive educator. It shapes the attitudes and 
behaviors of our children and our young people.
    We acknowledge the responsibility of the consumer.
    But the American public is also beginning to understand the 
public interest obligation of the broadcasters.
    The FCC recently cleared the way to award an additional six 
megahertz channel to each incumbent broadcaster. If sold at 
auction, these licenses would have raised an estimated $20 to 
$35 billion for the U.S. taxpayer. Instead, the FCC was 
directed to award these licenses for free. In order for the 
American public to receive a fair return on this valuable 
public resource, broadcasters must update their public interest 
commitment to be commensurate with the opportunity that they 
have received.
    The American public is entitled to ask: Is it too much to 
ask broadcasters to provide reasonable amounts of quality 
children's educational programming? Is it too much to ask 
broadcasters to limit the amount of commercial information 
presented during programming designed for young children? 
Should not the television industry pay close attention to the 
proven effects of television violence and provide programming 
that is good for kids?
    The proven effects of television violence on many young 
viewers, five decades of solid research, include increased 
anti-social behavior and aggression, increased fearfulness--
that is the ``mean world'' syndrome that we all see in our 
children--desensitization, and increased appetite for more 
violence.
    About violent content, I want to reiterate the National 
Television Violence Study that you have heard from today very 
quickly the findings, because you heard them in great detail. 
Hear them again very simply. There has been no meaningful 
change in violence on television since last year. Violence on 
television is still frequently glamorized. Most violence on 
television remains sanitized. It is typically shown with little 
or no harm to the victim. Only 13 percent of violent shows 
portray long-term negative consequences of violence, such as 
physical and psychological suffering.
    Our organization works at the grassroots and we hear from 
the grassroots. Across the country, parents are asking not just 
for a V-chip, not just for ratings, not just for the tools they 
need to choose programming that is appropriate. They are asking 
for something to choose.
    Here are some voices from the grassroots to add to Helen's. 
These are people involved in media literacy initiatives all 
across the country. Theses comments echo what Dale Kunkel has 
said to us about the cumulative effects of all the violence on 
television.
    From a mother of two in Augusta, Georgia, ``Wake up, 
America! A whole generation is learning that respect comes only 
to those who hit the hardest, who carry a weapon, or who talk 
the meanest.''
    From a student in Thibodaux, Louisiana, ``I am just trying 
to learn. I cannot understand why they will not make television 
better.''
    From a Boys and Girls Clubs teen mentor in Greensboro, 
North Carolina, ``I see what is happening with the young kids 
in my group. They see violence on television and they think it 
is OK for an argument with words to turn into a fight with 
weapons.''
    From a parent educator in Kansas City, Kansas, ``Television 
is desensitizing our children. Of course, it is not the main 
cause of violence in society, but it is the cause of lack of 
respect.''
    How do you teach your children? How do you work with your 
children, you asked, Chairman Brownback. Does that show, is it 
permeated with respect? How do those people relate to each 
other? Those are the questions to be asked.
    In our pilot program in Kansas City 50 organizations are 
working together now, including the PTA. Their statement is, 
they see the desensitization as the main effect of television 
violence and that this is causing a lack of respect all across 
our country.
    From a physician in Salt Lake City, ``Our children are 
spending more time learning about life through television than 
in any other manner.''
    And from a teacher in Salinas, California, ``Do not tell me 
kids are not affected by all the violence on television. I see 
it all the time.''
    We heard from a mother this morning in Columbia, South 
Carolina, who said, ``I have two stepchildren. My work is hard 
enough without my little boy thinking that the way to resolve 
an argument with his sister is to kick her a lot because of a 
certain program that he sees on television where kicking is 
made to seem glamorous and entertaining and funny.''
    Senators I submit to you that after decades of mindlessly 
absorbing television, of being asleep at the switch and 
careless at the controls, many Americans have heard a wake-up 
call. We are looking at television with new eyes. And after 
decades of fierce and energetic competition to reap a fulsome 
financial harvest, the television industry is also hearing this 
wake-up call.
    For the industry to collaborate on voluntary guidelines to 
mitigate television's negative impact on our children and to 
promote better programming is not such a radical idea.
    For there is another kind of network. John Gardner writes 
that in order to restore cohesion to our society, leaders from 
various segments must come together in networks of 
responsibility to seek to resolve the larger problems of 
community, region, nation, and world.
    How about it? How about promoting and supporting a 
voluntary television industry network of responsibility to 
provide quality programming and to serve the public interest?
    People are working together on television issues at the 
grassroots all across the country. We will receive that network 
in a sense of shared responsibility for the health and well-
being of our children and society.
    Senators when we work at the grassroots on these issues, we 
are not bowling alone. Thank you.
    Senator Brownback. Thank you very much. That was well put, 
Ms. Vanderwerff. We appreciate that very much.
    Dr. Michael Brody, American Academy of Child and Adolescent 
Psychiatry. Welcome to the panel. We look forward to your 
presentation.

TESTIMONY OF MICHAEL BRODY,\1\ M.D., AMERICAN ACADEMY OF CHILD 
           AND ADOLESCENT PSYCHIATRY MEDIA COMMITTEE

    Dr. Brody. Let me say right off that I watch television and 
I am not like those people who say that they are watching while 
they are cooking a pheasant or waiting for their DNA experiment 
to incubate. I watch television. I have cable. I have Direct 
TV. I have a satellite. I like going to TV land. Senator 
Cleland, I like watching reruns of ``The Lone Ranger''. I 
cannot get enough of the first story when Dan Reed is ambushed 
by the Butch Cavendish Gang.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Brody appears in the Appendix on 
page 138.
---------------------------------------------------------------------------
    TV is educational, it is entertaining, and, of course, an 
escape. I can watch because I am an adult and have that choice. 
I have the right of consent. Children do not and should not, 
and this is our hardest job as a parent, to know how much 
control/consent to give up to our kids. Do we measure their 
ability to assume consent by age or behavior? We certainly have 
to factor in risks, physical and mental. That is why our 
children cannot drive cars, as opposed to planes, in most 
States, until they are 16 or drink until they are 21. As a 
society, we have determined these ages of consent.
    Now, children are not small adults. Piaget has shown that 
children progress cognitively in stages, from illogical thought 
to concrete concepts, the ability to make groupings and 
categories, and finally to a stage of formal operations where 
there is the ability to manipulate these groupings mentally.
    Until they have reached this last stage of cognitive 
operational thinking, they will have trouble with the 
seductiveness of TV and its imitation and modeling 
possibilities. Yet, we expose our children to 22,000 hours of 
TV before they complete even 12,000 hours of formal schooling.
    As a free society, we have to balance our freedoms with 
responsibility to all our children. I again am not speaking of 
adults. As adults, we have the right to watch ``Die Hard'' and 
``Broken Arrow'' as many times as we want. We also have the 
right to drink, smoke, and, yes, even buy high-tech stocks. We 
have consent. But, as I said before, our children do not and 
should not.
    I also say to you, and this is the hullabaloo that Senator 
Lieberman was talking about, as I have said to Mr. Valenti, who 
has been quite opposed to a content-based system, that would be 
most helpful to parents similar to their being able to identify 
the actual ingredients in their kids' favorite cereal. Parents 
want more information and less judgment! No government or 
censorship, just information!
    Now, in the early 1970s, I evaluated every child here in 
the District of Columbia that murdered another child. I could 
not possibly do that today because of the overwhelming numbers. 
As crime rates have decreased overall, the population of young 
serious offenders increases at an alarming rate.
    Now, of course, the media is not solely responsible. There 
are too many privately owned guns, I think 200 million of them 
in our country, drugs, fragmented families, poverty, racism, 
and, of course, inferior schools. But over 4 or 5 decades of 
research and over 2,000 studies, including the ones presented 
here today by Jeff and Dale, have shown that TV does have an 
impact. This is why the American Academy of Child and 
Adolescent Psychiatry is waging a national campaign against 
violence and feels that the violence in the media is a public 
health problem.
    Now, murder is extreme, but as a child psychiatrist, I also 
wonder about the whole effect of the blitz of media junk and 
violence on a kid's fantasy life. Stories, like play, are a 
very serious matter to me. This is why I watched television 
with my own two children when they were younger. Stories for 
kids should inspire, promote curiosity, and help solve 
problems. Yet TV story lines and fantasy have become more and 
more homogenized, similar to pornography, prepackaged for those 
too lazy to think up their own fantasies. This is hindering 
imagination, as TV has the same chases, the same rescues, the 
same jagged narratives and stereotyping with the same goal, to 
arouse physiologically.
    When I was in medical school, I was hooked up so that my 
heart rate was monitored with a cardiogram. It was almost like 
a lie detector test. Then I was shown episodes of ``Gunsmoke'' 
and ``Have Gun, Will Travel'', and there was no doubt as the 
violent scenes came on, I had a physiological response to them 
with faster heart rate.
    This is done so that kids will pay attention and they will 
be more stimulated to buy more and more products. This constant 
selling, and this is what drives the market, this is what 
drives the violence, is robbing our young of their souls and 
converting them to little bit more than super consumers. It is 
no wonder that David Denby in his New Yorker article sees our 
kids being buried alive by media junk. They now use a ``toy 
system'' instead of toys. They eat at Mickey D's instead of at 
home. They consume large quantities of easy programming instead 
of literature, and yet remain in a constant state of non-
gratification, looking for or surfing for the next quick fix.
    To get a little psychiatric, our young children's egos, 
their tools to deal with reality, rests in all our hands, and 
this is not just an issue of improved programming without 
censorship but one of trust.
    Senator Brownback. I look forward to asking you some 
questions, particularly on your statement of the D.C. study 
that you had previously done and your inability to do that 
today and some of the troubling things. This same panel will 
hold a hearing tomorrow on education in the District of 
Columbia or lack thereof, and I want to ask you some on that.
    David Walsh is Executive Director of the National Institute 
on Media and the Family. Mr. Walsh, welcome to the 
Subcommittee.

    TESTIMONY OF DAVID WALSH,\1\ PH.D., EXECUTIVE DIRECTOR, 
           NATIONAL INSTITUTE ON MEDIA AND THE FAMILY

    Mr. Walsh. Thank you very much, and thank you for the 
opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walsh appears in the Appendix on 
page 141.
---------------------------------------------------------------------------
    I find myself agreeing with so many of the other comments 
that I would like to make a couple of comments that hopefully 
will complement rather than repeat.
    A particular area of interest that I have had in the last 
couple of years is to link the explosion that is going on in 
the area of brain science or neuroscience with the impact of 
media, and there is truly an explosion going on. The 100 
billion neurons in a child's brain or in any of our brains with 
100 trillion possible synaptic connections literally form a 
virtually infinite number of neural networks that get formed. 
Neural scientists now estimate that the possible number of 
neural network connections or neural network configurations 
exceeds the number of atoms in the known universe and all of 
that happens within the developing mind of a child.
    I think my mother and possibly some other mothers misled 
us, not harmfully, when they told us that fish was brain food 
because, although fish is probably very good for us, it really 
is not brain food. But there actually is a substance that is 
brain food and it is glucose. In recent neural science 
research, what they have discovered is that the rate at which 
the brain metabolizes glucose peaks at the age of seven. From 
the age of seven to the mid-teenage years, that rate of glucose 
metabolism levels out and then it starts to decline, and lo and 
behold, it declines for the rest of our lives.
    Now, that does not mean that beginning in the mid-teenage 
years we start to get stupid. What it means is that we are 
starting at that point with the mature brain to use all of the 
neural networks that have been formed during those early years 
of our lives.
    A lot of time when we think of brain or neural network 
development, we think of it in terms of the problem solving 
ability, cognitive development, the ability to speak and 
understand language, both verbal and written. What we need to 
remember is that the same process that leads to those cognitive 
abilities is the neural network foundation for the development 
of attitudes and values. The development of attitudes and 
values is as much a brain function and a neural function as 
many other things.
    The networks that are formed in the mind of a child are 
formed by the countless experiences that child has. Each 
experience stimulates the building of neural connections 
between brain cells. The stronger and the more repetitive the 
experience is, the stronger the connections become. In a sense, 
the nature of those experiences serves as the major determinant 
of a child's brain's ``software''.
    This process of neural network development has been going 
on for as long as there have been children, but it is now 
happening in the midst of an incredible revolution. Whether we 
call it the digital age, the telecommunications revolution, the 
world in which our children are forming these neural networks 
is very, very different.
    My daughter and I were holiday shopping several months ago 
and one of those Hallmark greeting cards caught my eye. It is 
the kind where you can record your own voice and give it to a 
friend. They take the card, open it up, and they hear your 
greeting in your voice. It is amazing. It sold for $8.95 this 
last holiday season.
    There is more computing power in that single Hallmark 
greeting card than existed in the entire world prior to 1950. 
Our kids are playing Sega Genesis video games which have more 
computing power than a Cray supercomputer that was manufactured 
just 20 years ago, in 1977. So our children are growing up in a 
very, very different world.
    Now, the focus for our discussion today is one of those 
voices of the digital age, television, and television has 
become for many children the largest occupier of time in their 
waking life. By the time that a typical American child 
graduates from high school, as Dr. Brody alluded to, that child 
will have spent twice as many hours watching television as he 
or she will have spent in the classroom. In a typical week, and 
this is based on studies which have just come out in the last 6 
months, in a typical week, children will spend twice as much--
excuse me.
    By the time they graduate from high school, they will have 
spent twice as much time watching television as in school. In a 
typical week, they will have spent 11 times as much time 
watching television as they will have spent in communication 
with their mother, not being in the same house, but 
communicating. They will have spent 14 times as much time 
watching television as they will have spent reading. And most 
regrettably of all, they will have spent 56 times as much time 
watching television as they will have spent communicating with 
their fathers.
    Therefore, television has become a very, very powerful 
teacher in our children's lives. Whoever tells the stories 
defines the culture. That fact is not new. It has been true for 
thousands of years. But since World War II, we, as a society, 
have delegated more and more of the story telling function to 
mass media, and in terms of children, as we have seen from 
these statistics, the dominant form that that takes is 
television.
    Although it is not the only harmful effect, we focused on 
violent entertainment. What I would like to kind of allude to, 
to make my remarks complementary, is the formation of 
attitudes. I am the coauthor of the American Medical 
Association Physicians Guide to Media Violence and one of the 
points that I try to remind myself of when I talk about that is 
probably the most harmful effect of the steady diet of violent 
entertainment that our kids have seen on television screens is 
not the violent behavior.
    In my opinion, the most harmful effect is that what it has 
done is that it has created and nourished a culture of 
disrespect. When we think about it, violence is the end point 
of disrespect. For every kid that is picking up a gun and 
shooting another kid, there are thousands of kids who are not 
doing that, but they are pushing, shoving, hitting, putting one 
another down with increasing frequency.
    Whoever tells the stories defines the culture. The media 
has taught our kids to replace the norm of ``have a nice day'' 
with ``make my day''.
    We talked a lot today about violence. We could easily have 
similar discussion of other content areas. Sexual, we have 
alluded to that. A study that was done in the last 3 years 
shows that 94 percent of the situations depicted in daytime 
program television, the people that were portrayed in a sexual 
encounter were not in a committed relationship--94 to 6. Think 
of all of those neural networks that are developing as they 
start to form an opinion about what the world is like.
    A natural temptation when things are not going well is to 
look for a scapegoat. Things are not going well with our 
children. We have a homicide rate among kids that is eight 
times greater than the next closest industrialized country, the 
highest rate of teenage pregnancy in the industrialized world, 
declining reading scores, and the search for scapegoats is on. 
Parents get blamed. Politicians get blamed. Teachers get 
blamed. Schools get blamed. The media gets blamed. There is 
enough blame to go around for everyone.
    What is clear is that what we have to all do is join 
together and start to figure out what some solutions are, and I 
think that what you are trying to do in Congress is an 
important step in that direction.
    A Cree Indian elder once said, children are the purpose of 
life. We were once children and someone took care of us. Now, 
it is our turn to care. The definition of caring for children 
is changing because we are living in a very changing world. The 
definition of caring for children now means that we have to 
become responsible media consumers and producers. Parents, 
producers, programmers who respond to this challenge will be 
maximizing one of the great benefits of media, creating a 
healthy society and promoting the common good.
    Thank you very much for the opportunity to be here today.
    Senator Brownback. This is a great panel. It is not very 
encouraging, but a great panel. When he said the purpose of 
life, I look at it and I think love is the purpose of life. 
Love your God, whoever that might be to you, and your fellow 
man, but we sure do not see a lot of that on TV.
    We are going to have a vote, I guess, in about 10 or 15 
minutes, so I will do a few minutes of questions and then, Joe, 
go to you.
    Dr. Brody, I cannot help but ask you about the question of 
in the District of Columbia schools, yesterday was reported an 
incidence of sexual activity amongst fourth graders in the 
school. I do not know if you saw that story in the paper. Is 
there any connection between what goes on on the TV and that, 
or is that just the state of decline that this culture has 
succumb to, that kids younger than my fifth grade daughter are 
having sex in school in the fourth grade?
    Dr. Brody. Well, when I was doing this work of evaluating 
children who murdered other children in the District, I was 
also a consultant for pupil personnel services for the Board of 
Education here in the District of Columbia and I saw many 
things, but this was the early 1970s. Again, I think there has 
been great deterioration in not only the services in the 
District but, I think, unfortunately, with how the school 
system is run. I do not think it is a great accident that we 
now have a general running the school system here in the 
District of Columbia.
    Kids see behavior on television. I think one of the 
greatest things that television does has to do with modeling 
and imitative behavior, and as I said, kids do not particularly 
understand some of the things that they are actually watching, 
and you used the term consequences before. I do not think they 
understand the consequences of actions.
    But there is plenty of sexual acts seen on television. 
There are plenty of sexual acts seen on television that kids 
could look at, and those are the kids that I am really 
concerned about. When it was asked before, the other Senator 
mentioned that he had eight children, I believe, and you asked 
the two researchers if they had children. If they did have 
children, or the Senator's children or people's children here, 
I am concerned about them, but as a child psychiatrist, I am 
not really concerned.
    I am really concerned about those kids that you were 
talking about that were involved in this incident in the 
District. I am concerned about the vulnerable population of 
kids where their parents are not interested in what they are 
watching. They may not be available for them, and this leads to 
behavior, that you just mentioned.
    You said the purpose of life is love. These are young 
children. I do not think they were looking to do something bad. 
I do not think that they were looking to get some sexual 
gratification. It may be that what they were looking for was a 
solution to their deprivation of love, that they would be 
together with somebody. It is a dangerous way to do it.
    It does not portend prognostically for what is going to 
happen to those kids when their glands kick in and they could 
procreate. Maybe one or two of them are actually at that stage 
now, but maybe they were looking for love, too, and as a 
society, I think it is pretty pathetic that this operates right 
in what I consider a closed environment of a school. But I 
think things are a lot different than, as I said, in the early 
1970s in evaluating kids who murdered people. It would be 
overwhelming. That is all I would do.
    Senator Brownback. It is a lot worse than----
    Dr. Brody. Oh, yes. Just the way the mental health services 
are a lot worse with the inundation of crack, there are a lot 
more problems and the way these problems are portrayed. You 
watch the news. The news is completely different than the way 
we used to have local news on here in Washington. The news is 
completely different. It is filled with stories like that, 
violent acts, children being abused, kids harming each other in 
a physical way.
    To me, it is an outstanding statistic that between 1979 and 
1992 in our country, 50,000 kids have died as a result of acts 
of violence. That is as many as young people died in Vietnam. I 
mean, that is an outstanding statistic.
    Again, as I said, I do not think the media is responsible 
for all of this. The media may be reflecting society. But there 
is no doubt, and the research has shown over and over again. Of 
course, it is a favorite type of research. It is a favorite 
type of social science research to do research on the media. 
Graduate students love this kind of research. They get to watch 
television. They get to ask questions about television. They 
like it. But we have all of this research and all of this proof 
and all of this evidence and yet we seem to be immobilized to 
do something about it.
    Senator Brownback. You would all support this bill as a 
very minimal effort, is what I am hearing all of you say. I 
would encourage you also to submit to us, if you have not in 
the written statement, at least later, what you would actually 
do then. I mean, if this is the minimal bar, we are setting a 
bar at six inches high, where would you put it up?
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    This has been an excellent panel, very informative and 
really out in the field working. It puts a heavy 2-by-4 to at 
least one of our regular critics, who described this concern 
about television as a Beltway issue. I was going to ask you 
about it, but I think it is pretty clear from what you have 
said and the constituent organizations that you represent that 
this is a genuinely felt issue out there.
    Second, it was interesting, there was a reference by Dr. 
Cole in the earlier panel, just to clarify, and I think one of 
you said it, too, under the previous legislation on violence, 
the industry did adopt what might be called standards, but they 
are barely known, they are very general, and they do not amount 
to a code, certainly not one where there is any apparatus to 
hold them accountable for.
    Then the other point, which I think Ms. Liebowitz made----
    Ms. Liebowitz. Yes.
    Senator Lieberman [continuing]. And you are quite right 
when you said you support this legislation but it is not a 
substitute for all the other things we are doing, and we do not 
see it that way, either.
    To pick up on what the Chairman said at the end, just 
briefly, I think you made reference to the fact that you do 
have some ideas about what a code on violence might contain. 
Just highlight a few of the points.
    Ms. Liebowitz. Special recognitions for programs that are 
violence-free. Identification of sponsors that do not sponsor 
violent programming or violent commercials. When violence is 
presented, provide greater emphasis on strong anti-violence 
theme. Broadcast anti-violence public service announcements 
that focus on such events as gang membership, alternatives to 
violent behavior, and then address that behavior.
    Violence that is broadcast, it has to be in the context of 
the story rather than gratuitous. I mean, if somebody has to be 
shot sometime once, you do not have to empty the gun and then 
watch the blood run down the street. That just is not necessary 
and we see that repeatedly. There are times when you channel 
surf, on the evening, it can be, 9 o'clock particularly, in 
that 9 to 10 o'clock framework, and parents tell us this all 
the time. There is not one program on the network that is not 
violent.
    Senator Lieberman. Right.
    Ms. Liebowitz. Over and over again.
    Senator Lieberman. And it is the way in which the violence 
is portrayed.
    Ms. Liebowitz. Exactly.
    Senator Lieberman. Senator Cleland and I are from the same 
generation, and obviously, there are some people who would say 
that all those cowboy shows we watched were violent, but it 
was, somehow, a very different kind of violence. It was not 
graphic at all and it had a morality element to it.
    Ms. Liebowitz. Parents are telling us, and this is really 
the first generation of parents that grew up with television as 
young children, they are telling us, hey, this is not what I 
saw.
    Senator Lieberman. Right.
    Ms. Liebowitz. I see my child acting out in a behavior that 
I know came from the television because I heard it while I was 
sitting there watching a Saturday program with them and I see 
them exhibiting that same behavior toward me. That did not 
happen when I was watching television as a young person.
    Senator Lieberman. Dr. Walsh is one of my heroes. He got 
involved in this professionally and then is doing it more or 
less full time now. We worked together on video games, so his 
group has done some great work. As I teased him, he did such 
good work, he got me sued.
    Mr. Walsh. And myself, as well, Senator.
    Senator Lieberman. But Senator Kohl--this is a warning to 
you to be careful about associating with Dr. Walsh--Senator 
Kohl and I were dismissed from the suit, but Dr. Walsh is still 
a defendant.
    Mr. Walsh. But I am not a Senator.
    Senator Lieberman. I will stick with him. Anyway, do you 
have any comments about what components you would add to a code 
of conduct here for television?
    Mr. Walsh. One of the things that we have been working on 
for the last 2 years is to try to identify what are the 
particular features, and one of the things that we did is we 
surveyed parents across the country and we also had a 
concurrent parallel process where we also interviewed the 
experts, the people who have been studying this, the 
researchers, for years.
    The amazing thing is that there was an amazing amount of 
agreement between the experts and the parents. They were not 
looking for different things. And it is many of the things that 
were mentioned in the previous panel's testimony. Those things 
can all really be translated into kind of evaluative statements 
or some kind of standards. There is always going to be some 
kind of subjectivity involved in these things----
    Senator Lieberman. Sure.
    Mr. Walsh [continuing]. But we can wring a lot more 
subjectivity out of it than we think. We are never going to 
remove it completely, but we can wring a lot more out of it.
    Senator Lieberman. So this argument that is sometimes made, 
and Dr. Cole mentioned ``Schindler's List'', the folks in 
television always come up with some kind of example, such as 
``King Lear'' was violent. How are you going to determine it? 
But really, it is not so hard to establish a code which 
embraces most people's common understanding of what----
    Mr. Walsh. A lot of it is--are there going to be things 
where there is disagreement? Absolutely.
    Senator Lieberman. Sure.
    Mr. Walsh. One of the things that we found is that when we 
developed these standards and then we tested them on 600 
parents across the country, there was an incredible amount of 
agreement. So it is not rocket science. I am not saying it is 
easy, but it is also not rocket science.
    Senator Lieberman. The other thing is, we are not talking 
about a law here that we are going to arrest anybody for 
violating. We are talking about a code that people will attempt 
to reach on their own.
    Thanks very much to all of you. Thanks, Mr. Chairman.
    Senator Brownback. And we are talking about liberating an 
industry. I like the way Senator Lieberman put it. It is our 
plea to the industry. It is a plea. We know you can do better. 
We absolutely know this and we are pleading with you on behalf 
of the children and the families of this country and the future 
of this Nation, help us and do better, because who tells the 
story does define the culture.
    You folks have been a wonderful panel. This is a relatively 
new issue to me but certainly illuminating. I just applaud you 
all for your effort. Keep it up, and we are going to keep 
pressing forward, as well.
    Thank you all for attending. The hearing is adjourned.
    [Whereupon, at 4:03 p.m., the Subcommittee was adjourned.]


  GOVERNMENT AND TELEVISION: IMPROVING PROGRAMMING WITHOUT CENSORSHIP

                              ----------                              


                         THURSDAY, MAY 8, 1997

                                       U.S. Senate,
Oversight of Government Management, Restructuring, and the 
                         District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:23 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senators Brownback and Lieberman.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. We will begin the hearing this morning. 
Thank you all for joining us. Sorry we're starting a little bit 
late. There is a vote scheduled at 10:30 which I believe is 
going to take place at that time.
    What we're going to attempt to do is both of us do opening 
statements, go to our witnesses, and then we may run a relay 
here back and forth to the Floor where one of us will go and 
then the next, trying to keep the hearing going through the 
full time, so we don't have to take a recess in the hearing.
    This, as we noted at the press conference, is not a 
Republican-Democrat issue at all. This is an American issue, 
and it's one that we really want to get at.
    Good morning, this Subcommittee will be holding the second 
in a series of hearings entitled Government and Television: 
Improving Programming without Censorship.
    Today's hearing will focus on the impact that sexual 
content in television programming has on our children. The 
first one was focused on violence.
    We'll hear from researchers, medical experts and advocates 
who have analyzed the affect of the sexual content of 
programming on the behavior of children. Most of the research 
and most of the debate concerning the negative impact of 
television programming has focused to date on violence. Studies 
have shown that violence on television has de-sensitized 
children to violence, and permitted violence to have a more 
acceptable role in our culture than it should.
    Today we'll try to determine whether the level of sexual 
content in television programming is having a similar effect. 
Excessive amount of sexual themes and situations involving sex 
that permeate prime time television is clearly troubling.
    As we just heard at the press conference, almost 31 percent 
of shows aired between eight and nine--the traditional family 
hour--referred to sex. And reference to sex outside of marriage 
outnumbered references to sex within it by a ratio of 3.6 to 1, 
during the family hour.
    Many in Hollywood argue that this merely reflects the 
desire for sexual content that is sought by television 
consumers. I disagree. I think that Hollywood and free over-
the-air television in particular have a captive market.
    Many in Hollywood also argue that those who criticize the 
level of sexual content in programming are infringing upon the 
independence of Hollywood's creative community. Well, I hope 
that this hearing flushes out these and other issues.
    If there is a correlation between the level of sexual 
content in television programming, and such problems as teen 
pregnancy, and a problem certainly exists, I hope that the 
industry will seek to solve the problem.
    Senator Lieberman and I introduced our bill, the Television 
Improvement Act of 1997, because we're concerned about the 
impact that programming has had on our culture and on our 
ability to raise children in this country.
    If the conclusion of this hearing is that the level of 
sexual content in today's programming has led to an increase in 
out of wedlock births and has changed the manner in which 
children perceive sex, then I hope that the industry would come 
forward with voluntary guidelines to reverse this problem.
    I hope that this hearing gives us an opportunity to explore 
these issues, and moves towards a solution to what I consider 
to be a very, very troubling cultural problem.
    [The prepared statement of Senator Brownback follows:]

                PREPARED STATEMENT OF SENATOR BROWNBACK
    Good morning. Today, this Subcommittee will be holding the second 
of a series of hearings entitled ``Government and Television: Improving 
Programming without Censorship.'' Today's hearing will focus on the 
impact that sexual content in television programming has on our 
children.
    We will hear testimony from researchers, medical experts, and 
advocates who have analyzed the affect of the sexual content of 
programming on the behavior of children. Most of the research and most 
of the debate concerning the negative impact of television programming 
has focused on violence. Studies have shown that violence on television 
has desensitized children to violence and permitted violence to occupy 
a more acceptable role in our culture than it should. Today we will try 
to determine whether the level of sexual content in television 
programming is having a similar effect.
    The excessive amount of sexual themes and situations involving sex 
that permeate prime time television is troubling. As we just heard at 
the press conference, almost 31 percent of shows aired between eight 
and nine referred to sex. And reference to sex outside of marriage 
outnumbered references to sex within it by a ratio of 3.6 to 1. Many in 
Hollywood argue that this merely reflects the desire for sexual content 
that is sought by television consumers. I disagree. I think that 
Hollywood, and free over-the-air television in particular have a 
captive market.
    Many in Hollywood also argue that those who criticize the level of 
sexual content in programming are infringing upon the independence of 
Hollywood's creative community. Well, I hope that this hearing flushes 
out these and other issues. If there is a correlation between the level 
of sexual content in television programming and such problems as teen 
pregnancy, then a problem certainly exists that I hope that the 
industry will seek to solve.
    Senator Lieberman and I introduced our bill, the Television 
Improvement Act of 1997, because we are concerned about the impact that 
programming has had on our culture and on our ability to raise children 
in this country. If the conclusion of this hearing is that the level of 
sexual content in today's programming has led to an increase in out-of-
wedlock births and has changed the manner in which children perceive 
sex, then I hope that the industry would come forward with voluntary 
guidelines to reverse this problem. I hope that this hearing gives us 
an opportunity to explore these issues and moves towards a solution to 
what I consider to be a very troubling problem.
    Senator Brownback. With that, I want to turn the microphone 
over to Senator Lieberman, who has been an outstanding 
advocate--a warrior--in these issues that are directly 
attacking our children. And I would call him a defender of the 
children of American.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Mr. Chairman. It's been 
wonderful in this 105th Session of Congress to--if we are at 
war, and I believe we are--to be marching forward with you at 
my side. And I appreciate your leadership on this very much.
    I am going to abbreviate my opening statement because we've 
said much of what I wanted to say at the press conference. But 
just thinking, looking back three decades ago, a sexual 
revolution was launched in this country, and as we look around 
at our culture today, I'm afraid we can conclude that sex has 
won. The gamut of movies, music, television, magazines, and 
advertising of all sorts is so saturated with innuendo, 
provocative images, vulgarities and increasingly graphic 
displays of overtly sexual acts, ranging from the teasing 
headlines on the covers of teen girl magazines, to the bizarre 
activities featured daily on the daytime trash talk TV shows, 
to the kind of soft porn or hard porn that is appearing on 
television, including the family hour, to the awful sexually 
abusive pornographic descriptions that are heard repeatedly in 
gangsta rap music--the cumulative effect of this on our culture 
and on our children has got to be destructive.
    I suppose that someone can say that we ought to be proud of 
the free expression that all this represents, but I think in a 
free society, particularly, we have to ask what's the price 
we're paying for this, what are the consequences of it, how are 
these unrelenting and provocative statements and messages 
affecting our attitudes and our behaviors and our values--
especially those of our children.
    And that's really what we want to begin to answer to day. 
It was interesting to me in looking back that way back in 1982, 
the National Institute of Mental Health concluded that 
television in particular had become an ``important sex 
educator.''
    So imagine today what exactly our kids are learning from 
Jerry Springer and Melrose Place and the rest of the perverse 
sex educators that dominate the television tube today.
    As the Chairman has indicated, these are questions that 
have gone largely unanswered in our public discourse, not only 
unanswered, but in many ways unasked. In part that's due to the 
predominant question, and the primary question that we have 
focused on, as a society, which is the threat of violence in 
the media.
    But it's also a result of the relatively limited amount of 
social science research done on the effects of sexual content, 
and I think that's because in recent years what has really 
changed about television is the enormous infusion of sexually 
inappropriate, provocative, destructive material.
    The violence in some sense has plateaued. It's not at an 
acceptable level, but it's plateaued. What's changed is the 
sexual content that we've described, and that's why Senator 
Brownback and I have taken the steps that we have and reached 
the conclusion that we have.
    What's at work here is unfortunately something broader 
which assaults our common values. And I think by common values 
we mean our shared commitment to protecting our children from 
harmful influences. That, I think, is a value that everybody in 
our society, except for the most perverse, regardless or who or 
where or what their politics or ideology or anything else, 
would share.
    And we also mean our shared understanding that there are 
certain forms of behavior that are simply unacceptable in a 
civil society, and most important to our discussion today--and 
let me be really blunt about this--our shared recognition that 
it is wrong and dangerous for young children to be engaged in 
sexual activity and it's wrong and dangerous for adults to 
encourage them to do so. But that is exactly what too much of 
television does today.
    I mean, to test whether these are, indeed, common values, 
ask any parent how they would feel if they were to discover 
that their 8-year-old, 10-year-old, or 12-year-old, or, 
obviously in a lot of families in American, their 14, 16, or 
18-year-old was having sex.
    But it is exactly that message that is given to millions of 
our kids, including the youngest ones, every afternoon and 
every evening on television. It's all part of a kind of 
anything goes society in which ultimately by increasingly 
tolerating the intolerable, everybody loses.
    So this is a very important hearing today, which we hope 
can add to the public discourse and lead to the kind of 
response by the television networks that we want.
    Individually when you talk to these folks, these are good 
people. They have families. I've had conversations with 
television executives who tell me that they feel badly that 
they can't watch television with their kids in the evening the 
way they used to watch with their mom and dad.
    But that's their fault. And in pursuit of what I can only 
call profit without restraint they have lost their way. And 
it's our hope that with these appeals and the information that 
will come forward from the witnesses we have today that they 
will assume some of the responsibility, find their way, and 
help the rest of society find our way back to where we ought to 
be.
    Mr. Chairman, again, I thank you, and I look forward to the 
testimony of the witnesses today.
    [The prepared statement of Senator Lieberman follows:]

                PREPARED STATEMENT OF SENATOR LIEBERMAN
    Mr. Chairman, one of the great mantras of Madison Avenue is that 
sex sells, and judging from the products coming out of Hollywood today, 
our culture seems to be in the midst of a going-out-of-business 
special.
    The gamut of movies, music, television, magazines, and advertising 
of all sorts are growing saturated with innuendo, vulgarities, 
provocative images, and increasingly graphic displays of overtly sexual 
acts . . . ranging from the teasing headlines on the covers of teen 
girl magazines, to the bazaar of the bizarre featured daily on daytime 
trash TV talk shows, to the pornographic descriptions often heard in 
gangsta rap records.
    With all this evidence, no one can doubt that sex sells, but we 
have to ask; what price? What are the consequences of all this? How are 
these unrelenting and provocative messages affecting our attitudes and 
behaviors and our values, especially those of our children? As far back 
as 1982, the National Institute of Mental Health concluded that 
television in particular had become a ``important sex educator''--so 
what exactly are our kids learning today from ``Jerry Springer'' and 
``Melrose Place'' and the rest?
    These questions have not only gone largely unanswered in our public 
discourse but in many respects unasked. That's in part due to the 
predominant attention we've paid to the very real threat of media 
violence and the relatively limited amount of social science research 
done on the effects of sexual content. But it's also due, I believe, to 
the uncomfortableness we as society feel in discussing this subject and 
the broader concerns over morality, which too often gets sidetracked by 
arguments over ``whose values'' and accusations of censorship.
    Senator Brownback and I, along with a growing number of experts and 
parents alike, believe that we cannot afford to ignore these questions 
any longer, and that is why we believe this hearing is so important. 
I've seen enough to conclude that the cumulative weight of these 
messages is having a significant impact on the health and well-being of 
our families and our communities, and that they are in part responsible 
for the fact that 80 percent of Americans in a recent poll said they 
believe this Nation is in a moral crisis and that our common values are 
disintegrating. And we fear that things will continue to deteriorate 
unless we engage in and hopefully inform this dialogue.
    Let me be more specific about what we're talking about here. By our 
common values, we mean our shared commitment to protecting children 
from harmful influences, our shared understanding that there are 
certain forms of behavior that are unacceptable in a civil society, and 
most pertinent to our discussion today, our shared recognition that 
it's wrong and dangerous for young children to be engaged in sexual 
activity and it's wrong and dangerous for adults to encourage them to 
do so. To test whether these are indeed common values, ask any parent 
how they would feel if they were to discover their 8-year-old or 10-
year-old or 12-year-old was having sex.
    Yet that is exactly what is going on in our ``anything goes'' 
society, where in the name of open-mindedness and personal freedom 
we're increasingly tolerating the intolerable. For instance, one of the 
most alarming trends we're witnessing today is that more children are 
engaging in sexual activity at ages far younger than those of previous 
generations. This trend was given a human face here locally by a recent 
incident at a D.C. elementary school, where several fourth-graders 
engaged in oral sex behind a locked door outside a classroom and the 
principal first responded by describing the activity as ``consensual.''
    In the wake of this incident, the Washington Post recently ran an 
eye-opening story in which several local child development experts, 
educators and students said this case is sadly not all that unusual. A 
child psychologist at Virginia Tech proclaimed, ``I have lost count of 
12-year-old girls who are having sex.'' One of those said 12-year-olds, 
in replying to a question about whether an 8-year-old child can have 
consenual sex, was quoted as saying, ``Yes! Yes! I know people younger 
than 8 who decide. I know five 8-year-olds who have had sex. I have 
even seen one.''
    What is driving this trend? Given the omnipresence of sex in our 
culture, and the way the culture celebrates casual sex without 
mentioning its consequences, it's difficult not to conclude that the 
media is playing a significant role. Just exactly what kind of a role 
is one of the key questions we hope to begin answering with this 
hearing today. We have assembled some of the most distinguished experts 
in the Nation on this subject, and I am eager to hear their testimony.
    They will be focusing on television in particular because 
television is the most powerful force in our culture. If anyone still 
doubts the enormous hold the small-screen has on our society, I would 
refer them to a front page article that ran in the Post this week, 
which reported that television is in the process of invading every last 
nook and cranny of our daily lives, from bank teller lines to airports 
to doctor's offices and even to elevators.
    I suspect that what our witnesses have to say will open the eyes of 
many about the gravity of this situation and the risk posed to our 
children in particular. I am just disappointed that no one from the 
major television networks or production studios will be here to listen 
and speak. I am also a little puzzled One has to wonder why a group of 
people who feel so free to talk incessantly about sex on the air are so 
loath to talk about it in a public forum like this. Maybe their absence 
says more than their presence would.
    Nevertheless, Mr. Chairman, I look forward to another constructive 
and informative discussion.

    Senator Brownback. Thank you, Senator Lieberman.
    We will have a vote here before too long. What I would like 
to do is let's go ahead and get started and see if we can do 
this and keep it rolling. Otherwise we'll have a short recess 
in between.
    Our first panel is L. Brent Bozell, III. He's chairman of 
the Media Research Center. And the second participant will be 
Dr. David Murray. He is a cultural anthropologist, and director 
of research for the Statistical Assessment Service.
    Gentlemen, thank you for joining us. Mr. Bozell, the 
microphone is yours. We will take the written testimony, if you 
like, into the record, and if you'd like to summarize, or if 
you'd like to present your written testimony, the choice is 
yours.

TESTIMONY OF L. BRENT BOZELL, III,\1\ CHAIRMAN, MEDIA RESEARCH 
                             CENTER

    Mr. Bozell. Thank you, Mr. Chairman. No, you don't want to 
hear my written testimony twice, so I will submit it for the 
record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bozell appears in the Appendix on 
page 144.
---------------------------------------------------------------------------
    But thank you for the invitation, Mr. Chairman, to address 
this Subcommittee and, Senator Lieberman, I repeat, thank you 
on behalf of millions of parents who either know what you're 
doing or ought to know what it is you're doing to try to defend 
the family, which is ultimately what we're talking about here.
    There is no question, Mr. Chairman, that the family hour 
has an extraordinary impact on the culture, and that television 
has an extraordinary impact on the culture. I would ask you to 
bear in mind two studies, and I don't have the actual sources 
of it. I could get them for you if you would like.
    One study was done of youngsters, asking them to name their 
role models. I think this was the Girl Scouts of America survey 
that was taken. Not one percent named their own parents. Not 
one percent named teachers. For good or ill, not one percent 
named Members of Congress, but 67 percent named celebrities.
    Celebrities are the super heros. They are the role models 
for America's youth.
    The second statistic: By the time the average youngster is 
graduated from high school, he or she will have spent more time 
in front of a television set than in front of a teacher. So who 
in the final analysis is the teacher in American society today 
and what is being taught?
    When you have 1.5 million unwed pregnancies every year 
among teenagers, there is cause and effect going on. When you 
have the kind of violence we have in our streets, there is 
cause and effect going on.
    When these are the lessons that are being taught by the 
role models to the children, you're going to get what you have 
in America's cities today.
    Now, I have tried to explain this to people in the 
industry. Some are receptive to this. Off the record they will 
be. Publicly they will never be. However, it is distressing to 
me to see the finger pointing that goes on.
    When people like Senator Lieberman try to do what he does, 
censorship is the red herring that's thrown up, which is 
nonsense. And to me it becomes almost insulting that over and 
over and over again you must remind people of the word, 
voluntary, as if to be defensive about trying to do something 
for families. I think it's high time that those attacks ended.
    There is the finger pointing where people blame the 
advertisers. And to be sure, I would hope this Subcommittee 
would address its comments also to the advertising industry, 
because they play a role in this. But they're not the only ones 
involved.
    It is the finger pointing that goes to parents. Well, 
parents ought to take care of this. As we pointed out before, 
no parent can analyze 96 programs. And there's one thing a 
parent could do, which is blow up the television, but that is 
not the solution.
    In short, there are many aspects of society that we ought 
to be looking at. Everybody ought to be playing a role, 
including our elected officials, which you gentlemen are doing.
    But in the final analysis the television industry has to 
recognize two things: One is that if it concerns itself only 
about market, there's something very sad going on there. 
However, there is a good market for this, as Touched by an 
Angel has shown. There is a market for this kind of good 
programming.
    And, second, if it concerns itself at all with the impact 
that it has, it cannot simply say it is reflecting society. It 
is having a huge impact on creating society. Thank you, Mr. 
Chairman.
    Senator Brownback. Thank you very much, Mr. Bozell, and 
also for all your work that you've done. I look forward to some 
good exchange and dialogue.
    Dr. Murray, thank you as well for joining us today. We can 
take your written testimony in if you'd like to summarize, or 
you can read from it. The choice is yours. Welcome to the 
Subcommittee.

TESTIMONY OF DAVID MURRAY,\1\ DIRECTOR OF RESEARCH, STATISTICAL 
                       ASSESSMENT SERVICE

    Mr. Murray. Thank you, Mr. Chairman, and Senator Lieberman. 
I am honored to be here, and I appreciate the leadership you 
both have shown in this very critical issue. It is a good sign, 
perhaps, of change in awareness, and I recognize the difficulty 
you both face crossing between two potential evils of 
government involvement, the heavy hand of censorship, as 
opposed to the desire to protect ourselves from the moral 
environment that is becoming increasingly problematic, and the 
hope that we all share that there will be a self-governance, 
responsibility internalized once again in an industry that has 
great creativity and great power, that they will come to a 
realization of the important role that they play.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Murray appears in the Appendix on 
page 147.
---------------------------------------------------------------------------
    I have to mention since I'm here, and look over, I am, as 
you know, a somewhat short notice substitute witness, and I'm 
very delighted to be here. But to allay the fears of the wider 
public about other developments in science recently, this is 
not a result of cloning.
    The two of us sitting here represent a very common sort of 
visage. It's accidental, I assure you.
    I do have a statement that I was working on last night. Let 
me share it with you, and I can interrupt at any point.
    I like sex. I'm very much drawn to it, and images of the 
unclothed and splendid female form. I am drawn to it as a moth 
to a flame.
    I tend to agree with the writer, Florence King, who 
explained male channel surfing behavior as being driven by the 
unquenchable hope that somewhere on some channel there is a 
naked female dancing.
    I have been that man, and yet still I am very troubled by 
what has become of sex in America on television. It is possible 
to know, as I do, as a cultural anthropologist, the variety of 
ways in which this id appetite can express itself and still be 
very disturbed by what we have become in this modern age.
    In all cultures, in all times, from David delighting in the 
image of Bathsheeba, to Orpheus descending into Hell itself to 
reclaim Euridice, the noble Roman Anthony, besmitten with the 
unequaled Cleopatra, or the polymorphous Kama Sutra of the 60s, 
to the tawdry Melrose Place of today, sex not only sells, it 
enchants, it arouses, it makes us pliant, makes us vulnerable, 
and opens the human personality.
    We seek it. We pay for it in both senses of the term, we 
learned today. And we are monkey-curious about just what its 
limits might be.
    Sex is animal in the first instance, housed ironically, as 
the poet Yates lamented, in the place of excrement. And yet it 
is also, simultaneously, god-like. It is our divine share in 
the role of procreation.
    As a cultural anthropologist, I have studied the varieties 
of cultures and found one essential message: Sex and 
reproduction are the very engines of social change and social 
dynamism. Each utopian, each revolutionary seeks to grasp the 
levers of sexuality to change society through this powerful 
drive, to harness it to his or her social agendas and purposes.
    Sex is powerful because it has an appetital function, and 
because of its product, the human infant.
    The anthropologist in me who has visited and dwelt among 
exotic aspects of human appetites, who was weaned on Margaret 
Mead and her bare-breasted, sexually playful Samoans, on to 
Gilbert Herdt's homoerotic Sambia, wants to present to you 
briefly here a portrait of two very exotic cultures, indeed, 
and contrast them.
    In the first, according to a 1994 University of Chicago 
study, called the Social Organization of Sexuality, we find a 
normative world of relatively sexual restraint and healthy 
expression.
    In a survey of 3,500 adults, we discovered that sex 
strangers, the casual affair, was, indeed, very, very rare. 
Less than 25 percent of long term relationships among partners 
had started with sex, even during the first year.
    The casual pick up, while exciting, proved emotionally 
sterile and a dead end.
    Sex in this culture was not with erotic strangers. It was 
comprised almost overwhelmingly of people who were very 
socially, educationally, racially and religiously similar to 
ourselves.
    The General Social Survey, by Tom Smith, also at the 
University of Chicago and NORC, in a Kaiser Foundation report 
showed that within this culture only 3 percent of adults 
reported having an affair during the past year, and only 16 
percent of adults reported ever having had an affair.
    Indeed, throughout their lifetime, over 90 percent of wives 
in this culture, and 75 percent of husbands were faithfully 
monogamous.
    Senator Brownback. Where is this culture?
    Mr. Murray. Hmmm. Indeed, sir, hold on for a moment, and I 
will spring my trap.
    Eighty-nine percent of those surveyed said they had either 
one or no sexual partner in the previous year. Seventy-two 
percent said they had one or no partner in the previous 5 
years.
    Only 5.6 percent of all couples were living together 
outside of marriage, and most of these would later marry 
themselves--and so forth and so on.
    Now, let us contrast that culture. I'm going to call that 
Rube World. It turns out to be contemporary America, live as 
lived today, as the sociologists study our actual behavior.
    Let's contrast that with Tube World, the other America, in 
which we simultaneously live. It is the culture of hyper-sex. 
This culture is nearly the polar opposite of the first, and 
according to my colleague, Dr. Robert Lichter, of the Center 
for Media and Public Affairs, here are the following 
characteristics.
    It is replete with incest, homosexuality, sadism and 
masochism, with rape, with bestiality, with necrophilia, with 
onanism, with every form of deviance and perversion, and casual 
premarital sex on a regular basis.
    Here are some numbers that have come from studies that have 
been done by the center and others about where hyper-sex takes 
place. On soap operas, 94 percent of all sexual encounters were 
amongst unmarried people.
    According to a media content analysis conducted by the 
center, prior to 1969, fewer than one instance of extramarital 
sex was coded for every 30 shows that they observed. But during 
the 1970s, extramarital sex started to increase. Suddenly it 
was one out of every eight shows.
    Since the mid-1970s, the ratio has dropped to one in six, 
and continues to narrow as standards of sexual morality have 
also changed just as dramatically.
    Prior to 1970, 38 percent of the shows coded presented 
extramarital sex as wrong. That proportion has changed. Now, 
only seven percent, after 1970, have anything to say 
disapprovingly about extramarital sex on the tube.
    In the 1980s, 41 percent of prime time shows viewed 
recreational sex as acceptable without qualification. Thirty-
three percent made no moral judgment whatsoever.
    It's not just that sex has changed in the proportion of its 
being presented on TV. It's that we now have the notion that it 
is to be condoned, it's accepted, it's normative, it's 
standard. In fact, it is advocated and encouraged.
    A 1987 study by Planned Parenthood concluded that there are 
65,000 sexual references a year on television during prime 
afternoon and evening hours. Hourly averages of ten sexual 
innuendos and between one to two references to intercourse and 
deviant or discouraged sexual practices--every hour, every day.
    The average American television viewer now sees between 
14,000 to 20,000 instances of sexual material every year. As 
Mr. Bozell has just mentioned, the high school graduate will 
have spent roughly 15,000 hours in front of a television set, 
as opposed to 11,000 hours in classroom instruction.
    One intrepid team of researchers found a sexual act or 
reference every four minutes during prime time. The Center for 
Media and Public Affairs found 220 prime time scenes that dealt 
with sex between unmarried partners, and fewer than one in ten 
of those concluded that having sex would be wrong or 
inappropriate for any reason.
    In two out of the three, the script explicitly endorses the 
desirability of sexual relations, be they adolescent, 
heterosexual encounters, or teenaged Lesbianism.
    So, let me summarize here: For the adolescent being 
socialized, coming along--I have an 11-year-old girl. And I 
have two older children who have been through phase. I've 
watched it happen.
    They have two choices, two cultures out there. The lived 
life of fidelity, commitment, involvement, the lived life of 
reproduction, that is monogamous and faithful and encouraged 
through a family and community investment in the future; and a 
virtual world, a hyper-sex world, a digitized world, a shadowy 
world of figures that are heightened with arousal.
    Which one do you suppose they choose, increasingly? They 
are being socialized into the tube world, as the normative 
space for their yearning and their aspiration, as the measure 
against which they should hold up their own lives and their own 
performances.
    The disparity between the lived life of marriage and 
attachment versus the imagined and commodified and insistently 
grasping world of ceaseless and polymorphous gratification 
establishes a space of disillusionment for them, and a growing 
preference for the virtual over the real, a learning from the 
digitized shadowland of fulfillment, as superior to the world 
of their own consequences.
    Television is a Promethean fire. It is at the service now 
of two masters: Profit or commodification, and the moral 
crusades and social agendas of the intellectual elite. It 
arouses us, and as we are aroused we can be impressed with 
social messages of all sorts.
    The fear we now face is that our children are as straw 
beneath which we are holding this approaching flame.
    One of these Americas reflects the world view, the tastes, 
the values and the aspirations of really what is a very small 
and very distinctive subset of American culture--an 
intellectual elite that is now dominant in this medium whose 
ideas and values and tastes with respect to sexuality and whose 
agenda for the future are at enormous variance with the wider 
public expectation.
    They now dominate this medium, where they both reflect the 
world that has been and the world that has never been, and 
where they seek increasingly to call for through their 
influence the creatures that we shall become.
    Let me end with that. I share with you the sense that this 
is an enormously consequential battle. It is not a trivial 
issue. It is not simply a matter of the flickering shadows in 
our living room. It is a pervasive alien that is somehow landed 
in our midsts, some 40 some years ago, emanating a flavored 
radiation that each of finds almost impossible to avoid.
    What consequences it's having in our lives, we're only now 
beginning to fully appreciate. We cannot do without it, but we 
must find some way that we can comprehend and encompass its 
force within our lives in such a way that it is not longer as 
destructive as we are learning that it has been.
    Senator Brownback. Thank you, Mr. Murray for your 
testimony. I think Senator Lieberman and I will banter back and 
forth here for about seven minutes, each interval. These are 
very interesting witnesses that we have.
    Dr. Murray, you talk about history and sex and cultures and 
sex. This is not a new issue from that standpoint, for as far 
as it's been permeated in cultures before.
    Have you studied cultures that have gotten to the point of 
sex dominance that our culture has gotten today. Or am I 
miscalibrating that, that we're not at that point, from what 
you're describing, the one culture versus the hyper-sex culture 
today. Yet that's what some are trying to drive us towards.
    That's two parts. You've looked at other cultures, and what 
holds out there in the future for where this one is being 
driven.
    Mr. Murray. I understand your point, Senator, and I think 
it's well taken. It is, of course, a human eternal problematic 
from the Garden of Eden on. This is the engine of concern for 
us, is how we encompass and regulate sexuality.
    There never has been a culture that I know of. We are the 
lead lemming off the cliff, as it were here in American life, 
with respect to things such as teenage extramarital sex, 
teenaged pregnancy, illegitimacy and those rates. They are 
stunning.
    Senator Brownback. You mean you cannot find another culture 
prior to the level of what we are now on that teen sexual 
activity?
    Mr. Murray. It's unprecedented, Senator, and we don't 
really know what lies ahead. We now have this tendency, we want 
to put on the brakes. I'm not sure that we are convinced any 
longer that the brakes are attached to anything, as we keep 
pushing down on the floorboards and heading towards some sort 
of cliff on social change.
    What we have found in other cultures in the past is there 
has been comparable obsessions with sexuality, but it's usually 
restricted to a relatively small subset of the society, 
perhaps. An intellectual elite. Perhaps a powerful group, in 
the shadows some place. Perhaps the netherworld or the 
underworld of prostitution and drug abuse.
    What's happened in America is the mainstreaming of this as 
an institutional norm. So it is possible to have simultaneously 
these two worlds because of a generational difference. The 
world of our fathers and our grandfathers, and the world of our 
parents and our own marriages, perhaps, that was fostered in a 
different climate. And then the world of the children coming 
along behind us, now becoming young adults, who are 
experiencing a rampant sexuality, a loss of marital commitment, 
a sense of the absolute freedom and desirability of every form 
of sexual expression, without constraint.
    These are simultaneous in America now. And as the future 
generation comes along, increasingly that is the path where 
they are being led by the insistence of the television 
outreach.
    I am not particularly persuaded when someone says to me 
that television just reflects what people want. I mean, we have 
been led by our own appetites into areas that have been 
counterproductive for us certainly.
    At the same time, I know, as my 11-year-old watches TV, 
there are inducements planted there for her. We can constrain 
what she watches. She is very self-governing and mature. She 
tries to stay away from material that would be problematic for 
her.
    And yet these advertisements come. The television's--they 
put their own little land mine into the relatively safe shows, 
to seduce her, to make her aware of a forbidden world that she 
might come to when we're not around.
    That's an insistent proselytizing, and I'm afraid it's 
having more and more effect.
    Senator Brownback. The television shares a major 
responsibility with the sex obsession of this culture. Is it 
the dominant responsibility that they share for the sex 
obsession and the sexual activity of our children?
    Mr. Murray. I'm not sure, Senator, and I don't know that 
studies can definitely say what is cause and what is effect, or 
what is simply correlation. There have been many, many social 
changes, from changes in the gender roles of male and female, 
the entry into the work place.
    We sit in a circumstance unprecedented. Also, in the degree 
of freedom we have. American freedom is so extraordinary that 
our capacity of explore any of our appetites and drives is both 
a positive and a negative simultaneously.
    So to have sexuality be free as it in our society, coupled 
with changes in the family, technological changes in society, 
and this wonderfully psychologically powerful medium that can 
shape a virtual world and make it so desirable for. It's 
created a powerful flame.
    At the same time, it seems to me, we are institutionalizing 
television's capacity, because it is a product not. That is, 
it's an industry. And that's relatively unprecedented.
    There was erotic literature, there was the Kama Sutra, 
there were erotic carvings or perhaps private displays of some 
sort of line drawings in ancient China. But now it is an 
industry. Senator, you represent Kansas. You know what we've 
done to agriculture, once we industrialized this, and turned it 
into a marketplace.
    We now have a marketplace of sexuality. Adult products are 
on the New York Stock Exchange. It has become somehow geared up 
with the capacity to penetrate and be pervasive at a level I 
don't think we have ever anticipated.
    Mr. Bozell. But if I may, the difference between television 
and erotic literature of a bygone era was that that erotic 
literature or that erotic art was not marketed to children. 
This is being marketed to children, with shows that are then 
having a G or PG label put on their to attract children, with 
adolescent story lines that are not attractive to adults, that 
are not of interest to adults. It is to bring in children. And 
then they get those messages.
    So that is a remarkable difference I think.
    Senator Brownback. Dr. Murray, you have no doubt, though, 
that if the television would back up and say, we're going to 
stop marketing sex to kids, like we're trying to get television 
advertisers to stop marketing cigarettes to children, that this 
would have at least a slowing down and stopping the harmful 
effect.
    It'd be nice even if they would show restraint in a 
positive fashion having a positive effect.
    Mr. Murray. Indeed, Senator, I believe we can have a 
positive effect. This is a power for good and for ill. Every 
culture has its distinctive, symbolic place where it expresses 
its aspirations.
    In the Medieval world, it was the cathedral. Today the most 
creative in terms of capacity to write, to envision, to impose 
the catharsis and yearnings of drama on us, that's the 
television world. The world of Hollywood is a world of great 
capacity and creativity, with an enormous amount of money.
    The dollars that are spent on this make the television 
commercial, the television program almost the equivalent of the 
cathedral in the Medieval period, an expression of our culture 
at its symbolic most important and invested moment.
    That is a power for good or for evil. Unfortunately it 
seems to have been set up with an incentive to move, because of 
the market place, and perhaps because of social agendas as 
well, towards what many people perceive as a libertarian or 
liberating aspect.
    Divest ourselves of the social constraints. Eliminate 
repression of sexuality. This was supposed to be a positive 
force, to give us the full expression of our appetites. It 
hasn't really yielded that product for us, as we now look upon 
the generation that has been brought up under that.
    Perhaps television can assume its responsibility to speak 
to the soul, to the mind, to provide the kind of education that 
we require for ourselves to both find our liberties, but also 
to govern ourselves internally. It can be a power to do so.
    Senator Brownback. Thank you. Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Thanks to you 
both for really superb and provocative testimony here. And I 
appreciate the tone in which we're speaking, because obviously 
as you said, Dr. Murray, the sexual drive goes back to the 
Garden of Eden, and it hasn't been discovered in its manifold 
expressions in the 1990s with television.
    And so we've always struggled throughout human history with 
our ability to channel and control in a constructive way use 
this impulse, which, as you say, is also life giving.
    What strikes me about this, I think you are absolutely 
right, and Senator Moynihan has commented on this, that the 
numbers on teen age pregnancy, children born without their 
parents having been married, without two parents in the house, 
to young, poor women, they are unprecedented in history, as far 
as we can see.
    But I think it's also true, and I believe I'm catching this 
in what you are saying, and I want to ask both of you, that a 
distinguishing factor here is, in fact, the pervasiveness of 
television. The mode of communicating these messages.
    We have never lived--I use a homely example, but maybe it's 
not. Maybe it's overstated. When we discovered nuclear energy, 
the question was would we use it to our benefit or to our 
destruction.
    In some measure, the telecommunications revolution presents 
us with the same choices, and never have people lived in a 
society before where so many millions were focused on the same 
material coming out.
    So that those who decide what's on television have a power 
to affect our culture and our values more than really anyone 
has ever had before. Is that a fair conclusion? Is that part of 
what we're seeing here, Dr. Murray?
    Mr. Murray. Senator, I think that's a very insightful 
realization. That we are an unprecedented technology, an 
unprecedented form of communication, that turns out to have 
very few pinnacles or gate keepers, so that we have a tribal-
like culture, as Marshal McLuhan used to say, at one point, the 
electronic village, is increasingly possible, where we can be 
sharing the same emotions, the same narratives, on the same 
time period, and, as it were, coordinate and emotional and a 
values world by watching together at the television.
    And yet only a few people who are able to basically direct 
and channel and shape, and they may not be necessarily 
representative of the mainstream desires, religious values, 
attitudes and aspirations of the majority of Americans.
    And what Christopher Lash called the revolt of the elites. 
We end up with a potential difficulty of a real bifurcation of 
the values system, where those who are shaping us through the 
media are not necessarily grounded in the lives as lived in the 
broader part of America.
    It also strikes me, Senator, that the other change that's 
taking place that's given power, even more so, to television, 
has been the relative disintegration of alternatives in our 
lives. That is, there's been a nuclear or atomization of the 
family. And of community.
    So that the child who is born at high risk to a single 
parent, in circumstances where there are little other 
alternatives, where it may not be safe to play in the street, 
where the family is no longer the embedded context, or the 
little New England village is not there, where the Lions Club 
or the Shriners are not available in that child's life, where 
the school may not be a haven at all, but in fact a threatening 
and disintegrating place where no real learning takes place.
    And yet there is this tube that's available, a kind of 
anodyne, a television in front of the couch that can be turned 
on and into a retreat.
    For a child such as that, I suspect there's an incredible 
vulnerability to the messages that come through, that they 
don't have counteractive forces of their parents, of the world 
of the library, of the world of the school, to give them the 
reinforcement that could give them a mature judgment about how 
to take the television.
    And I think it may run away with them.
    Senator Lieberman. That is so true. In pursuit of this 
value of freedom, which we all hold so dear, and distinguishes 
us. But when it leads to places it's led to here, there are 
victims, and these children you describe are the most pained, 
in my opinion, victims that we have.
    Doctor, I take it from what you said that you have no doubt 
that this avalanche of sexual messages is contributing, is 
affecting actual sexual behavior of those who receive the 
messages.
    Mr. Murray. As a social scientist, one always wants to say, 
of course there's doubt. Where are the definitive studies. This 
is not a laboratory science. The correlations and relationships 
are so strong and so striking. Just being a parent, how can one 
doubt?
    We are divided creatures, each of us, Senator. You and Bill 
Bennett have talked this way yourselves in various other 
panels. Our heart is divided between a dark and a light side, 
in a kind of contest.
    And somehow this television and its sexual can take that 
power in our heart that is--we're not even sure how we control 
it ourselves, and we perhaps are somewhat distressed by it, our 
own appetites--but it gives it more magnitude in the contest 
with the better angels of our nature, as we try to control it.
    My impression is that young kids coming along are not only 
seeing the images, but hearing an overtone and a commentary 
that this is not only desirable, but good, fine, normative, 
expected, regular, patterned, without consequences, and they're 
learning scripts or templates for their future lives.
    They are learning narratives that they will enact in their 
own sexual expression when they become young adults.
    Senator Lieberman. And in fact, if they're not sexually 
active early on, some thing is wrong with them.
    Mr. Murray. According to the University of Chicago study a 
critical feature in the lives of young kids is whether they 
have an episode early in life, too early in life, that, quote, 
eroticizes them. If something happens in their lives that 
eroticizes them, they become receptive and available.
    And they start exploring and behaving in ways that are 
really quite counterproductive for their personality 
development. Television is an eroticizing agent in the lives of 
many kids where the parents aren't available to protect them or 
to translate its meanings.
    Mr. Bozell. Senator, can I make a point on that.
    Senator Lieberman. Please.
    Mr. Bozell. A few good people are frankly causing an awful 
lot of bad things to happen. A small group of people could 
cause an awful lot of good as well in society.
    We are talking as if 20 years ago you didn't have violence 
on television, you didn't have sex on television. In fact, 
there was more violence on television 20 years ago and there 
was just as much sex on television 20 years ago, but with this 
difference.
    In the days of the Hays code, and when the spirit of the 
Hays code was still being honored thereafter, you had, whether 
it was on a Western, you had--look at Nickelodeon some time, 
and look at any one of those Westerns, and look at how many 
people got shot up on every single episode, which children 
watched.
    On ``Happy Days,'' it dealt with sex, the whole episode 
dealt with sex. Why was it that parents could allow and 
encourage their children to watch ``Gunsmoke'' and ``Happy 
Days''? Because you had a morality play. There was always 
right, and there was always wrong.
    And, most importantly, Mr. Chairman, and Senator, you had 
consequences taught. That if you do it, this is wrong and this 
will happen. And therefore television was a force for good. It 
taught good things.
    So no one is suggesting that there ought not to be any kind 
of art on television. We are suggesting, use television, go 
back to what it once was, which was a force for good in a very 
troubled time.
    Senator Lieberman. Well said, and amen. My time is up. 
Thanks to both of you.
    Senator Brownback. That's very well put. Mr. Bozell, in 
your work, in your research that you're looking at, you are 
showing sexual innuendo and sexual content on prime time work. 
You've seen some progress, but it's still way too high, off the 
charts, and on prime time.
    In any of your private conversations with the industry, are 
they telling you, we're going to change?
    Mr. Bozell. You would be surprised what, in my private 
conversations with them, they say about this Subcommittee.
    Senator Brownback. Don't use vulgarities here. We're trying 
to get away from those. [Laughter.]
    Mr. Bozell. The attitude that some have in the industry is, 
yes, there is a problem, yes it has to be corrected.
    Now, a minority of that group will say, yes, and we're 
going to do something about it, the best we can. The majority 
will have a handcuffed--my arms are handcuffed attitude. I 
can't do it because a) the market wants it, b) the advertisers 
want it, c) the writers want it, d) the executives told me to 
write this. Et cetera, et cetera.
    The attitude is that there is a sense that there is 
something wrong with it. Michael Medved, the film critic, has 
an interesting theory about this. It sounds crazy at first 
until you hear the whole thing through.
    Los Angeles has had a series of Moses-like plagues put on 
it. Whether it is mud slides or--I guess the volcano was a 
movie. But the fires and the rains--all that. And the last one 
they had 3 years ago was the LA riots.
    What Beverly Hills saw, what the people in the homes on the 
hills overlooking Los Angeles saw at the time of the riots was 
the physical disintegration of their city. They saw the 
products of a culture that's gone haywire, that they could no 
longer escape it and live in their lands of make believe, 
because they do live in lands of make believe up on the hills 
of Beverly Hills.
    They saw what was happening to the culture. Michael Medved 
believes it had a terrific impact.
    And the second thing that's happening is that a lot of 
these executives in the networks have children who are now 
hitting 10, 11, and 12 years old. And it's interesting to me 
that Tony Danza, the actor, was commenting in an interview that 
he sat down with his daughter 1 day to watch a show--his own 
show--and realized he couldn't let her watch it.
    That's when it hit him how bad television had become. His 
own show he couldn't show his own daughter.
    So there is kind of a wake up call going on in Hollywood.
    Now you have two forces. You have a force that wants to 
push the edges of the envelope as much as possible. You've got 
the Stephen Bosco's who have said they want, and will not stop 
at anything short of full nudity on television. They want that.
    And they are going to continue pushing, pushing, pushing. 
And in the other direction, you have Martha Williamson, and 
Touched by an Angel. And her tremendous success. And it's the 
most pro-faith show I think in history, and it's very 
successful.
    Senator I don't know which way this one's going to go. But 
I think what's going to happen, if people like you can continue 
raising public awareness of the problem, and offer the 
constructive solutions, they'll go over the cliff, and this 
side will win.
    Senator Brownback. That's the scenario we're playing out in 
this morality play. Thank you very much both of you for joining 
us, and for your tremendous work. We deeply appreciate it.
    The next panel will be Dr. Jane Brown, professor at 
University of North Carolina School of Journalism and Mass 
Communications; Dr. Laurie Lee Humphries, M.D., Professor, 
Child and Adolescent Psychiatric Department, University of 
Kentucky College of Medicine; Dr. Mary Anne Layden, Director of 
Education, University of Pennsylvania Center for Cognitive 
Therapy.
    You can each choose to read from your written testimony, or 
you can summarize and submit your written testimony for the 
record. The choice is yours. What Senator Lieberman and I most 
appreciate is the chance to have some dialogue back and forth, 
and for each of us to jump in.
     You know what we are posing on the issue of television and 
looking at sexual innuendo and its impact on the overall 
society. Dr. Brown, we welcome you to the Subcommittee, and the 
floor is yours.

  TESTIMONY OF JANE BROWN,\1\ PROFESSOR, UNIVERSITY OF NORTH 
      CAROLINA-CHAPEL HILL SCHOOL OF JOURNALISM AND MASS 
                         COMMUNICATION

    Dr. Jane Brown. Thank you. I would like to submit a longer 
piece that I have written summarizing what we know about the 
impact of sex on television and other media.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Jane Brown appears in the 
Appendix on page 156.
    \2\ ``Sex and the Mass Media,'' appears in the Appendix on page 
171.
---------------------------------------------------------------------------
    Senator Brownback. Good, without objection.
    Dr. Jane Brown. Thank you. I've been studying the effects 
of television on children, especially adolescents, for more 
than 20 years, and I believe that television and other media 
today are important sources of sexual information for our 
children. I'm going to speak today primarily as a social 
scientist interested in public health.
    Unfortunately, too frequently, the sexual information 
offered is not what our children need to make responsible, 
healthy decisions about their own sexual behavior.
    The media are important sex educators in this culture 
because our traditional channels of sexual education are 
offering our children too little, too late. In a recent poll, 
one half of the 13 to 15 year olds said they had learned the 
most about sex from their parents and school, but the other 
half said they had learned the most from their friends and 
entertainment.
    In contrast to the just-say-no-till-marriage prohibitions 
most frequently offered by parents and schools, the media offer 
an accessible and compelling portrait of sexual behavior.
    The current portrait of sex provided by the media can be 
characterized in three phrases: No commitment, no 
contraceptives, no consequences. Sex on television is frequent, 
unrealistic and potentially harmful to the health and well 
being of our children.
    You have just heard about one of the most recent studies of 
sexual content on television. Most of the research we have is 
only about the content. We don't have very good effects studies 
right now, and I'll talk about that in a minute.
    You've already heard about the family hour. There's another 
recent study of the family hour that found similar results, 
sponsored by the Kaiser Family Health Foundation.\1\
---------------------------------------------------------------------------
    \1\ The study entitled ``Sex, Kids and the Family Hour, A Three-
Part Study of Sexual Content on Television,'' appears in the Appendix 
on page 159.
---------------------------------------------------------------------------
    They found that three-fourths of the shows on the major 
networks contain some sexual content. In the average hour you 
will see eight and one half sexual interactions. Most of these 
interactions are only kissing and flirting, according to that 
study.
    But another study of situation comedies in prime time--
that's 8 to 11 p.m.--found that almost half of the sexual 
behavior fit the legal definition of sexual harassment--
unwelcome behavior of a sexual nature.
    We know that sexually transmitted diseases, including HIV, 
are now epidemic among teenagers, but on prime time a viewer 
will see 25 instances of sexual behavior before he or she sees 
one mention or depiction of the use of a contraceptive, or the 
need to defend against pregnancy or disease.
    Despite this frequent and unprotected sexual activity, 
babies and small children rarely appear on television. On 
television, real men always are ready for sex, women's bodies 
are sexual objects to be ogled and lusted after, and sex is a 
form of recreation, or is linked with violence.
    Rape is the second most frequently discussed sexual 
activity on soap operas.
    Now, does this content make a difference in the lives of 
our children? Currently we have less documentation about 
effects of television viewing of sexual behavior than we do 
about other kinds of portrayals--especially violence.
    But I believe we can draw from the strong evidence we have 
about the negative and direct effects of violence viewing. The 
same mechanisms are at work here. The research is clear that 
the frequent and unpunished violence on television causes 
increased aggression in young viewers.
    We know less from research about how the portrayals of 
sexuality affect viewers. But I believe it is reasonable to 
assume, given the frequent portrayals, the lack of negative 
consequences, and the lack of alternative models and sources of 
information, that television and other media play an important 
role in the sexual socialization of children and adolescents.
    The few studies we have suggest that even young children 
understand the sexual conversation on television. They 
understand the sexual innuendo. And a few studies have found 
the link between exposure to sexy television, and early 
initiation of sexual intercourse. I have done some of those 
studies myself.
    One experimental study, for example, found that teens 
exposed to a small set of music videos were more likely to 
agree that premarital sex is OK.
    We don't have a lot of data here, but these social 
scientific studies suggest that it's tending in the same 
direction as the effects of violence on television.
    We need more research to show how the sexual content in the 
media is used and interpreted, and how it contributes to 
patterns of sexual behavior. Children often interpret this 
content much differently than adults do.
    This is difficult research to do, especially because we are 
reluctant to talk with our children about sex. We are very 
restrictive about what researchers can discuss with children 
and adolescents about sex.
    In the meantime the television industry should be asked to 
examine their standards for portrays of sexuality. Since the 
media are including such frequent portrayals of sexual 
behavior, let's make sure these portrayals contribute to, 
rather than detract from, the sexual health of our youth.
    I am a member of the board of an organization here in 
Washington called Advocates for Youth. They have had an office 
in Los Angeles that has worked with Hollywood producers for a 
number of years, trying to get them to produce more responsible 
portrayals of sexual behavior.
    They have come up with a code of standards that they've 
used in talking and working with the industry. I think it is a 
reasonable set of standards that could be a nice starting point 
for discussions with the industry.
    I will list them here: Television could contribute to the 
sexual health of our youth if it recognized sex as a healthy 
and natural part of life; showed that not all relationships 
result in sex; discussed or showed the consequences of 
unprotected sex; showed that the use of contraceptives is 
essential; recognized and respected the ability to say no; 
avoided linking violence and sex; showed rape as a crime of 
violence, not one of passion; and encouraged parent and child 
conversations about sex.
    That's a good set of quidelines we could begin to use in 
discussions with the industry. Television can be an ally in our 
common commitment to produce images of sexuality that will lead 
to healthy behavior among our youth.
    Senator Brownback. Good. Thank you very much, Dr. Brown. 
We'll look forward to some discussion and dialogue.
    Dr. Humphries, thank you for joining us.

 TESTIMONY OF LAURIE LEE HUMPHRIES,\1\ M.D., PROFESSOR, CHILD 
 AND ADOLESCENT PSYCHIATRY DEPARTMENT, UNIVERSITY OF KENTUCKY 
                      COLLEGE OF MEDICINE

    Dr. Humphries. Thank you, Senator. I'm Laurie Humphries, 
and I'm a child and adolescent psychiatrist, and a member of 
the American Academy of Child and Adolescent Psychiatry.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Humphries appears in the Appendix 
on page 203.
---------------------------------------------------------------------------
    I appreciate the opportunity to be here before the 
Subcommittee to discuss the impact of television on children 
and adolescents. And I appreciate your continued examination of 
this issue, which I think is very vital to the future of this 
country.
    In preparing for this testimony, I thought about myself 
when I was 9 years old, and I remember enjoying my favorite TV 
shows--``Fury,'' ``Victory at Sea,'' and ``Omnibus.''
    Senator Lieberman. You had a good upbringing.
    Dr. Humphries. And I really enjoyed the latter two with my 
parents. I remember those times fondly. And I also remember how 
I identified with the content of those shows. And I remembered 
as I prepared for this testimony that the attitudes and 
behavior were very important to my development over many 
years--not just in my childhood and my adolescence, but in my 
young adulthood.
    Senator Brownback. Growing up in Kansas--now you've got me 
started on that point. We always watched Gunsmoke on Saturday 
night, from Dodge City, and Mat Dillon standing tall. Go ahead.
    Senator Lieberman. We even did that in Connecticut.
    Senator Brownback. Did you? [Laughter.]
    Dr. Humphries. Now, you have answered my question, do you 
remember your influence, the influence that it had on you. I 
think you do. I think you wouldn't be chairing this 
Subcommittee if you didn't.
    The issue is that we know in child psychiatry that 
children's development cognitively is very much connected with 
a concrete period in which they look at and imitate the 
behaviors that they see.
    Now, I've been asked to respond about the issue of sexual 
behaviors on television. Do you recall Mat and Miss Kittie ever 
having intercourse?
    Senator Brownback. No.
    Senator Lieberman. Unthinkable.
    Dr. Humphries. Now, if you were a 9-year-old today----
    Senator Brownback. I was not sure she had knees. 
[Laughter.]
    Senator Lieberman. Certainly never saw them.
    Dr. Humphries. If you were a 9-year-old today I estimate 
you would at least have seen 4,000 instances of sexual 
intercourse.
    Senator Lieberman. A 9-year-old?
    Dr. Humphries. From the time you started to view television 
until you reached nine.
    Now, what is the effect of this? This is not just one time. 
It's 4,000 times. One is just the context in which they see the 
act. Often this is short, it's brief and it's put in the 
context of love.
    Children have difficulties understanding concepts 
sometimes, and they see these exposures. They really get things 
very mixed up, and the consequences are not positive ones.
    Parents would like the ability to be informed about what 
their children are watching, and they would like to have the 
ability to control their access to adult sexual behavior.
    I think the V-chip is a step in the future in the right 
direction. But it's incomplete without an accurate, content 
based rating system, and a family safe haven for viewing.
    Let me put forth really the public health implications of 
those 4,000 instances of sexual intercourse. Why does the 
United States of America have the highest rate of teenage 
pregnancy of any Western industrialized nation? Why do we have 
the highest rate of any country in the West of sexually 
transmitted diseases?
    I think all of those instances of sexual intercourse they 
have been exposed to has a direct relationship to these very 
serious problems that really start with childhood and 
adolescence.
    We must understand that what you have seen recently in the 
Washington Post, and on the news this morning, really is a 
consequence of what children have been exposed to. We must 
understand that the exposure to this kind of behavior on 
television has led to a serious public health policy problem, 
and that involves a public health issue for our children, and 
our culture. Teen pregnancy and sexually transmitted diseases.
    I feel that what is called for is a public policy to 
address this very, very important public health issue. What we 
have now in 1997 is really the sexual screen. And I hope that 
you will carry forth your efforts, and I commend your efforts 
in trying to deal with this very grave problem. Thank you.
    Senator Brownback. Thank you very much, Dr. Humphries. It 
was very good testimony. The next up will be Dr. Mary Anne 
Layden. Thank you for joining us, and the microphone is yours.

   TESTIMONY OF MARY ANNE LAYDEN,\1\ DIRECTOR OF EDUCATION, 
    UNIVERSITY OF PENNSYLVANIA CENTER FOR COGNITIVE THERAPY

    Ms. Layden. Thank you. Thank you for inviting me here, 
Senators. Senators, I'd like to tell you a story. This 
afternoon, 12-year-old Sam, red haired and freckled, could come 
home from school, and while he's waiting for mom and dad to 
finish making the meat loaf and the mashed potatoes, he could 
watch some television.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Layden appears in the Appendix on 
page 206.
---------------------------------------------------------------------------
    Across town, 10-year-old Amelia, who has finished her 
dinner--and she ate all her carrots--may watch a little 
television before she starts doing her American history 
homework.
    What might Sam and Amelia watch between five and six, or 
between seven and eight in the evening? According to one study, 
by the Annenberg Public Policy Center, 44 percent of 12-year-
olds, and 29 percent of 10-year-olds are watching Hard Copy, 
Entertainment Tonight, Extra and tabloid news magazine shows.
    And they are not in the family hour between 8 and 9 
o'clock. They are between 5 and 6 o'clock and between 7 and 8 
o'clock, when children are home from school, and often not 
doing their homework yet.
    What images have TV producers set for Sam and Amelia to 
absorb this evening? Sam might watch Call Girls to the Stars, 
Naming Names. Pamela Anderson Lee demonstrating her most 
passionate sex positions in the back seat of a car. The 
entertainer, formerly known as Price, ripping off the dress of 
a female, and staring at her underwear underneath. Drew Carey, 
being described as someone having a passion for strippers and 
raunchy sex.
    Nude photos of Fay Resnick, from a pornographic magazine, 
with banners over her nipples. She says she's shared these 
pornographic pictures with her own child. The interviewer, 
engaging in psycho-babble, says of Resnick, that posing for 
Playboy has allowed her to put her past behind her.
    Amelia might watch a pornographic model teaching young 
females, and, I quote, how to be a playmate, including being 
advised to take the pornographic magazine with her when she 
travels on an airline, and show nude photos of herself to the 
captain so that he will invite her into the cockpit.
    Rebecca Tremaine, nude from the waist up, on the cover of a 
subscriber's only version of GQ--I assume it's only going to 
subscribers because we wouldn't want it on the news stand--
she's nude from the waist up, and she has a black man's hands 
painted over her nude breasts.
    An ex-madame and prostitute discussing her book on sex 
advice, with six close up shots of women's crotches and photos 
of women in sexual arousal, sexual climax, back arching 
positions.
    A woman with artificial breasts saying I really love my 
enormous breasts, and plastic surgeon Michael McGuire from St. 
John's Hospital in Santa Monica speaking about his role in 
giving women artificial breasts, describes women's bodies this 
way: If I'm part of the special effects that make Hollywood 
what it is, then I think it's very appropriate.
    All of these are examples, and some that are worst, have 
come from a content analysis of tabloid news magazine shows, 
such as Hard Copy, Extra, Entertainment Tonight, which was 
conducted in January and February of 1996 and repeated in 
January and February of 1997.
    The content was coded for references to the sex industry, 
that is, prostitution, and what we call prostitution light--
stripping, phone sex, and all the other manners of it.
    Also, pornography. It was coded especially for Playboy 
magazine which is a particular pornographic magazine that gets 
quite a number of references, and sexist body messages.
    They would be typical of entertainment segments where the 
entertainment is women's underwear.
    The content supports pathological messages which are 
connected to depression, low self-esteem, eating disorders, 
sexual dysfunction, body image disorders in women, and are 
connected to permission giving beliefs for sexual violence 
against women and children.
    Sam and Amelia's parents, if they are like other parents, 
may not want them to view such topics. One study found a 
significant percentage of adults rated as unsuitable for 
children topics on TV such as prostitution--72 percent thought 
that was unsuitable; stripping, 65 percent; rape, 71 percent; 
and child molesting, 58 percent. So parents obviously don't 
want this content on TV.
    Despite the fact that adults feel this content is 
unsuitable for children, and the fact that children are 
watching in large numbers, we found in January and February of 
this year tabloid shows aired 105 codeable segments. Of these, 
30 segments were references to the pornographic magazine 
Playboy; 19 segments were references to the sex industry as a 
normal thing. We didn't code any of the shows which had 
references to the sex industry as a negative thing.
    So these were things that implied prostitution was fine, 
phone sex was fine, stripping was fine. And other pornographic 
materials, 56 segments of sexist body messages.
    In February, Entertainment Tonight had 65 percent of its 
episodes with a codeable segregation, and Hard Copy and Extra 
had 80 percent of their episodes had codeable segments.
    The tabloid news magazine shows are not the only shows 
which feature a normalized de-stigmatized sex industry. 
Maloney, Millennium, NYPD Blue, Wings, Spin City, Friends, just 
to name a small number, have frequent episodes which normalized 
sex for sale, the sex industry themes.
    One show, Dave's World, which is promoted as a family 
friendly show, had two recent episodes which featured the sex 
industry. One episode involved a trip to a strip club, in which 
Dave, the main character, was arrested because he had gotten 
into a fight.
    His visit to the strip club is discussed in the kitchen 
with children present, and there is only one sentence which 
could in any way be construed as disapproval from his wife.
    In another episode, Dave interviews a pornographic model, 
and children come to look over the fence, clearly knowing about 
Playboy magazine, complaining that the model isn't nude.
    In Dave's World, pornography is an every day thing to which 
no one disapproves, of which children are familiar, and no wife 
finds visual infidelity troubling, pubescent, offense, 
degrading, or psychologically unhealthy.
    We might want to know what are the consequences of all this 
exposure to pornography and the sex industry. I'd like to talk 
a little bit about my work as a psychotherapist. For the last 
12 years I have specialized in the treatment of sexual violence 
victims and sexual violence perpetrators.
    I have treated rapists and rape victims, sexual harassers, 
and sexual harassment victims, incest survivors, pedophiles, 
prostitutes, strippers, and pornography addicts. In these 12 
years I have not treated one case of sexual violence that did 
not include sex industry materials as a substantial factor.
    Senator Brownback. Not one.
    Ms. Layden. Not one.
    Senator Lieberman. In other words, as an influence.
    Ms. Layden. As an influence, contributing factor. For 
example, rapists who said, I acted out what I saw in the 
pornographic movie. Incesting fathers who said, when I said to 
the incesting father, you're having sex with your daughter, and 
he said, yes, she wants to have sex with me, and I said, how do 
you know that, and he said she has large breasts, which was his 
cue.
    And I said where would you get such information that if 
someone has large breasts they want to have sex with you. And 
it's in every strip club and in every Playboy magazine as 
information.
    In every case of sibling incest that I have treated--
usually it's brothers forcing sex upon their sisters--the sex 
industry materials that have been involved in every one of 
those sibling incest cases has been sex magazines like Playboy 
magazine, which is the most frequent one involved in sibling 
incest, which is so frequently touted on Hard Copy, 
Entertainment Tonight, Extra. Also Penthouse and Hustler 
magazine.
    Research has supported these connections which I have seen 
consistently in my 12 years of treatment. The kinds of problems 
I treat are occurring at epidemic, pandemic, Tsunami levels.
    Among the industrialized nations, we are the most sexually 
violent Nation on the face of the earth. One in eight women is 
raped--and these are reported rapes. We know that the numbers 
are really higher.
    Fifty percent of women are sexually harassed on their jobs. 
By the time a female in this country is 18 years old, 38 
percent of them have already been sexually molested. I'd like 
to repeat that number.
    Senator Brownback. Repeat that number.
    Ms. Layden. By the time a female in this country is 18 
years old, 38 percent of them have been sexually molested. 
We're not counting in that number any adult rapes. 38 percent 
of females, sexually molested by 18. We're talking about 
millions upon millions of girls.
    Will Sam and Amelia find any healthy sexual messages on TV?
    Senator Brownback. Wait, let me stop here. There are just 
stunning numbers.
    Ms. Layden. They are stunning. Though let me say, when the 
American Psychological Association published the study, which 
had the 38 percent figure, lay people who saw that number were 
stunned. Those of us who work in this industry were not.
    We have seen an increasing flood of survivors of sexual 
abuse in childhood.
    Senator Brownback. Wait a minute. So you're saying the 
people that treat in this area are saying----
    Ms. Layden. We knew that the number would be that high is 
what we're saying.
    Senator Brownback. Aren't you just aghast at that number?
    Ms. Layden. Senator, I have been aghast for 12 years since 
I've been starting to do this work. I am aghast that these 
materials are so available and that only a few people like 
yourself are standing up to say no.
    We have a group which is called the Social Action Committee 
for Women's Psychological Health, we have tried to change and 
educate the society. The responses we get from this society are 
extremely troubling.
    Senator Brownback. I'm sitting here, as a new Senator, and 
I know Joe has been in this fight for a long time, but this is 
an incredible indictment on the culture.
    Ms. Layden. It is a catastrophe.
    Senator Brownback. That I'm not familiar with the numbers. 
What I'm saying to you is, why aren't these being screamed out 
across the public?
    Ms. Layden. I have written to the newspapers. I am from 
Philadelphia. I have written to the Philadelphia Inquirer many 
times about these studies. They do print letters to the editor 
from me. The responses they get----
    Senator Brownback. That gets a wide distribution.
    Ms. Layden. The responses they get are that I am 
challenging the First Amendment by speaking out like this. And 
they often remove information, such as this number has appeared 
in any of my letters because the editors take it out.
    Senator Brownback. Wait a minute. They take it out?
    Ms. Layden. They take it out. And they will not print what 
I call data heavy letters. So I try to state it in general 
terms, and then people write letters and say there's no 
evidence.
    Senator Brownback. You give this to Senator Lieberman and I 
and we'll put it in an article.
    Senator Lieberman. Absolutely.
    Senator Brownback. This is stunning.
    Ms. Layden. It is stunning.
    Senator Brownback. Can you give the figures for other 
industrialized countries?
    Ms. Layden. I'm sorry to say that if we just took absolute 
numbers of rapes in this country, we make the Bosnians look 
like choir boys. And we know that--it made some press about the 
rape camps in Bosnia.
    But we have a rape crisis in this country.
    Senator Brownback. I'll put that one out, too.
    Ms. Layden. The numbers are horrific, and the media is very 
implicated in these numbers, very implicated in these numbers.
    Senator Brownback. Dr. Layden, we just got buzzed for a 
vote.
    Ms. Layden. I was about to turn to some healthy things. I 
could wait until you get back and we could talk about the 
healthy things as shift of gears.
    Senator Brownback. How much more time do you need? We've 
got fifteen minutes until we go vote.
    Ms. Layden. I'll be done in fifteen minutes.
    Senator Brownback. We've got to get over and vote and come 
back. Go ahead and see if you can move it along a little 
faster. I don't want to short shrift your information, and we 
will come back--but if we can get to a point in the next maybe 
10 minutes, and then we'll walk over and vote.
    Ms. Layden. OK. I'm just going to shift gears a little bit 
here.
    Will Sam and Amelia find any health sexual messages on TV? 
It's hard. In an informal observation, I found three prime time 
episodes which had healthy messages.
    On Promised Land, a married couple of 25 years talked about 
their desire to make love to each other, and their wish that 
the kids would spend the day out so that they could have some 
privacy. It seemed clear that what they were doing was loving, 
embedded in their relationship, and growing.
    The same messages were found in an episode of Touched by an 
Angel. In those two shows, the people having sex were married 
people. The sex industry was not portrayed as a part of normal 
life, and people who were tempted to have sex with someone 
other than their spouse decided it was not such a good idea.
    A third example of healthy sex was an episode which was an 
example of non-sex. On Early Edition, a young, unmarried man is 
strongly attracted to a young, unmarried female, who, because 
of circumstances, will spend the night at his apartment.
    It is clear in the morning that they have slept in separate 
rooms, and that they had decided not to have sex despite their 
obvious strong attraction to each other.
    And what is sexual health? From a psychologist's point of 
view, in real life, unlike what we see on TV, healthy sex is 
emotional intimacy expressed as physical intimacy. It's about 
commitment, communication and trust.
    Sometimes it creates human life. It's supposed to be the 
glue that holds men and women together, and helps them keep 
their promises to each other. It should weave together mind, 
heart, body and soul. It is sacred and it is intended to be the 
nectar of heaven.
    The media portrays it as the junk food from Hell. If Sam 
and Amelia were my little boy and my little girl, I would want 
them to grow up psychologically and sexually healthy. I would 
wish for them to love deeply, with passion, humor, friendship, 
respect, tenderness, honesty and sensuality.
    For this to happen, however, we would have to make changes 
in the images that we are planting in their minds. Those images 
we plant are permanent.
    If we do not, I am likely to end up not as their mother, 
but as their therapist. I want to ask TV producers to see 
themselves as citizen broadcasters. I want them to take a 
personal, Hippocratic oath: First, do no harm.
    If they will help parents of Sam and the parents of Amelia, 
producers can become the kinds of heros for which this country 
so deeply hungers. And maybe Sam and Amelia will invite them to 
the wedding. Thank you.
    Senator Brownback. Thank you very much. We are going to go 
over as fast as we can to vote, and then come right back and 
engage in some dialogue back and forth. So if we could be in 
recess for 10 minutes.
    [Recess.]
    Senator Brownback. We'll call the hearing back into 
session. Sorry for the break. I'm not sure when the next vote 
will be, but it may not be for a little while.
    Dr. Layden, were you concluded with your testimony?
    Ms. Layden. I was, Senator, thank you.
    Senator Brownback. Good. I was thinking, going over to the 
vote, Senator Lieberman and I were talking about this, that one 
of the things that's so striking to me is that these numbers 
are just at ghastly levels, and yet it's now known well 
publicly, or we don't seem to--maybe we're not concerned about.
    I can't think that the American people are not concerned 
about numbers at the levels that you're talking about.
    What can we do to help you get those numbers out, or o get 
those numbers out? Should we go to Southern California with a 
hearing, and let's put chart boards up, show what the numbers 
have done. Let's show what the number of rapes were last year, 
in Bosnia, and what they were in the United States.
    I mean, would that help you?
    Ms. Layden. Or what would 38 percent of the female 
population, let's look at that. Let's put a pie chart so they 
can see that if we have 38 percent of the girls in this country 
molested that this is not a small number.
    And the other side of it as well is that this activity is 
not being perpetrated by six or seven guys. We're talking about 
millions of perpetrators, and increasing numbers of 
perpetrators. And for those of us who refuse to accept the 
explanation that this is innate, we are pushed to an 
explanation that this behavior is learned, and then we have to 
ask, who is teaching these perpetrators these permission giving 
beliefs.
    Because with all of our freedoms, we are saying that we 
have the right to give information into the minds of these 
individuals, that are permission giving, these individuals 
become carriers of these messages into the society, into their 
homes, onto their jobs, into the streets, into the schoolyard, 
and that we don't have the right to say, we can't send those 
messages.
    Those individuals interact with all of us. And even if I as 
a parent refuse to have my children see those images, my 
children are interacting with children who have seen those 
images, and with adults as well.
    What we're finding, and I think this in many ways is 
similar to the situation that we had with cigarette smoking. 
That when cigarette smoking first started in this country, the 
doctors who were treating said, before the research was done, 
I'm noticing an effect. My patients who smoke cigarettes are 
dying of lung cancer, and we didn't listen to those clinicians, 
as they tried to tell us, because we said we needed more 
research.
    Now, those of us who are treating sexual abuse survivors 
and perpetrators, are saying the same thing, but people are 
saying, where is the research. The research is hard to do in 
this area, partly because when you have trauma as an outcome, 
you can't do ethically experimental studies where you want to 
measure an effect, and the effect is trauma.
    You know, we didn't do cigarette studies by taking 100 
babies and putting cigarettes in this hundred babies' mouths 
and no cigarettes in these babies' mouths and see which ones 
died of cancer. We can't do a study which says, let's put a 
whole bunch of rape permission giving beliefs into these guys 
heads, and see how many people they rape.
    So that we're going to depend to some degree on 
correlational studies, to some degree on natural experiments. 
We have a number of natural experiments. Oklahoma City shut 
down 150 pornography shops. Their rape rate went down 26 
percent. It would be nice to have that in the whole country, a 
26 percent drop in rape rate, because of that change.
    There are a number of natural experiments where we can look 
at what's the connection, if we stop sending permission giving 
beliefs, what happens to the behavior. So we can look at those.
    The clinical data is there. I have never spoken to a 
clinician who treats in this area who does not recognize this 
effect.
    We're also beginning to see its connection to other effects 
which are very troubling. Stephen Coats from the Coatsville VA 
treats cocaine and substance abusers, and what he has said is 
you can treat cocaine abuse--and I do treat cocaine abusers as 
well--but the relapse into cocaine is through sex and 
pornography addiction.
    Almost 100 percent of those who relapse into cocaine are 
relapsing through their sex addiction, through cocaine 
prostitutes, through a partner who is using cocaine, so that we 
will not solve the drug problem until we understand that they 
are also sex and pornography addicted.
    That that's a phenomena that we're just beginning to see. 
Patrick Carnes, who talked about the connection between the 
sexual violence and the substance abuse, said in one study that 
he conducted that of the alcoholics that he treated, 73 percent 
were sex and pornography addicted, but 3 percent of them said 
that that came up in their therapy. So he said, whoops, we 
missed something. And this is contributing to the alcohol 
problem. So we're seeing connections in other places.
    And that kind of data, that clinical data is here and 
available. With some experimental studies, some early 
experimental studies that looked at the impact of permission 
giving beliefs on judgments of how long a rapist should receive 
for his crime, if you show people certain permission giving 
beliefs, sexual images, they downgrade their judgment of how 
much time a rapist should be in jail, from 94 months to 46 
months, with four hours of visual viewing.
    If you ask them whether women should be liberated, should 
we have women's liberation, normally the subjects, 71 percent, 
will say, yes, they should be liberated. You show them four 
hours and forty eight minutes of pornography, and only 25 
percent now think women should be liberated.
    Senator Brownback. Is that right?
    Ms. Layden. That's right. A 50 percent decrease with four 
hours and forty eight minutes.
    Now, an interesting thing about this study is they called 
four hours and forty eight minutes of pornography massive 
exposure. I don't think it's massive exposure. I think one of 
the reasons we can't do this study is because----
    Senator Brownback. Living in America is massive exposure.
    Ms. Layden. Yes. We've already got massive exposure, and 
some of the studies that don't find differences, it's because 
you can show them two hours of pornography, and it doesn't move 
them up a noticeable difference.
    Senator Brownback. Dr. Layden, these are out there, these 
numbers. Clinicians are seeing this stuff. I had one guy 
describe Washington the other day as a 13 square mile logic 
free zone. That we--give us proof, and studies. Out across the 
country they know that if you give permission to people to do 
aberrant, arousing, instinctive type of negative things, 
they'll do it.
    Ms. Layden. Right. And very aberrant, too. That same study 
looked at asking how many people in the country have sex with 
animals. It doubled. People's judgment of how many people in 
this country had sex with animals doubled after four hours of 
viewing of pornography.
    So they think that we're all having sex with animals, group 
sex, sado-masochistic sex.
    Senator Brownback. Do you go and talk with the people in 
the television industry?
    Ms. Layden. I try.
    Senator Brownback. What have they said to you?
    Ms. Layden. Not much.
    Senator Brownback. Has your organization, the clinicians 
group that you are with----
    Ms. Layden. The Social Action Committee for Women's 
Psychological Health?
    Senator Brownback. Have they talked with the industry?
    Ms. Layden. We have tried to talk with people in our local 
area. When we see permission giving beliefs on television, we 
call the station and we say this is permission giving. We 
have--but we work with both advertising imaging.
    Senator Brownback. What did they say to you?
    Ms. Layden. Sometimes we get a good response. There was, 
for example, there was a commercial on for the cable movie 
channel, not Showtime but one of the other ones, that did 
classic movies. In this advertisement, it was a little girl 
pretending to be Marilyn Monroe. She was about 8 years old.
    She was vamping, she was doing a strip kind of thing, in 
their ad. And we called them and we said, it's not OK to have a 
little girl, 8 years old, doing a strip. The next day the 
commercial was gone.
    So we get some responses like that.
    Senator Brownback. But you've not gone directly to the 
industry headquarters in Hollywood----
    Ms. Layden. No.
    Senator Brownback. Or the financial community in New York.
    Ms. Layden. No, we haven't.
    Senator Brownback. Or other places, and said, look at the 
numbers here.
    Ms. Layden. We get such bad responses on the local level 
that we sort of--we do a little rabble rousing as an 
alternative. We do stand out in front of strip clubs in 
Philadelphia and hand out literature on how to get 
psychotherapy for pornography addiction to the customers who go 
in.
    And most of them don't want any literature on how to get 
psychotherapy for pornography addiction, and we have closed 
down about four strip clubs because the customers won't come 
back when we're out there.
    But we haven't had a forum to speak nationally on these 
concerns.
    Senator Brownback. Well, consider this a forum.
    Dr. Jane Brown. There was a great conference in Los Angeles 
last week talking about images of girls and women in the 
mainstream media. The conference sponsors have done a couple of 
excellent reports showing across media how girls and women are 
objectified and still considered sexual objects.
    I was quite heartened by the number of people from the 
industry there who were willing to listen. As the earlier panel 
suggested, a number of these people are interested now because 
they do have children and they are beginning to think about 
what they want their own girls to be observing in the media.
    Dr. Humphries. As a child and adolescent psychiatrist, I 
see children and their families all the time. And one of the 
things I ask is what their day is like.
    And many of the patients that I see will immediately tell 
me what happens in school, and then they'll say, ``I get off 
the school bus, and then I get my bowl if ice cream. And then I 
go and turn on the TV.''
    And they relate--they identify so strongly with these 
television soap opera characters. These are girls, 
predominantly, 7 or 8 years old. And they will stay there, 
looking at television till probably 6 o'clock, just glued to 
the set.
    Ms. Layden. And we're now having to do eating disorder 
treatment with 5 year olds. Some of the new structured 
treatments are now aimed at 5-year-old girls because eating 
disorders have descended in age to lower and lower ages, and 
much of it is connected to the imagery we have of women in the 
media.
    Because, for example, models, on average, are 19 percent 
below normal weight. Now, to get a diagnosis of an eating 
disorder, you only have to be 15 percent below normal weight. 
These women are held up as role models for young girls--older 
girls, too.
    And they are, in fact, to get the kind of body that is in 
most of the fashion magazines, you're going to have to puke 
three times a day, and put rubber on your breasts, because 
there isn't any other way to get it.
    And that's not a model that we want, but that's a model 
that little girls are getting. And even Barbie Doll. If Barbie 
Doll was a human woman, she'd be seven foot two inches tall, 
have a 45 inch chest, and a 22 inch waste.
    Now, do you know any human women who look like that? And 
most people don't know that Mattel got Barbie Doll by a Mattel 
executive going to Germany and getting a sex toy, of a porn 
star named Lilly, and that is Barbie. She's Lilly. She was a 
rubber masturbation doll in Germany until the Mattel executive 
brought her here.
    She looks it. She looks the whole part. And millions of 
little girls have had that image implanted in their mind 
permanently.
    I want to show you one of our materials. This is the 
psychologists boycott list, which our group produces, of images 
which are hurtful to women. You can see Barbie is on there, as 
well as a number of other things that send unhealthy messages 
about women's bodies.
    There are 77 targets, media targets and so on, on our list. 
We could have had three times that many on our list of images.
    Senator Brownback. One last question, and then I'll turn it 
over to Senator Lieberman. One thing really struck me. You 
talked about a code of standards on sex, on television, one 
being discussed, and you listed a number of factors within 
that.
    One that you didn't, though, is why not say that sex on 
television, if we're to have this, should encourage sex in 
marriage, and discourage sex outside of marriage? That would 
seem to be a normative--at least it used to be.
    That's not in your suggestions?
    Dr. Jane Brown. Well, I was raised in the 60s. I didn't get 
married until I was 37. I would rather say commitment. I would 
rather say long term commitment. I know a number of wonderful 
couples who have been together a long time who don't want to 
get married, and some who cannot get married.
    So I wouldn't say that it's about marriage as much as it's 
about long-term, committed, loving, caring relationships.
    Senator Brownback. Then you get into a definitional issue 
that way. What's long term? What's a commitment?
    Dr. Jane Brown. There are lots of definitional issues here, 
yes.
    Senator Brownback. Marriage seems to be a pretty bright 
line.
    Dr. Jane Brown. I have Lesbian friends who are in 
committed, caring relationships, who cannot get married. I 
would want their relationships to be OK.
    What we're interested in is that sex is seen as a part of a 
healthy relationship.
    Senator Brownback. So while you and I may not agree on a 
code here, you would agree that there is far too much sex and 
enslavement of women depicted on TV.
    Dr. Jane Brown. Absolutely.
    Senator Brownback. Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. I will be real 
brief. I appreciate very much the testimony of the panel. It's 
been very cumulatively powerful. It's been very impressive, 
because you all come with credentials.
    In a sense we don't come with credentials. We're viewers 
and parents and reflections of public attitudes within our 
States. You have all done work in this area. Two of you have 
clinical practices.
    So the fact that, if you will, if I can put it this way, 
that what you're saying validates our fears is, I suppose in 
one sense, encouraging, but obviously ultimately discouraging. 
Anyway, I think what you've said here is very important.
    And I think the Chairman's idea of maybe taking this thing 
on the road is not a bad idea, that we ought to think about 
going to Hollywood. I am going to New York, which is, I 
understand it, one of the two centers, of both the companies 
that produce and production itself. And see if we come closer 
to them, whether some of them will come out and listen to this, 
just as we have today, and to talk about it.
    If they don't, at least we will have presented it in their 
backyard. And if one of the witnesses on the third panel is 
kind enough to give her husband permission to travel with us, 
maybe we can get Dr. Bill Bennett to come and be our lead off 
witness.
    He and I have gone out to Hollywood on a couple of 
occasions, but never quite done it like this. And I think you 
all, if we can arrange schedules, would be very helpful to us.
    In terms of this fact that you all have testified to, which 
is that the research is just beginning on the impact of sexual 
content on television, on behavior, I was thinking as I was 
listening to you whether we ought to think about--and I've got 
to find the appropriate terminology--but whether we ought to 
think about urging or directing--you tell me which is the right 
one--NIH or NIMH.
    Dr. Jane Brown. How about both?
    Senator Lieberman. To allocate some percentage of their 
research budgets--could be small--but to sponsoring studies of 
this kind, so that we can continue to build on a factual basis.
    Dr. Jane Brown. That would be a great idea. One of the 
things that we need, too, is permission to be able to speak 
with children about these topics. Part of the problem as 
researchers is getting access to children to talk about this.
    Dr. Humphries. I would strongly third that, because when 
you go before the human investigations committee, and you say 
that you would like to show a particular segment of film that a 
child may have had previous exposure to, you're told that you 
can't show it, even though in the naturalistic sense they may 
have had multiple exposures to it.
    So if you look at it from that point of view, it's 
sometimes very difficult, and I would very much encourage you 
to try to ask the institutes to look into this. Because it is a 
public health issue.
    Senator Lieberman. Maybe we can work together on that. I 
mean, the fact is that reality being what it is, this is like 
if you--Field of Dreams, if you'll build it, they'll come. If 
there is no money to support research, then there is probably 
not going to be any research.
    But if this is as large a societal problem as we believe it 
is, then it's truly important to begin to direct that some 
money go here.
    Dr. Layden, in all the work that the Chairman and I and 
Bill Bennett and I and others have done on television, we 
haven't really focused on these sort of seven to eight 
syndicated or five to seven syndicated news shows, which are 
really not news shows.
    And I thought the cumulative impact of the different topics 
you described is very powerful, and we ought to--again those 
are prime kid watching hours. That is when mom and dad have 
come home. We've all been through this. We're tired. We're just 
making the transition. And there is a real human tendency to 
allow the television set to become the babysitter.
    But as I said before, none of us really, if we thought 
about it, would allow people who talked about, depicted and 
described the events that these folks are doing on these shows 
to babysit with our kids.
    Ms. Layden. And I think that without content information, 
how many parents seeing the name Entertainment Tonight in the 
newspaper think that they're going to hear about prostitution, 
phone sex, nude photos. And even if the parent was sitting and 
watching with the child, by the time you know that the 
prostitute is on there, the child has already seen it. It's too 
late.
    As I said, what we are seeing is that the images are 
permanently implanted, and a number of these images are 
extremely addictive, and have brain chemistry connections with 
serotonin, with endorphins, and once they are permanently 
implanted there is no process by which we can detox those 
images out of your mind.
    So it's too late, even if you're sitting with your child, 
to say, oh, that thing that you just saw, don't see it. It's in 
there. And parents, for the most part, aren't sitting down and 
watching with their children what the children want to watch.
    Senator Lieberman. I appreciate that. Two other points, and 
I don't want to ask any more questions, because you have been 
very generous with your time, and we want to go on to the third 
panel.
    One point is, which you said before, and it's an extreme, 
but it was really stunning to me, this notion that after the 
exposure to the material you talked about that the numbers of 
people answering the questions who thought that bestiality was 
going on had increased.
    And I remember saying once, part in jest, but really 
truthfully, what struck me is that the material described and 
depicted on the trash talk TV shows on the soap operas, on the 
Entertainment Tonight type shows, and then on some of the 
family hour stuff that Brent showed earlier, involves a range 
of human behavior that frankly I did not know was possible when 
I was the age of the kids that we're talking about.
    And once you know something is possible it also makes it 
possible to be involved in that, or to assume that others are 
involved in it, so that the norms of what's acceptable get 
changed dramatically.
    The second point, for understandable reasons, we have 
focused on the impact of this material on children, and part of 
it is that we are responding, both of us--Kansas and 
Connecticut--the same experience. Parents saying I'm in a fight 
with our culture to raise my own kids.
    But there's something else here. This material is so super-
charged it also is having effects on adults.
    Ms. Layden. Absolutely.
    Senator Lieberman. And that is what you have described. The 
impact on--look, we all, as we've said before, we all have 
these impulses in us. The question is can we control them and 
live in a civilized way.
    You've got people who may have more trouble doing that. If 
you begin to overcome them with this avalanche of sexually 
provocative material, and all they've got to do to get it is 
turn on the television, unfortunately some of them who are not 
as well put together as most people are going to go and act 
out.
    And they're going to act out, unfortunately, as this 
testimony suggests, first on, and tragically, on the people 
closest to them. Perhaps their spouses or their children. But 
then, tragically, we've just seen here in Virginia two young 
girls disappeared, and now their bodies were found.
    There's consequences to this stuff. People out there, 
somebody said, paraphrasing the notion of why do bad things 
happen to good people, why do good people do bad things. Why do 
the good people, who seem like good people, who are running 
television networks, not appreciate the consequences of what 
they're doing.
    And I think you have a good idea. I think we ought to take 
this show on the road and see if we can get these three to come 
with us.
    Senator Brownback. Thank you very much.
    I want to thank the panel. We appreciate it and we look 
forward to further dialogue with you.
    Our third panel that has waited patiently--and I appreciate 
you doing that--is Sarah Brown, Director of the National 
Campaign to Prevent Teen Pregnancy, and Elayne Bennett, 
President and Founder of the Best Friends Foundation.
    We did have a representative from the television industry 
who had previously accepted and then demurred at the last 
minute.
    And I want to reiterate my disappointment that the 
television industry will not be here. They've been invited, 
asked, pleaded with. I issue that invitation again. We want to 
hear from the industry. We'd like for them to come forward. 
We'd like for them to discuss these issues with us publicly, 
privately, any way you want to.
    But, please, we've got to start discussing this.
    Ms. Brown, we welcome you here. You can submit your written 
testimony, however you would choose to do it, and the 
microphone is yours. Thanks for joining us.

TESTIMONY OF SARAH S. BROWN,\1\ DIRECTOR, NATIONAL CAMPAIGN TO 
                     PREVENT TEEN PREGNANCY

    Ms. Sarah Brown. Thank you for including me this morning. 
I'll present only an excerpt of the written statement I 
submitted earlier. My name is Sarah Brown. I am the director of 
the National Campaign to Prevent Teen Pregnancy, which is a 
private, non-partisan group whose goal is to reduce teen 
pregnancy by one third over the next 10 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Sarah Brown appears in the 
Appendix on page 209.
---------------------------------------------------------------------------
    I want to acknowledge that one Member of this Subcommittee, 
Senator Lieberman, serves on the Campaign's Senate Advisory 
Panel as one of its co-chairs, and we're very grateful, 
Senator, for your participation and your leadership.
    I also want to commend the Chairman and this Subcommittee 
for your hearing topic today. As you know, it's a very 
important issue, and we're all grateful that you've focused 
attention on this subject.
    Although we've talked about a lot of things this morning, 
my focus is going to be specifically on teen pregnancy, and how 
the media can contribute to its reduction.
    Just to refresh our collective memory, teen pregnancy is a 
serious problem. We have about a million girls in this country 
who become pregnant every year. About half of them give birth. 
We have the highest rate of teen pregnancy of any 
industrialized democracy in the world. The children of teen 
mothers are at very high risk for a wide variety of emotional, 
cognitive and developmental problems, primarily because their 
own mothers are barely out of their own childhood themselves. 
The level of risk and the cold shadow cast on the future by 
this problem--children having children--is really very serious 
for all of us.
    I want to talk quickly about four things today. What we 
know from good research about the effects of media on behavior, 
what kinds of research we need (a topic we just got into a 
minute ago with the last panel), what experience and common 
sense suggests in this area, and then, last, what we can do 
while we're waiting for perfect data, or at least better data.
    So, point number one, what do we know? Well, as this 
morning I think has clarified, we know that the media is 
saturated with sexual material. Sexual activity is frequent, 
most commonly engaged in by unmarried partners who rarely use 
contraception, yet almost never get pregnant. Little attention 
is given to contraception, to responsible personal behavior, 
including abstinence, and, in particular, to the relationships 
of values to behavior.
    The United States has in effect a media culture that 
glorifies sexual activity, especially illicit, romantic, 
spontaneous sex between unmarried people, but is very squeamish 
about the other side of the equation--portrayal about how to 
manage sexual feelings, define responsible sexual behavior, or 
express respect for others.
    Dr. Brown and others this morning have given us a lot of 
data on how indesgneal??? the prevalence of sexual material in 
the media is.
    The question from a research point of view, of course, is: 
What's the connection between all of this material and 
behavior. Now, at this point I think it's safe to say that, 
applying the most rigorous scientific standards, that we know 
more about what is in the media than specifically how it shapes 
behavior.
    This is really a major gap in our understanding, but it is 
something that we can address. As a number of people have 
pointed out, if the experience from the violence research area 
is any guide, I think we're going to find really quite quickly 
that there is a relationship between media exposure and 
behavior.
    Point two, what kind of research is needed? The answer here 
quite simply is: High quality research. I think the only thing 
sadder than not addressing an important question is to do it in 
a way that doesn't yield the kind of answers you needed.
    So the most important thing I want to say to you today is 
that if this Subcommittee is able to press for more research, 
that it is careful to do it through the very best institutions 
in this country that know about peer review, that know about 
proper scientific design and that have strong abilities to 
administer scientific research well.
    Candidate institutions include the NIH. The CDC is another. 
There are others as well. But the important concept is to do 
this in the best way possible, so that when we look at the 
results, nobody can say, oh, but you didn't do it right, or you 
didn't design it correctly. There's no need for that if we 
think about the best institutional home carefully in advance.
    Point three: It's true the data are thin, but what do we 
know from experience about the relationship between media and 
teen pregnancy in particular.
    Here, the consensus is powerful. Kids and adults alike all 
say that the current media environment is sexually enticing, 
and that those who right now are setting the cultural norm in 
this country through the media--the sports starts, the 
celebrities, the music idols, and, in particular, the 
television and movie gods and goddesses--have helped to create 
an environment that is accepting of teen pregnancy and its 
precursors.
    Now, these individuals may not actively encourage teen 
pregnancy, but by being so casual, and even humorous, about 
pregnancy and child bearing, and by making casual sex, 
unprotected sex, nonmarital sex so commonplace, the stage is 
set, I think, for the high rates we now see.
    Kids and grown-ups coast to coast ask us, the National 
Campaign, how can we encourage teens to avoid pregnancy and 
child bearing when their idols and their role models in the 
media commonly engage in sex with little enduring meaning, sex 
with no serious consequences, pregnancy without commitment, 
intercourse without honor, women as sex objects, sex as a game? 
In such an environment, how can we turn to young people and ask 
them to behave otherwise?
    My fourth and final point is that media can, I think, be 
part of the solution to teen pregnancy--perhaps with a little 
bit of prodding from this Subcommittee and a few carrots and 
sticks along the way. The National Campaign is committed to 
working with the media to enlist their help in showing kids 
both the real consequences of teen pregnancy and positive 
alternatives to pregnancy and early parenting, not only through 
public service announcements but also through the content of 
entertainment programming itself.
    In its very first weeks, the National Campaign established 
a media task force comprised of leaders in the entertainment 
media, advertising, public health communications and 
journalism. Dr. Jane Brown, who testified a moment ago, is a 
member of that group.
    Let me just mention a couple of commitments that we have 
developed with specific media leaders in our very short life. 
This is a modest list, I admit, but we hope very much that it 
will steadily expand.
    Example one: Black Entertainment Television, just this past 
Saturday, hosted a live, 2-hour town meeting with 300 
teenagers, experts, and celebrities from television stars to 
hip hop artists to discuss not only teen pregnancy prevention, 
but another issue as well that we're very involved in, which is 
involving men and boys in preventing teen pregnancy.
    BET also created three of its own public service 
announcements which it aired during this summit, and which it 
will continue airing over the summer. BET may also rebroadcast 
teen summit over the next year. First Lady Hillary Rodham 
Clinton taped a greeting that was shown during the program, 
and, in fact, the First Lady recognized BET's efforts to reduce 
teen pregnancy at a White House ceremony last Friday.
    Here's a second example: One of the members of our media 
task force is the head of ABC Daytime Programming. She has made 
a commitment to the Campaign to convene writers and producers 
from not only ABC but other networks, if possible, to meet with 
the National Campaign--experts, parents, teenagers as well--to 
talk about how we can build prevention messages into the story 
lines of soap operas that are consistent with the pregnancy 
free adolescence.
    Here's a third example: The executive producer of Beverly 
Hills 90210 is going to attend a meeting that we're holding at 
the end of June of State leaders who are organizing media-based 
teen pregnancy prevention campaigns in their own State. She, 
Jessica Klein, is going to talk with these individuals about 
how to work with the media to get positive messages across.
    I think these (and other) commitments show that at least 
some media leaders are, in many ways, like those of us here. 
They're concerned about young people, and I think they're 
concerned about the future of the country. Our view is that 
this reservoir of good will can be harnessed to important 
issues like preventing teen pregnancy. We're making a start, 
and we look forward to working with this Subcommittee on this 
kind of constructive engagement with the media. Thank you.
    Senator Brownback. Thank you very much. And thanks for your 
work, and God speed. We sure want it to work and do well.
    Ms. Bennett, welcome to the Subcommittee. It appears you 
have some knowledgeable guests that are here as well. Would you 
care to introduce them?

  TESTIMONY OF ELAYNE BENNETT,\1\ PRESIDENT AND FOUNDER, BEST 
  FRIENDS FOUNDATION, ACCOMPANIED BY SUE LEI, FROM THE SCHOOL 
 WITHOUT WALLS, WHITNEY BROWN AND NEFERTINA FRANCIS FROM AMIDON

    Ms. Bennett. Yes, I would. It's my pleasure to introduce 
Sue Lei, from the School Without Walls. Sue is a twelfth grader 
there. And I'd like to introduce Whitney Brown, from Amidon. 
She's a sixth grader. And Nefertina Francis, from Amidon, who 
is also a sixth grader.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bennett appears in the Appendix 
on page 219.
---------------------------------------------------------------------------
    We decided when we were trying to figure out we could best 
offer information to the Subcommittee, that it might be helpful 
to hear from the very population we're so concerned about.
    And we've not prepared anything for them to say, so when 
the girls talk, they'll be talking about what they have 
experienced, what they see their friends do, what they hear 
about.
    I would like to just, if I could, lay out a few facts. I've 
been crossing through lots of pages. My good friend, Sarah, who 
has done a wonderful job as the executive director of the 
President's Campaign has covered a lot of information. The 
three women who spoke prior to us were fascinating, and I kept 
my head nodding through most of their testimony.
    I understand earlier this morning you heard a lot of data. 
I'm sure they covered the U.S. News & World Report survey on 
what Americans believe and what the Hollywood elite believes, 
and how often the Hollywood elite is very concerned when they 
answer anonymous surveys. But what they act on is very 
different.
    So unless I hear you say you didn't hear anything like 
that, I'll jump into some of this. But I guess what I'd like to 
tell you is about our Best Friends program, of which the three 
young ladies here are a part, and tell you how we got started 
and the good news. And I'll throw in the bad news along with 
it.
    As you know, there's much discussion today about the moral 
decline in our communities and the troubled state of our youth. 
Increased sexual activity during the last three decades has not 
only brought us a nearly 30 percent rate of out of wedlock 
births, but also dramatic increases in sexually transmitted 
diseases.
    There's a 150 percent rise in penicillin-resistant 
gonorrhea among women in New York City alone. AIDS statistics 
indicate, and this is out of CDC, that it may soon become the 
leading cause of death among teens.
    For our country, this is a recipe for disaster. The 
reported number of new gonorrhea cases among Washington, D.C. 
youth ages 10 to 19 increased nearly 50 percent the last 2 
years.
    In 1987, as a faculty member at Georgetown University's 
Child Development Center, I began to realize that something had 
to be done to provide guidance to our adolescent girls. 
Premature, underweight babies born to younger and younger 
mothers caused concern among the staff.
    In addition, many adolescent girls referred for counseling 
seemed to have emotional problems which often evolved from 
sexual promiscuity.
    The messages from television, movies and magazines were 
overloaded with sexual encouragement. I began to wonder who was 
telling girls they did not have to have sex as teenagers, and 
in fact they could lead healthy and happy lives if they did 
not.
    The result was the Best Friends program, based on the 
concept of girls supporting one another and waiting to have 
sex, and rejecting drug use. And this was along with guidance 
from parents and teachers.
    We emphasize the joys of pre-teen and teen years, free from 
the complications of sexual activity through our six part 
curriculum. Best Friends girls receive 110 hours of personal 
attention, guidance, skills that we think adolescent girls need 
to lead happy and healthy lives.
    We provide positive and upbeat messages. You will succeed 
in life if you set your goals and maintain your self-respect. 
We're now operating in 50 schools in 15 cities nation-wide, and 
now over 2,000 girls are participating in this program.
    From 10 years of working with girls in the Washington, D.C. 
public schools, and training educators throughout the country, 
we have learned that most adolescents want guidance. They want 
to learn skills for saying no to things that will harm them. 
Things such as drugs, sex, and violence.
    They need messages and role models to counteract the images 
of violence and sexual messages they see on television. Most 
girls want to hear messages of abstinence from sex and drugs, 
and we know that they will respond to a program that fosters 
self-respect by promoting self-restraint.
    As Marian Howard of Atlanta's Emory University found, and 
she's also a member of the Campaign, when she asked 1,000 teen-
aged mothers what they wanted to learn in sex education, 82 
percent of the girls responded, I want to learn how to say no 
without hurting my boyfriend's feelings. An overwhelming number 
cited the cause of their pregnancy as a, quote, inability to 
say no.
    And they need to learn safety skills to avoid dangerous 
situations, and individuals who prey on the young and the 
vulnerable. We, our schools, and communities, and our media 
must provide them with the guidance that they need.
    Today sex has replaced violence as the prime time 
obsession. You heard it all in that wonderful analysis of what 
a child watches when he or she comes home from school between 
the hours of five and six or seven and eight.
    I won't review it any further, just to remind you that in 
an extensive study, a sexual act or reference occurs every four 
minutes on the average during prime time television. Every four 
minutes.
    Now, all you need to know is about what happens when you 
are bombarded over and over again with messages. What happens 
to the brain. What happens to the thought processes.
    Only one in 85 of these references, and again you know, 
this, concerned any consequences. Moreover, casual sex was 
almost always condoned. The prevailing theme on television is 
act on your desires. There is no praise for restraint or delay 
of gratification.
    The time spent by the average teenager during a week 
indicates that it's 21 hours a week of watching television, and 
I checked this with Sue Lei, and she verifies it. That's three 
hours a day--and this is an average, again. This is compared to 
only 1.8 hours a week reading--now this is 21 watching and 1 
hour reading--and 5 hours per week on homework. And that's also 
an average.
    We all know that adolescents often make decisions without 
thought to possible consequences or consideration of 
alternatives. Piaget's developmental research has shown that, 
quote, teenagers have a very limited ability to make decisions, 
and a superficial understanding of their sexual relationships.
    Researcher Wanda Franz defines the problem solving dynamics 
of Piaget's development stages as the movement from the 
concrete operation stage to the formal operation stage. And 
during the concrete operation stage of development, which is 
usually up to age 12 to 13, adolescents are, one, overwhelmed 
by immediate concrete experience--picture this from television-
cannot anticipate future outcomes, and process in haphazard 
ways. They're not at the level yet of deductive reasoning.
    In making a decision about sexual activity, Franz maintains 
that concrete thinkers will be most concerned with immediate 
sexual gratification. They will disregard future risks, and 
will fail to evaluate options, and responsibilities for action.
    Again, put this sound, academic, cognitive development in 
regard to what is presented on television. The goal for Best 
Friends girls, and, truly, for all our adolescents is to reach 
the formal operation stage of development, where at about ages 
14 to 16 they can begin to anticipate possible outcomes, they 
can weigh the value of the outcomes, they can consider complex 
interactions, and they can associate behavior without outcomes.
    During this time of growth, from the concrete operational 
stage to the formal operations is when most adolescents are 
most in need of strongly defined standards of behavior and 
societal support of mature decisions.
    We should offer them guidance by teaching them effective 
problem solving skills similar to processes taught in math and 
sciences courses--in some courses--and providing the support 
system so they can then make good decisions.
    Television programs which portray or encourage these skills 
would be welcome for our adolescents and could easily be 
offered. Aristotle said it first: The best friend to have is 
one who encourages you to be a better person. Let's contrast 
this with the messages our youth are getting on television 
today.
    The television show Friends is one of the most popular 
shows on television. It is ladened with plots that portray or 
refer to casual sex. The actors are talented, but they talk of 
little else.
    One recent show--and I have to admit I did not see it, but 
George Will discussed in his column--portrayed a couple, 
unmarried, one I gather is a curator of a museum--you girls may 
know who this is--but they ended up having sex in a museum 
display under animal skins.
    And they woke up the next morning--did you see that one? 
That's Friends, yes. There were observers there coming into the 
museum, and, of course, prominently displayed was a Catholic 
priest right in front. So all of this was very funny.
    I think it all had to do with--I won't go into what it had 
to do with, because it's really pretty disgusting.
    It is obvious again that these friends are not encouraging 
each other to be better people.
    I have a whole segment here on what 81 percent of Americans 
feel, that television contributes to the decline of moral 
values. And surprisingly, 46 percent of Hollywood leaders 
agree.
    Another 63 percent of Hollywood leaders agree that 
portrayals of sex, or sexual references contribute to young 
people having sex. So you've got here two thirds of the 
Hollywood elite agreeing that the portrayal of sex on 
television contributes to young people having sex, and 90 
percent of the American people believing this.
    So why are we watching this crud on television? What is it? 
Do we go to the sponsors? Do we tell them, forget it, we won't 
buy any more of your products?
    Somehow, somewhere we have--we do have data, we do know, 
and we're not acting on it. I'm disturbed today that I don't 
see, other than you two wonderful gentlemen, where are the rest 
of the people who should be sitting here? This is a sadly empty 
gallery.
    I know you've had some people this morning, some media. But 
we've heard some absolutely explosive information today that 
should be on the front page of every newspaper. It's not there. 
You won't find it. Why don't we know that 38 percent of women 
by the age of 18 will have been sexually molested, and this, in 
fact, is born out by our own in-house survey of 1,147 girls 
across the country who participate in Best Friends programs.
    Senator Brownback. It's kind of as if we don't want to 
know.
    Ms. Bennett. Well, where is it? Where is it in our media? 
Where is it in our print media? Again, the Louis Harris survey 
showed that of the three largest networks, the afternoon prime 
time, afternoon, evening hours, 65,000 sexual references each 
year. The average American now watches 14,000 references to sex 
in the course of a year.
    Teenagers face more adult strength stresses than their 
predecessors did at a time when adults are much less available 
to help them. With the divorce rate hovering nearly 50 percent, 
and 40 to 50 percent of teenagers living in single parent 
homes, headed mainly by working mothers, teens are more on 
their own now than ever before.
    I do have to include this--I do hate to talk about it--and 
then we'll talk about exactly what's happening on television. 
But unfortunately many girls first sexual experience is forced. 
The Alan Guttmacher Institute reported that two thirds of teen 
mothers said they had sex forced upon them earlier by adult 
men.
    The National Center for Health Statistics reported in 1992 
that of 185,000 births to girls 10 to 18 in 1992, 70 percent 
were fathered by adult men. These adult men were not in sex ed 
classes.
    In many States, adult men having sex with or without 
consent of underaged girls constitutes statutory rape. 
Unfortunately during the last decade, statutory rape laws have 
been rarely enforced.
    Why is it? Is it because the media has desensitized us to 
the vulnerability of young girls? Knowledge of contraceptive 
techniques is not going to help these girls, because the adult 
men are hitting on--and that's the term--younger and younger 
girls because they don't want to use protection. They know 
young and inexperienced girls are much less likely to have an 
STD, and they are unconcerned about impregnating them.
    Furthermore, when young girls have been used for sexual 
gratification, these father figures--and I use the word father 
very reluctantly--have set these girls up for a destructive, 
dependent cycle of love/hate which almost inevitably leads to a 
girl becoming another sad statistic in the growing domestic 
violence in our country.
    Best Friends emphasizes the issue of sexual abuse through 
our videos and discussions, which emphasize that sexual abuse 
is wrong, and never the victim's fault. We talk about common 
sense safety rules that unfortunately hear much these days.
    We encourage and tell our girls never to go anywhere alone, 
never to hitchhike or accept rides from strangers, and to leave 
the room when pornography is present on videos and on 
television. There is pornography present on prime time 
television.
    We also tell them to never keep a secret that makes them 
uncomfortable. We are certain that Best Friends girls are far 
more capable of determining what is acceptable or unacceptable 
behavior in their boy friends. And because of this ability we 
believe they are far less likely to become victims of abuse and 
physical violence.
    Just one quick story, and I'd like for our girls to talk to 
you. In one of our elementary schools in suburban Maryland, 
middle income, a fourth grade girl wore an outfit to school 
that the boys thought was suggestive. They didn't use that 
word. They all used the word sexy.
    The boys got together, three or four of them, and a plot 
was hatched in which they were going to jump this little girl 
the next day at school on the playground. And the rumor kind of 
went throughout the school, and the principal heard about this 
and called the boys in.
    And they said yeah, well, she wore that dress or that 
blouse or whatever. Fourth grade. But, they said, it's OK, they 
all had condoms in their shoes. They had come to school with 
condoms that they placed either in their shoe or in their 
pocket.
    So the fact that they were going to be protected meant it 
was OK to jump on her, and I'm not sure how far--again, 
remember where their reasoning levels are--what they had in 
mind, the consequences were. But it had to do, I'm sure, with 
assaulting her in some way.
    We know that this is going on. We know the incredible 
impact of visual representation to children, and when you plant 
a visual image in a child's head, it is very difficult to make 
it go away.
    There are good things. There are good videos. We use them. 
All of our discussions center on educational videos that are 
designed to interest children. And from that point we can 
discuss the vital issues that need to be discussed.
    Whoopi Goldberg narrates the video, ``AIDS, Everything You 
Should Know,'' and it promotes abstinence as the only sure way 
to avoid AIDS.
    So I think we need to commend the good things that are 
happening, and somehow try to find a way to increase the 
numbers.
    We are here today to say that we know the impact of media 
on our children, and we know it's incredibly powerful, and we 
urge a major effort in responsible monitoring by the TV and the 
media industry. Our children deserve it.
    Ms. Bennett. Sue Lei, would you like to talk about what a 
typical high school girl or guy might watch on television, and 
just some of your thoughts about when you take care of your 
younger brothers and sisters?
    Ms. Lei. OK.
    Senator Brownback. Welcome, Sue Lei.
    Ms. Lei. I'm a senior at School Without Walls. This is my 
last year. And I have a younger brother and a younger sister. 
My brother is eight, and my sister is ten.
    And every day after school they will come home and watch 
TV, mostly Channel 5, because there is a lot--Power Rangers and 
other cartoon shows. But after eight they will watch either 
shows like the TGIF, Channel 7 Fridays, and comedy shows.
    But my friends, they're all into Melrose Place and 90210 
and Pacific Palisades. It's like every day, like every other 
week after a show they will talk about the show as if they are 
real life.
    I remember one time they were just talking about Moisha. I 
have never seen that show before. Channel 20. And they were 
like, this guy did such and such. And this guy did such and 
such, and she did this and that, and she left.
    So I thought it was real, real people doing real acts. 
Until I asked them, ``Do I know this person?'' No. It's on TV. 
I go, ``Oh.''
    So it's like TV is being portrayed, and I do believe we do 
watch a lot of TV. But if we have nothing, like no 
entertainment outside of--recreation outside of the school, or 
outside of our homes, where do we find entertainment but the 
TV?
    Ms. Bennett. Why are your brothers and sisters not playing 
outside?
    Ms. Lei. First of all, the neighborhood is not safe. They 
are willing to go out, but their friends are not willing to 
come out. So there's no point in them going outside and 
playing.
    So what they do is they would rather stay home and watch TV 
and sit in front of the tube.
    But we did participate in the TV boycott, the National TV 
Boycott. Are you familiar with that? From April 28th to May 
1st. Where, nation-wide, don't watch TV for a week. And we did 
participate in that, yearly.
    But a week out of 365 days is not enough.
    Ms. Bennett. And you turned it off at your house?
    Ms. Lei. Yes.
    Ms. Bennett. What did your brother and sister say when you 
did that?
    Ms. Lei. They didn't do it. I did.
    Ms. Bennett. But I mean were they unhappy that week?
    Ms. Lei. Well, they were watching TV, and they came up to 
my face and say, guess what happened to such and such and such 
a TV show.
    Ms. Bennett. Oh, I see. They continued to watch. You didn't 
watch it.
    Ms. Lei. I didn't watch it.
    Ms. Bennett. You have to work to get them not to watch it.
    Ms. Lei. Yes. That point has to be nation-wide and reach 
the schools, to ask the schools to participate in the National 
TV Boycott Week. It's just a week, 7 days. It's not that hard.
    Ms. Bennett. That's a good idea, if all the schools would 
join together in that.
    Senator Brownback. That would be good, wouldn't it. 
Whitney, are you the next one up?
    Ms. Whitney Brown. Yes.
    Senator Brownback. I like that smile.
    Ms. Whitney Brown. Thank you. Well, I don't watch a lot of 
TV. There's nothing really to watch on TV. It's like it's not 
going to help you any except like the Discovery Channel or 
Animal Planet, that will give you information.
    But the other shows, they're not anything, they're not like 
real life. They're just fake. In my school, Amidon Elementary, 
all the kids watch TV. We all watch TV.
    But there's only a couple who don't watch it as much. 
Everyone's talking about what they saw, blah, blah, blah, blah, 
blah. Did you see this? Did you see that? But it's really no 
need for it.
    Ms. Bennett. Do they see sex on TV?
    Ms. Whitney Brown. I don't know. Because I don't hang 
around people like that.
    Ms. Bennett. So they don't talk about that so much.
    Ms. Whitney Brown. Yes. If they do, they're not around me, 
because I don't----
    Ms. Bennett. You get out of there when they start talking 
about that.
    Ms. Whitney Brown. Right.
    Senator Lieberman. Is that something that you got from your 
family, or did you just make the decision? In other words, that 
you don't watch those kinds of shows, and you don't hang around 
with those kids?
    Ms. Whitney Brown. It was a family thing. My mother and I, 
we watch TV shows together. We never did watch a lot of TV. No 
one in my family watches a lot of TV.
    And we made that decision altogether.
    Senator Lieberman. That's great.
    Ms. Bennett. That's one of the reasons she was smart enough 
to finish her test early so she could be here.
    Senator Brownback. I hope you get 100 percent on it.
    Ms. Bennett. Is there anything you would like to tell this 
Subcommittee about television and kids, or what to do, or any 
ideas you have?
    Ms. Whitney Brown. Yes. I would like to say that I think 
that television industry should limit the shows, because they 
are really not good for children's minds, because it will give 
a bad influence on them.
    Like they would say, this celebrity is doing such and such 
a thing. Well then I should go out and do it too. So they 
should limit their shows.
    Senator Lieberman. Now old are you, dear?
    Ms. Whitney Brown. I will be 12 on Sunday.
    Senator Brownback. Well, Happy Birthday.
    Senator Lieberman. Happy Birthday.
    Ms. Whitney Brown. Thank you.
    Senator Brownback. And Nefertina is with us as well.
    Senator Lieberman. Nefertina, how old are you?
    Ms. Francis. I'm 12. Well, what I think about TV is some 
children watch too much of it. And they get the wrong idea of 
what they show. Me, I don't watch a whole lot of TV, not on 
weekdays or anything. I just watch it on weekends, and most of 
the time I just go out and ride my bike or something.
    But most children, they just stay home and watch TV all the 
time, and they don't do anything that will help them. And they 
watch too many like X-rated things, and too much stuff with 
violence in it.
    Ms. Bennett. The X-rated things, are you talking about, do 
they get videos, maybe from the video stores and put them on?
    Ms. Francis. Some videos and some movies that are coming 
out now, some of the movies are really bad for children to 
watch.
    Ms. Bennett. How do they get them? Do adults check them 
out, and then they watch them and then they're there, and the 
kids just get them, and adults don't care, or adults don't know 
about it? Or what do you think?
    Ms. Francis. I'm not too sure about that.
    Ms. Bennett. We do know several cases that did evolve 
around the watching of X-rated videos, or R-rated, and one 
actually took place in PG County where a group of young boys 
had been watching videos.
    And some girls came over to the house, later, and the girls 
were--they ended up having sex with the girls. They were 13, 14 
years old.
    And later, of course, it was argued whether it was 
consensual or whether the girl--but we know, and everyone who 
has had anything to do with developmental psychology or any 
kind of work with children knows the impact of these visual 
images, particularly on adolescent boys.
    They tend to make it appear that girls want this, desire 
this, this is normal--things that they might be hesitant about. 
Once they see it depicted, I mean, you heard it. You heard the 
earlier testimony.
    Senator Lieberman. You don't have any doubt that what kids 
see on television is part of what causes the problem of teen 
pregnancy which you are trying to diminish?
    Ms. Bennett. I have no doubt. None.
    Senator Brownback. This seems to me to just go beyond any 
question of logic. Senator Lieberman and I raise millions of 
dollars every 6 years. I do it every 2 years, coming from the 
House.
    Senator Lieberman. Hopefully you'll stop.
    Senator Brownback. I hope to stop soon. And most of it goes 
for TV advertising. Now, we don't just do this just because 
this is fun. It's because this is meant to try to persuade and 
influence.
    Now we're going to deny that people who see, what is it, 
14,000 incidents a year, or 4,000 a year, 14,000 by the time 
they are aged nine, that this would have no impact on them. 
Well, we're dumber than we look, I guess, if that's the case, 
because we shouldn't be buying this TV advertising and all 
these advertisers shouldn't be buying this TV advertising.
    I don't know who is kidding who on this, that we need 
more--we do need more research. We need more information to 
substantially put this down. But otherwise there's a lot of 
people spending millions and billions of dollars and they're 
not getting their money's worth on TV advertising.
    Ms. Sarah Brown. You need to do both things, I think, 
simultaneously. The notion that we can't act until we have yet 
more data, I think, is absolutely ridiculous for the reasons 
that you just articulated.
    You don't have to be a rocket scientist to know that media 
is an important player in the field of not only teen pregnancy 
but abuse and denigration of women, as has just been discussed.
    But it's also true that good research can help you 
understand these influences in more depth, how to use media for 
social goals and good. It can help you understand who is most 
vulnerable to what types of images.
    So, I don't think we should in any way set this up as an 
either or. Obviously we need to do a lot of things right now to 
get more positive images on the media, to decrease negative 
ones. But we need more research simultaneously.
    Senator Brownback. Where are we--it strikes me we're almost 
at a type of analogy to the smoking industry. But we're 20 
years behind of saying, OK, well, 20 years ago that smoking 
affects your health.
    Everybody out there knew it affected your health, because 
they would wake up in the morning coughing. Now, is this 
logical that this doesn't affect your health? But we were 
denying it for a number of years.
    Where are we on this causal connection?
    Ms. Sarah Brown. Well, it depends on whether you ask this 
from the standpoint of research, or whether you just talk to 
individuals. In that regard, the National Campaign has had 
focus groups in three cities, just in the last few months. In 
each one, the groups talked about the power of media to shape 
feelings, to define what's permissible behavior, and to support 
people and things that we know are not in their best interest. 
The point is that although the researchers have questions, 
parents and adults seem to have none at all. They have already 
concluded that media shapes behavior.
    Senator Brownback. None.
    Ms. Sarah Brown. Now, what's interesting is that I think 
young people feel the same. Let me give you an example. I think 
there has been a very unfortunate conversation going on in this 
country in the last 10 years or so, about how adolescents don't 
listen to adults, that they just listen to the peer group, and 
if you can't get to the peer group you can't influence them.
    Yet, if you sit down and talk with young people, they often 
say exactly the opposite. Every single adolescent we've talked 
to has noted how much they want to hear from the adults around 
them about what's expected, about what the facts are. They may 
not always agree, but they want an open conversation.
    Look at it from their point of view: They get a huge amount 
of confusing material in the media and they need help in 
interpreting it--and coming to terms with it in their own 
lives. Every adolescent we have talked to says, ``I need to 
hear more from my parents. I need to hear more from my teacher, 
and the adults around me.''
    The point is that adults have a huge role to play in 
helping adolescents, and I think for some reason we've gotten 
kind of confused about that. The same is true for media. 
Everybody knows that media is an important influence. Kids say 
it. The adults say it. You all say it. We say it. Really, there 
is no argument at the level of experience and common sense.
    Senator Lieberman. That's a very good point. There's a 
theory that there's a kind of values vacuum. There's a 
reluctance of some of the traditional institutions to say it, 
and what you just said is all right.
    And we've all experienced it in our parenthood, that kids 
may complain, but basically they're looking for help to decide 
what's right and wrong. And the problem is when a lot of the 
people who used to do that have stepped back from doing it, it 
leaves a vacuum which the television fills, with all the wrong 
messages, among others.
    I want to ask the three Best Friends, because you're very 
impressive group of young women, really. You are impressive 
because you're bright, you're well spoken, but you've also 
clearly made what appears to us to be the right decisions.
    And I'm just curious. Are you not watching television 
because of the kinds of stuff that worries us, because you 
think there's too much sexual material on there, and that it's 
not good for you? Or do you just think television is a waste of 
time, and that's why you're not watching it?
    Ms. Whitney Brown. Yes. I think television is a waste of 
time, because it can't do anything for you. I spend most of my 
time reading.
    Senator Lieberman. Good for you. Let me ask this question, 
which is an awkward question to ask here, and if you don't want 
to answer it, don't answer it.
    Do you feel that kids--we've heard some testimony today 
from some of the experts that there are a lot of boys and 
girls--I'm thinking about 12-year-olds now--who are involved in 
sex. Do you believe that from what you see around yourself? I 
don't mean yourself. But I mean in your school and people you 
know?
    Ms. Lei. There are like two cases that--I watch the news 
every night, and I watch TV because I want to watch the news. 
The ``Ten O'Clock News.'' And yesterday--was it yesterday or 
some other day--they were talking about how two boys attacked a 
girl. One attacked the girl, and the other boy was on top of 
the girl, during recess.
    These kinds of things happen mostly because they watch TV, 
from what I understand. They watch TV and a show promotes sex, 
then they'll like, oh it's OK. And I've never tried it before. 
And they want to be adventurous, and they really want to see 
how it feels, and how it--is it really just to do what that 
they promote--the TV shows promote it.
    It's like, if they do it, they won't get any--they won't 
get slapped or anything. Because the TV did it, and they didn't 
get slapped. They didn't get in trouble. Why should they?
    Senator Lieberman. Right. Do you want to say anything else?
    Ms. Whitney Brown. I was going to say that the TV might 
influence them to do certain stuff, but it's also peer 
pressure. It could be their friends around them. Saying, well, 
my friend, whoever did this, so maybe I should try it, too.
    Senator Lieberman. You are really great. And you've got a 
wonderful future ahead of you. So God bless you.
    I have to go. Mr. Chairman, I want to thank the two 
witnesses--well, the five--but the two here who run these 
programs. You are really heros in organizing a very 
constructive response to the problem that we're talking about 
here.
    And the frustration and the infuriation is that you're 
fighting not just against sexual trends and poverty, 
disintegration of families. We're fighting against the tube, 
which is an enemy to what you're trying to do.
    And I think we all together have to get this message to the 
folks out there.
    Ms. Sarah Brown. Some people call all this a ``culture 
war.'' That's what it is--a struggle over what this culture is 
going to say about what's acceptable.
    In this context, I want to acknowledge that Elayne Bennett 
is another one of the individuals deeply involved the National 
Campaign. We value her extremely highly for the reason you see 
so clearly here. Like Elayne's program, the National Campaign 
to Prevent Teen Pregnancy was organized largely out of concern 
over children and families. This is not a Campaign about sex or 
sex education, or something that sort of gets the cameras 
rolling. It's that we know that if we want a healthy, happy, 
productive populace, we're going to have to get a grip on this 
problem.
    Senator Brownback. Amen.
    Senator Lieberman. Thank you.
    Senator Brownback. I want to thank you all for engaging in 
a culture war. And it's one that we're going to win. We've got 
to win it. I have to tell you I feel like today that we opened 
the body up and there's a big cancer there.
    But that's how you start the cure. You open it up and then 
you expose it, and then we start talking about it, and we deal 
with it.
    And the beauty of this country has always been once we 
focus on the problem, we're generally able to solve it, but 
it's getting us focused that is frequently the difficulty. You 
folks help in doing that.
    Ms. Bennett. We're grateful to you, Senator Brownback and 
to you, Senator Lieberman, because you are the ones who will 
provide the leadership. And we'd like to thank you for Hadassah 
Lieberman for being on our advisory council, and we'd like to 
thank you, Senator Brownback, for Becky Adams who often 
babysits our boys and makes them turn off the television.
    Senator Lieberman. I'm beginning to think as I listen here 
that I've been working with the wrong Bennett.
    Ms. Bennett. We're a team.
    Senator Lieberman. You're a great team. Maybe we all can go 
out to Hollywood together and give this message, because you 
are out there dealing with what we believe are the consequences 
of all this.
    Ms. Sarah Brown. In that context, I want to mention that 
about half of our Campaign's Media Task Force members who have 
signed on to work on reducing teen pregnancy live in Los 
Angeles (Warner Brothers, CBS and so forth), and I know they 
would all be highly motivated to work on this issue with you in 
some constructive way.
    Senator Lieberman. That's great.
    Senator Brownback. Let's further engage that.
    Thank you all for coming. Thank you all for being here. We 
are adjourned.
    [Whereupon, at 1:12 p.m. the Subcommittee was adjourned.]


    [GRAPHIC] [TIFF OMITTED] TH218.001
    
    [GRAPHIC] [TIFF OMITTED] TH218.002
    
    [GRAPHIC] [TIFF OMITTED] TH218.003
    
    [GRAPHIC] [TIFF OMITTED] TH218.004
    
    [GRAPHIC] [TIFF OMITTED] TH218.005
    
    [GRAPHIC] [TIFF OMITTED] TH218.006
    
    [GRAPHIC] [TIFF OMITTED] TH218.007
    
    [GRAPHIC] [TIFF OMITTED] TH218.008
    
    [GRAPHIC] [TIFF OMITTED] TH218.009
    
    [GRAPHIC] [TIFF OMITTED] TH218.010
    
    [GRAPHIC] [TIFF OMITTED] TH218.011
    
    [GRAPHIC] [TIFF OMITTED] TH218.012
    
    [GRAPHIC] [TIFF OMITTED] TH218.013
    
    [GRAPHIC] [TIFF OMITTED] TH218.014
    
    [GRAPHIC] [TIFF OMITTED] TH218.015
    
    [GRAPHIC] [TIFF OMITTED] TH218.016
    
    [GRAPHIC] [TIFF OMITTED] TH218.017
    
    [GRAPHIC] [TIFF OMITTED] TH218.018
    
    [GRAPHIC] [TIFF OMITTED] TH218.019
    
    [GRAPHIC] [TIFF OMITTED] TH218.020
    
    [GRAPHIC] [TIFF OMITTED] TH218.021
    
    [GRAPHIC] [TIFF OMITTED] TH218.022
    
    [GRAPHIC] [TIFF OMITTED] TH218.023
    
    [GRAPHIC] [TIFF OMITTED] TH218.024
    
    [GRAPHIC] [TIFF OMITTED] TH218.025
    
    [GRAPHIC] [TIFF OMITTED] TH218.026
    
    [GRAPHIC] [TIFF OMITTED] TH218.027
    
    [GRAPHIC] [TIFF OMITTED] TH218.028
    
    [GRAPHIC] [TIFF OMITTED] TH218.029
    
    [GRAPHIC] [TIFF OMITTED] TH218.030
    
    [GRAPHIC] [TIFF OMITTED] TH218.031
    
    [GRAPHIC] [TIFF OMITTED] TH218.032
    
    [GRAPHIC] [TIFF OMITTED] TH218.033
    
    [GRAPHIC] [TIFF OMITTED] TH218.034
    
    [GRAPHIC] [TIFF OMITTED] TH218.035
    
    [GRAPHIC] [TIFF OMITTED] TH218.036
    
    [GRAPHIC] [TIFF OMITTED] TH218.037
    
    [GRAPHIC] [TIFF OMITTED] TH218.038
    
    [GRAPHIC] [TIFF OMITTED] TH218.039
    
    [GRAPHIC] [TIFF OMITTED] TH218.040
    
    [GRAPHIC] [TIFF OMITTED] TH218.041
    
    [GRAPHIC] [TIFF OMITTED] TH218.042
    
    [GRAPHIC] [TIFF OMITTED] TH218.043
    
    [GRAPHIC] [TIFF OMITTED] TH218.044
    
    [GRAPHIC] [TIFF OMITTED] TH218.045
    
    [GRAPHIC] [TIFF OMITTED] TH218.046
    
    [GRAPHIC] [TIFF OMITTED] TH218.047
    
    [GRAPHIC] [TIFF OMITTED] TH218.048
    
    [GRAPHIC] [TIFF OMITTED] TH218.049
    
    [GRAPHIC] [TIFF OMITTED] TH218.050
    
    [GRAPHIC] [TIFF OMITTED] TH218.051
    
    [GRAPHIC] [TIFF OMITTED] TH218.052
    
    [GRAPHIC] [TIFF OMITTED] TH218.053
    
    [GRAPHIC] [TIFF OMITTED] TH218.054
    
    [GRAPHIC] [TIFF OMITTED] TH218.055
    
    [GRAPHIC] [TIFF OMITTED] TH218.056
    
    [GRAPHIC] [TIFF OMITTED] TH218.057
    
    [GRAPHIC] [TIFF OMITTED] TH218.058
    
    [GRAPHIC] [TIFF OMITTED] TH218.059
    
    [GRAPHIC] [TIFF OMITTED] TH218.060
    
    [GRAPHIC] [TIFF OMITTED] TH218.061
    
    [GRAPHIC] [TIFF OMITTED] TH218.062
    
    [GRAPHIC] [TIFF OMITTED] TH218.063
    
    [GRAPHIC] [TIFF OMITTED] TH218.064
    
    [GRAPHIC] [TIFF OMITTED] TH218.065
    
    [GRAPHIC] [TIFF OMITTED] TH218.066
    
    [GRAPHIC] [TIFF OMITTED] TH218.067
    
    [GRAPHIC] [TIFF OMITTED] TH218.068
    
    [GRAPHIC] [TIFF OMITTED] TH218.069
    
    [GRAPHIC] [TIFF OMITTED] TH218.070
    
    [GRAPHIC] [TIFF OMITTED] TH218.071
    
    [GRAPHIC] [TIFF OMITTED] TH218.072
    
    [GRAPHIC] [TIFF OMITTED] TH218.073
    
    [GRAPHIC] [TIFF OMITTED] TH218.074
    
    [GRAPHIC] [TIFF OMITTED] TH218.075
    
    [GRAPHIC] [TIFF OMITTED] TH218.076
    
    [GRAPHIC] [TIFF OMITTED] TH218.077
    
    [GRAPHIC] [TIFF OMITTED] TH218.078
    
    [GRAPHIC] [TIFF OMITTED] TH218.079
    
    [GRAPHIC] [TIFF OMITTED] TH218.080
    
    [GRAPHIC] [TIFF OMITTED] TH218.081
    
    [GRAPHIC] [TIFF OMITTED] TH218.082
    
    [GRAPHIC] [TIFF OMITTED] TH218.083
    
    [GRAPHIC] [TIFF OMITTED] TH218.084
    
    [GRAPHIC] [TIFF OMITTED] TH218.085
    
    [GRAPHIC] [TIFF OMITTED] TH218.086
    
    [GRAPHIC] [TIFF OMITTED] TH218.087
    
    [GRAPHIC] [TIFF OMITTED] TH218.088
    
    [GRAPHIC] [TIFF OMITTED] TH218.089
    
    [GRAPHIC] [TIFF OMITTED] TH218.090
    
    [GRAPHIC] [TIFF OMITTED] TH218.091
    
    [GRAPHIC] [TIFF OMITTED] TH218.092
    
    [GRAPHIC] [TIFF OMITTED] TH218.093
    
    [GRAPHIC] [TIFF OMITTED] TH218.094
    
    [GRAPHIC] [TIFF OMITTED] TH218.095
    
    [GRAPHIC] [TIFF OMITTED] TH218.096
    
    [GRAPHIC] [TIFF OMITTED] TH218.097
    
    [GRAPHIC] [TIFF OMITTED] TH218.098
    
    [GRAPHIC] [TIFF OMITTED] TH218.099
    
    [GRAPHIC] [TIFF OMITTED] TH218.100
    
    [GRAPHIC] [TIFF OMITTED] TH218.101
    
    [GRAPHIC] [TIFF OMITTED] TH218.102
    
    [GRAPHIC] [TIFF OMITTED] TH218.103
    
    [GRAPHIC] [TIFF OMITTED] TH218.104
    
    [GRAPHIC] [TIFF OMITTED] TH218.105
    
    [GRAPHIC] [TIFF OMITTED] TH218.106
    
    [GRAPHIC] [TIFF OMITTED] TH218.107
    
    [GRAPHIC] [TIFF OMITTED] TH218.108
    
    [GRAPHIC] [TIFF OMITTED] TH218.109
    
    [GRAPHIC] [TIFF OMITTED] TH218.110
    
    [GRAPHIC] [TIFF OMITTED] TH218.111
    
    [GRAPHIC] [TIFF OMITTED] TH218.112
    
    [GRAPHIC] [TIFF OMITTED] TH218.113
    
    [GRAPHIC] [TIFF OMITTED] TH218.114
    
    [GRAPHIC] [TIFF OMITTED] TH218.115
    
    [GRAPHIC] [TIFF OMITTED] TH218.116
    
    [GRAPHIC] [TIFF OMITTED] TH218.117
    
    [GRAPHIC] [TIFF OMITTED] TH218.118
    
    [GRAPHIC] [TIFF OMITTED] TH218.119
    
    [GRAPHIC] [TIFF OMITTED] TH218.120
    
    [GRAPHIC] [TIFF OMITTED] TH218.121
    
    [GRAPHIC] [TIFF OMITTED] TH218.122
    
    [GRAPHIC] [TIFF OMITTED] TH218.123
    
    [GRAPHIC] [TIFF OMITTED] TH218.124
    
    [GRAPHIC] [TIFF OMITTED] TH218.125
    
    [GRAPHIC] [TIFF OMITTED] TH218.126
    
    [GRAPHIC] [TIFF OMITTED] TH218.127
    
    [GRAPHIC] [TIFF OMITTED] TH218.128
    
    [GRAPHIC] [TIFF OMITTED] TH218.129
    
    [GRAPHIC] [TIFF OMITTED] TH218.130
    
    [GRAPHIC] [TIFF OMITTED] TH218.131
    
    [GRAPHIC] [TIFF OMITTED] TH218.132
    
    [GRAPHIC] [TIFF OMITTED] TH218.133
    
    [GRAPHIC] [TIFF OMITTED] TH218.134
    
    [GRAPHIC] [TIFF OMITTED] TH218.135
    
    [GRAPHIC] [TIFF OMITTED] TH218.136
    
    [GRAPHIC] [TIFF OMITTED] TH218.137
    
    [GRAPHIC] [TIFF OMITTED] TH218.138
    
    [GRAPHIC] [TIFF OMITTED] TH218.139
    
                                  <all>
</pre></body></html>
